No. _________

IN THE

Supreme Court of the United States
_____________________________

MARK ALLEN JENKINS,
Petitioner,
v.
JEFFERSON DUNN,
COMMISSIONER OF THE ALABAMA
DEPARTMENT OF CORRECTIONS,
Respondent.
_____________________________

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit
_____________________________

PETITION APPENDIX VOLUME 3
_____________________________
Joseph T. Flood
SHELDON & FLOOD, P.L.C.
10621 Jones Street
Suite 301A
Fairfax, VA 22030

Mridula S. Raman
Counsel of Record
Ty Alper
Elisabeth A. Semel
DEATH PENALTY CLINIC
UNIVERSITY OF CALIFORNIA, BERKELEY
SCHOOL OF LAW
Berkeley, CA 94720
(510) 642-5748
mraman@berkeley.edu

Counsel for Petitioner

TABLE OF CONTENTS
Memorandum Opinion Denying Motion for Evidentiary Hearing,
Jenkins v. Allen, No. 4:08-cv-00869-VEH-SGC
(N.D. Ala. Mar. 31, 2015) ................................................................................. 389a
Ex parte Jenkins, 972 So. 2d 159 (Ala. 2005) .......................................................... 443a
Jenkins v. State, 972 So. 2d 111 (Ala. Crim. App. 2004) ........................................ 450a
Jenkins v. State, No. CC-89-68.60 (St. Clair Cnty. Cir. Ct. Dec. 31, 1997) ........... 499a
Order Denying Petition for Rehearing En Banc,
Jenkins v. Commissioner, Alabama Department of Corrections,
No. 17-12524 (11th Cir. Aug. 26, 2020) ........................................................... 579a

i

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 1 of 54
389a

2015 Mar-31 PM 01:56
U.S. DISTRICT COURT
N.D. OF ALABAMA

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
MIDDLE DIVISION
MARK ALLEN JENKINS,

)
)
Petitioner,
)
)
v.
) Case no. 4:08-00869-VEH-SGC
)
RICHARD ALLEN, Commissioner, )
Alabama Department of Corrections, )
)
Respondent.
)
__________________________________________________________________
MEMORANDUM OPINION
The petitioner, Mark Allen Jenkins (“Jenkins”), is an Alabama state inmate

sentenced to death. Before the court is Jenkins’s motion for an evidentiary hearing
on the claim that he is mentally retarded under Atkins v. Virginia, 536 U.S. 304
(2002). (Doc. 49). For the following reasons, the petitioner’s Atkins claim is without
merit, and he is not entitled to an evidentiary hearing on this claim.
I. PROCEDURAL HISTORY
In June 1989, Jenkins was indicted in the St. Clair County Circuit Court on two
counts of capital murder for the strangling death of Tammy Ruth Hogeland. (C.R.
Vol. 10, Tab 27 at 23).1 The indictment charged that Jenkins intentionally killed Ms.
1

FILED

The court will utilize the following method of citation to the record. References to specific pages
of the court record on direct appeal are designated “(C.R.__ )” and references to the transcript on
direct appeal are designated “(R.__ ).” References to the court record of the Rule 32 proceedings

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 2 of 54
390a

Hogeland during the course of a robbery2 and kidnapping.3 Jenkins was represented
at trial by Douglas Scofield and Stan Downey. The guilt phase of the trial
commenced on March 12, 1991. (C.R. Vol. 45, Tab 73 at 1). On March 19, 1991,
Jenkins was convicted as charged. (Id.). After a twenty-minute recess, the court
proceeded with the penalty phase of the trial.4 (Id.). Later that day, the jury
recommended by a vote of 10-2 that Jenkins be sentenced to death. (Id.; R. Vol. 9,
Tab 24 at 1763). At the April 10, 1991 sentencing hearing,5 the trial court followed
the jury’s recommendation and sentenced Jenkins to death. (R. Vol. 9, Tab 26 at
1795).
Jenkins was represented by Douglas Scofield on direct appeal. He raised a
variety of issues on appeal, including: (1) insufficiency of the evidence; (2) the

are designated “(Rule 32 C.R. __ )” and references to the transcript of the Rule 32 hearing are
designated “(Rule 32 R. __ ).” The court will strive to list any page number associated with the court
records by reference to the numbers at the bottom of each page of a particular document, if said
numbers are the most readily discoverable for purposes of expedient examination of that part of the
record. Otherwise, the page numbers shall correspond with those listed at the upper right hand
corner of the record. Additionally, the court has cited to any easily identifiable tab numbers close
to any cited material for the reader’s benefit.
2

See Ala. Code § 13A-5-40(a)(2) (1975).

3

See Ala. Code § 13A-5-40(a)(1) (1975).

4

Jenkins’s friend Lonnie Seal was the only witness at the penalty phase. She testified that Jenkins
was a good friend, who was helpful, generou,s and kind. Seal further testified that he trusted
Jenkins, even with his wife and baby. (R. Vol. 9, Tab 19 at 1718-27).
5

The transcript of the sentencing hearing is located at R. Vol. 9, Tabs 25-26.
2

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 3 of 54
391a

court’s failure to suppress physical evidence; (3) the admission of testimony from
several prosecution witnesses; (4) the selection of the jury; (5) alleged violations of
Batson v. Kentucky, 476 U.S. 79 (1986); (6) the court’s findings on aggravating and
mitigating circumstances; (7) prosecutorial misconduct during closing arguments in
the guilt and sentencing phases; and (8) the court’s jury instructions. (C.R. Vol. 12,
Tabs 28, 30, 32). The Alabama Court of Criminal Appeals affirmed Jenkins’s
convictions and sentence on February 28, 1992. Jenkins v. State, 627 So. 2d 1034
(Ala. Crim. App. 1992). On May 28, 1993, the Alabama Supreme Court affirmed
Jenkins’s capital murder convictions and death sentence. Ex parte Jenkins, 627 So.
2d 1054 (Ala. 1993). On March 28, 1994, the United States Supreme Court denied
Jenkins’s petition for a writ of certiorari. Jenkins v. Alabama, 511 U.S. 1012 (1994).
On May 26, 1995, Jenkins, through counsel,6 filed a Rule 32 petition in the St.
Clair County Circuit Court. (Rule 32 C.R. Vol. 17, Tab. 42). Jenkins filed an
amended petition on November 26, 1996.

(Rule 32 C.R. Vol. 18, Tab 47).

Evidentiary hearings were held on December 10, 1996, and January 20-21, 1997.
(Rule 32 R. Vol. 19, Tab 48; Rule 32 R. Vol. 22). On December 31, 1997, the trial
court denied the petition. (Rule 32 R. Vol. 45, Tab 77).

6

Jenkins was represented by his current counsel, Joseph T. Flood, Esq.
3

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 4 of 54
392a

Jenkins appealed the denial of his Rule 32 petition to the Alabama Court of
Criminal Appeals, which affirmed the trial court on February 27, 2004. In affirming,
the Court of Criminal Appeals specifically found that Jenkins’s death sentence did
not violate Atkins. Jenkins v. State, 972 So. 2d 111, 154-55 (Ala. Crim. App. 2004).
The Alabama Court of Criminal Appeals denied Jenkins’s application for rehearing
on May 21, 2004. Jenkins v. State, 972 So. 2d 111 (Ala. Crim. App. 2004). On April
8, 2005, the Alabama Supreme Court affirmed the Court of Criminal Appeals’
affirmance of the trial court’s denial of the Atkins claim.7 Ex parte Jenkins, 972 So.
2d 159 (Ala. 2005). The United States Supreme Court denied Jenkins’s petition for
a writ of certiorari on January 22, 2008. Jenkins v. Alabama, 552 U.S. 1167 (2008).
On August 11, 2008, Jenkins, through counsel, filed an amended § 2254
petition in this court. (Doc. 12). The respondent filed an answer to the amended
petition on October 29, 2008. (Doc. 20). On November 12, 2008, the action was
stayed to allow the petitioner to pursue a second state Rule 32 petition based upon Ex
Parte Burgess, 21 So.3d 746 (Ala. 2008). (Doc. 25). On June 20, 2013, Jenkins filed
an amended petition raising his newly exhausted juror misconduct claim. (Doc. 36).
The respondent filed an answer to the amendment on September 3, 2013. (Doc. 40).
Jenkins filed a reply brief on November 14, 2013. (Doc. 48).
7

The Alabama Supreme Court reversed the judgment of the Alabama Court of Criminal Appeals
on an unrelated claim and remanded the case for further proceedings on that claim. Id.
4

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 5 of 54
393a

On November 14, 2013, Jenkins filed a Motion for an Evidentiary Hearing on
his Atkins claim. (Doc. 49). The respondent filed an opposition to the motion on
September 22, 2014. (Doc. 51). On October 8, 2014, Jenkins filed a reply to the
respondent’s opposition. (Doc. 52). The matter is now ripe for resolution.
II. THE MOTION
In his motion, Jenkins requests that the court “issue a writ of habeas corpus on
his Atkins claim” or, in the alternative, hold an evidentiary hearing allowing him “to
present evidence in support of his claim that he is mentally retarded under Atkins v.
Virginia.” (Doc. 49 at 11). Jenkins argues “the evidence introduced during the Rule
32 proceedings in support of his claims of ineffective assistance of counsel
conclusively establishes his mental retardation.” (Id. at 5-6). Jenkins only requests
an evidentiary hearing to the extent this court finds the record insufficient to grant
relief, “as he was diligent in requesting a hearing in state court.” (Id. at 6).
III. PRESENTATION OF THE CLAIM IN STATE COURT
A. Pre-Atkins Review
Jenkins’s trial took place in 1991, more than a decade prior to the Atkins
decision in June 2002. Jenkins made no argument concerning his mental capacity at
trial. However, in his amended Rule 32 petition, filed May 25, 1995, Jenkins argued
trial counsel was ineffective for failing to investigate and present mitigating evidence
5

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 6 of 54
394a

showing: (1) he was developmentally impaired since birth; (2) he possessed learning
disabilities, low intelligence, poor comprehension, and retarded socialization skills
that prevented him from achieving academically and forming normal relationships;
and (3) he had a long history of mental health problems. (Rule 32 C.R. Vol. 18, Tab
47 at 16-17).
The trial court conducted evidentiary hearings on December 10, 1996, and
January 20-21, 1997. (Rule 32 R. Vol. 19, Tab 48; Rule 32 R. Vol. 22). Among the
witnesses at the hearings were two mental health experts, Dr. David Lisak and Dr.
Karl Kirkland. On December 31, 1997, the trial court denied the petition. (Rule 32
R. Vol. 45, Tab 77). The mental health evidence presented to the trial court is
summarized below.
1. Dr. Lisak: Jenkins’s Mental Health Expert
Dr. David Lisak, the clinical psychologist8 retained by Jenkins, testified at the
Rule 32 hearing that he evaluated Jenkins from August 22-23, 1996, and again on
October 11, 1996, for a total of at least 12 hours. (Rule 32 R. Vol. 21 at 432-33). Dr.
Lisak also reviewed the transcript of the witnesses who testified earlier in the
evidentiary hearing. He also interviewed: Lonnie and Sherry Seal (friends Jenkins
lived with when he first moved to Alabama); Virginia Price and Bonnie Adams (the
8

Dr. Lisak testified that his area of research and expertise is psychological trauma, the study of the
impact of traumatic events on individuals. (Rule 32 R. Vol. 21 at 440).
6

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 7 of 54
395a

guards who watched over Jenkins while he was in the St. Clair County Jail); Betty
Delavega (Jenkins’s second cousin); Anna Clark (a family friend); Sharon Roberts
(Jenkins’s aunt); Steven Michael Jenkins (Jenkins’s brother); Donna Jo Jenkins
(Jenkins’s mother); Steven Jenkins, Sr. (Jenkins’s step-father); Jerry White (Jenkins’s
step-father’s sister); Eva Dano (a family friend); and Dorothy Hodge (Jenkins’s stepfather’s mother). (Id. at 432-34).
Dr. Lisak also reviewed various records in preparation for the hearing,
including: Jenkins’s birth certificate; hospital records from Jenkins’s birth; Jenkins’s
juvenile records; records from the San Bernardino Department of Mental Health;
school records for both Jenkins and his siblings; records from Jenkins’s time at
Taylor Hardin Secure Medical Facility; Jenkins’s medical records from Holman
Prison; records from the Department of Corrections; the psychiatric records of
Jenkins’s sister, Pammy Jo Montez; the Lunacy Commission’s Report on Jenkins; the
pre-sentence investigation report on Jenkins; large portions of original trial transcript;
newspaper reports concerning Jenkins’s crime; the District Attorney’s file; the police
report regarding an interview with Jenkins while in custody at the Los Angeles
County Jail; and the transcript of the earlier portion of the evidentiary hearing. (Id.
at 435-38).

7

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 8 of 54
396a

Dr. Lisak did not perform any psychiatric testing. (Rule 32 R. Vol. 21 at 46768). Rather, he explained that he evaluated Jenkins for the purpose of constructing
a developmental history and “to evaluate the abuse he had suffered and describe and
interpret for his attorneys the impact of those traumas on his development.” (Rule 32
R. Vol. 22 at 575). Dr. Lisak determined Jenkins: (1) was a slow learner; (2) was
physically, emotionally, and sexually abused; (3) was neglected both medically and
in terms of nurturing and basic loving and care; and (4) suffered from pervasive
adverse impacts to his cognitive development due to chronic and severe trauma
suffered during childhood. (Rule 32 R. Vol. 21 at 443-49). Further, based upon his
interviews of third-parties, review of the records, and evaluation of Jenkins, Dr. Lisak
concluded Jenkins: (1) had suffered from emotional, psychiatric, and psychological
disturbances all his life; (2) was severely depressed for much of his life; and (3)
suffered post-traumatic stress symptoms throughout his life. (Rule 32 R. Vol. 22 at
486-492). Finally, Dr. Lisak testified that he did not diagnose Jenkins as suffering
from any mental disease or defect because he was not asked to make a diagnosis. (Id.
at 571). However, Dr. Lisak concurred with Dr. Kirkland’s test results indicating
Jenkins had borderline intellectual capacity. (Rule 32 R. Vol. 21 at 467-68).

8

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 9 of 54
397a

2. Dr. Kirkland: The State’s Mental Health Expert
Dr. Karl Kirkland, a licensed psychologist retained by the state to evaluate
Jenkins, testified that he performed a “general post conviction appeal evaluation” of
Jenkins. (Rule 32 R. Vol. 22 at 610-11, 618). In conjunction with the evaluation, Dr.
Kirkland reviewed the Rule 32 petition, the original trial transcript, and
administrative and medical records from the Department of Corrections. Dr. Kirkland
also attended the earlier portion of the evidentiary hearing on the Rule 32 petition,
observed Jenkins’s prison cell, and spoke with Jenkins’s therapist. (Id. at 618). On
September 5, 1996, Dr. Kirkland met with Jenkins at Holman Prison and administered
a number of psychological tests over a four or five hour period. (Id. at 619). Dr.
Kirkland found that Jenkins: (1) maintained a clean and organized cell; (2) had good
relationships with guards; (3) was depressed; and (4) was taking a mild tranquilizer
and anti-depressant. (Id. at 619-21). Dr. Kirkland stated that, although Jenkins did
not seem to trust him, he seemed to understand who he was and why he was there.
(Id. at 620-21).
Dr. Kirkland administered a Bach Depression Inventory test, which is a
questionnaire relating to symptoms of depression in numerous categories. (Id. at 62122). The results of the Bach Depression Inventory test showed severe depression.
(Id. at 622).
9

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 10 of 54
398a

Dr. Kirkland explained that the Minnesota Multiphasic Personality Inventory
test is a 399-item self-reported true-false inventory. When scored, it produces a
profile that can be used to evaluate the subject’s validity or test-taking attitude,
clinical characteristics, as well as past and current emotional functioning. (Id. at 62223).9 Dr. Kirkland testified Jenkins produced an invalid profile on this test “in that
he answered the questions in a way that tended to over-emphasize psycho-pathology,
much like he did on the Bach Depression Inventory.” (Id. at 623). Dr. Kirkland
indicated the results did not match Jenkins’s clinical presentation. (Id.)
Dr. Kirkland also performed a Competency to Stand Trial Assessment on
Jenkins. It is a structured interview that assesses a person’s understanding of the trial
process and the legal system. The results indicated that Jenkins “had an adequate
understanding of the trial process and did not evidence a mental disorder that would
interfere with that process.” (Id. at 623-24).
The Wechsler Adult Intelligence Scale is an intelligence test commonly
administered and accepted in the field. (Id. at 624). Jenkins “scored in the range of
borderline intellectual functioning which is between mild mental retardation and low
average intellectual functioning.” (Id. at 624, 670). Jenkins’s overall IQ score was
76. (Id.). Dr. Kirkland opined that Jenkins “cooperated and was not malingering or
9

Because Jenkins reads at a third grade level, Dr. Kirkland had to read the test questions to him. (Id.
at 641).
10

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 11 of 54
399a

trying to throw the results a certain way,” which was “consistent with his school
records that Dr. Lisak testified about and consistent with other reports of his
difficulties with academic functioning.” (Id. at 624). Further, Dr. Kirkland noted in
the following testimony that an IQ of 76 is two standard deviations below the norm,
placing Jenkins in the bottom ten percent of the population:
Q: What is [Jenkins’s] IQ?
A: Borderline range.
Q: Did you testify it was 76?
A: Yes.
Q: Is IQ a measurement of intelligence or intelligence potential that [is]
fairly constant over a lifetime?
A: It tends to be, yes.
Q: Do you know how many standard deviations with an IQ of 76 is
below that?
A: Two.
Q: Approximately two standard deviations – that would place [Jenkins]
in what percentile of the population?
A: Under ten percent – it is getting pretty low.
Q: Do you know what the cut-off for being considered mentally retarded
is?
A: Under seventy.
11

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 12 of 54
400a

Q: Is that the only standards [sic] ? Are there national standards that
recognizes [sic] mental retardation at 75 and below?
A: I’m not aware of that. The other standard would be integrating,
social and adaptive behavior into that, which I did not do in this case.
That is really not what I was looking for.
Q: Would it be fair to characterize [Jenkins’s] performance on this
testing as consistently in the bottom percentile?
A: Yes.
(Id. at 670-71).
The RAT-3 is a test of achieved knowledge or actual academic achievement.
On this test, Dr. Kirkland found Jenkins was “functioning on a third grade level in
both reading, spelling and arithmetic, which placed him at the first percentile,” which
is “generally consistent with the [WAIS-R] Results and generally consistent with his
clinical presentation and also consistent with his history.” (Id. at 625; see 669). Dr.
Kirkland concluded Jenkins was “not technically learning disabled, as much as he is
just a slow learner overall.” (Id.).
The Short Category Test Booklet Format is used as a neuro-psychological
screening instrument. It is a shortened version of a much longer neuro-psychological
test that is part of a battery of tests. (Id. at 626). This test measures brain damage,
flexibility, and problem solving ability. (Id. at 669-70). Jenkins scored at the first

12

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 13 of 54
401a

percentile on this test, which is in an impaired range. (Id. at 626, 669). Dr. Kirkland
testified that in his experience “often inmates that have been incarcerated for a while
tend to have difficulty with this particular test, not necessarily because of brain
damage, but because they have trouble shifting gears and get easily frustrated with
the task.” (Id. at 626).
Finally, Dr. Kirkland administered the Forensic Assessment of Criminal
Responsibility Procedure on Jenkins. (Id.). It is “a procedure that involves or is
present in any mental state at the time of offense or forensic evaluation that involves
assigning some type of criminal responsibility.” (Id.). It involves reviewing “trial
transcripts or the D.A. file, taking a statement from the defendant about his feelings,
actions, and behavior surrounding the time of the offense as well as post-offense
behavior which would in this case include leaving the State and requesting an alibi
if one assumes those facts are true.” (Id. at 627). From his review of the D.A. file,
Dr. Kirkland concluded Jenkins’s behavior showed an “awareness of wrongfulness
or criminality after the offense and that his behavior was not entirely consistent with
what [Jenkins] told [Dr. Kirkland] about being in a black-out the entire time.” (Id.).
Dr. Kirkland also reviewed Jenkins’s records from Taylor Hardin, including
the diagnosis reached by the Lunacy Commission. He summarized the findings of the
Lunacy Commission as follows:
13

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 14 of 54
402a

They basically concluded that he was capable of proceeding toward trial,
and they did not find the presence of a disorder that would have
detracted from criminal responsibility. At least two of the three people
suggested that was their finding.10
(Id. at 634). Dr. Kirkland noted the Lunacy Commission conducted its evaluations
approximately fourteen months after the offense. This was significant to Dr. Kirkland
because it is “a lot easier to do a retrospective analysis fourteen months after an
offense rather than several years after an offense.” (Id. at 635).
Dr. Kirkland’s opinion ultimately was that Jenkins did not suffer from a mental
disease or disorder at the time of the murder that would have detracted from his
ability to appreciate the criminality of his acts. (Id. at 636, 687). Dr. Kirkland added
that, because Jenkins’s IQ and achievement scores are roughly in the same vicinity,
Jenkins does not have a learning disability but is a slow learner.11 (Id. at 675-76).
B. Post-Atkins Review
10

The Lunacy Commission’s evaluations took place in 1990, the year after the murder was
committed. Dr. Wolfram Glaser found that Jenkins suffered no substantial cognitive impairment.
Dr. Glaser further found an Axis II diagnosis of borderline intellectual functioning. (Rule 32 C.R.
Vol. 25 at 557-63). Dr. James F. Hooper also found no evidence of any significant cognitive
impairments but did not reach an Axis II diagnosis. (Id. at 564-68). The third member of the
commission, Dr. Kamal A. Nagi, was unable to make an assessment of Jenkins, who announced to
Dr. Nagi that he was “getting tired of talking about the same damn thing” and was not going to talk
any more. (Id. at 556). Additionally, in the admission summary prepared at Taylor Hardin, staff
social worker Carol Williams and Dr. Glaser noted that Jenkins displayed no obvious cognitive
impairment but that he appeared to be of limited intellectual capabilities and possibly had borderline
intellectual functioning. (Id. at 545-55).
11

However, Dr. Kirkland went on to state that he did not test Jenkins for dyslexia and would not
refute that diagnosis if school records revealed Jenkins was dyslexic. (Id. at 676).
14

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 15 of 54
403a

Jenkins appealed the denial of his Rule 32 petition to the Alabama Court of
Criminal Appeals. Both sides briefed the issues raised by Jenkins and argued them
before the appellate court. On June 20, 2002, before the Alabama Court of Criminal
Appeals issued an opinion, the United States Supreme Court handed down its opinion
in Atkins v. Virginia, 536 U.S. 304 (2002). In Atkins, the Court held that the
execution of mentally retarded criminals violates the Eighth Amendment’s
prohibition of cruel and unusual punishment. Thus, while Jenkins’s collateral appeal
was still pending, the Alabama Court of Criminal Appeals ordered the parties to file
supplemental briefs, addressing the possible impact of Atkins on Jenkins’s case.12
The parties both submitted supplemental briefs on August 15, 2002. The State
contended any claim by Jenkins that he is mentally retarded is procedurally barred
and that Jenkins is not mentally retarded. (Appellee’s Supplemental Brief, Rule 32
C.R. Vol. 39, Tab 55). Jenkins argued that, because his mental retardation is
supported by the record and because Alabama has no procedure for adjudicating
mental retardation in capital cases, the court should either: (1) stay his appeal until
the Alabama Legislature enacts appropriate legislation in light of Atkins; or (2) vacate
his death sentence and remand the case to the trial court with directions to stay the
case until the legislature enacts such legislation. (Appellant’s Supplemental Brief,
12

The Atkins decision announced a new rule of constitutional law made retroactive to cases on
collateral review. See In re Holladay, 331 F.3d 1169, 1172 (1lth Cir. 2003).
15

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 16 of 54
404a

Rule 32 C.R. Vol. 39, Tab 56). The state submitted a reply brief on September 19,
2002. (Appellee’s Supplemental Reply Brief, Rule 32 C.R. Vol. 39, Tab 57).
Simultaneously, Jenkins submitted a supplemental reply brief, arguing: (1) his Atkins
claim was not procedurally barred; (2) his case should be stayed pending the
enactment of appropriate Atkins legislation; and (3) it would be cruel and unusual
punishment to execute Jenkins because he is mentally retarded. (Appellant’s
Supplemental Reply Brief, Rule 32 C.R. Vol. 39, Tab 58).
The Alabama Court of Criminal Appeals affirmed the trial court’s denial of
Jenkins’s amended Rule 32 petition on February 27, 2004. Jenkins v. State, 972 So.
2d 111 (Ala. Crim. App. 2004). With regard to Jenkins’s Atkins claim, the court
found the following:
Neither is there any indication that Jenkins’s death sentence
violates the United States Supreme Court’s holding in Atkins v. Virginia,
536 U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d 335 (2002). The United
States Supreme Court held in Atkins v. Virginia, that it was cruel and
unusual punishment in violation of the Eighth Amendment to execute a
mentally retarded individual. Though Alabama has not enacted
legislation addressing the holding in Atkins, our Supreme Court in Ex
parte Perkins, 808 So.2d 1143 (Ala.2001), has applied the most liberal
view of mental retardation. To be considered mentally retarded a
defendant must have a significantly subaverage intellectual functioning
(an IQ score of 70 or below), significant deficits in adaptive behavior,
and the problems must have manifested themselves before the defendant
reached the age of 18. Perkins.

16

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 17 of 54
405a

Dr. Kirkland testified that he performed psychological tests on
Jenkins and that Jenkins’s IQ was 76. There was evidence presented at
Jenkins’s trial indicating that Jenkins maintained relationships with
other individuals and that he had been employed by P.S. Edwards
Landscaping Company, Cotton Lowe 76 Service Station, and Paramount
Painting Company. The record fails to show that Jenkins meets the most
liberal view of mental retardation adopted by the Alabama Supreme
Court in Perkins. Jenkins’s death sentence does not violate Atkins v.
Virginia.
Id. at 154-55.
Jenkins next raised the claim in an application for rehearing. (Brief in Support
of Petition for Writ of Certiorari, Rule 32 C.R. Vol. 39, Tab 59 at 58). The Alabama
Court of Criminal Appeals denied his application for rehearing on May 21, 2004.
Jenkins v. State, 972 So. 2d 111 (Ala. Crim. App. 2004). Jenkins then presented the
claim to the Alabama Supreme Court in a petition for writ of certiorari, arguing that
because he made a prima facie showing of mental retardation, it was unreasonable for
the Alabama Court of Criminal Appeals to refuse to remand his case to the trial court
for an evidentiary hearing. (Petition for Writ of Certiorari, Rule 32 C.R. Vol. 40, Tab
60 at 57; Brief in Support of Petition for Writ of Certiorari, Rule 32 C.R. Vol. 40,
Tab 61 at 109). On April 8, 2005, the Alabama Supreme Court affirmed the Court of
Criminal Appeals’ affirmance of the trial court’s denial of this claim. Ex parte
Jenkins, 972 So. 2d 159 (Ala. 2005).

17

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 18 of 54
406a

IV. THE HABEAS CLAIM
Jenkins contends he is mentally retarded and ineligible for execution under
Atkins. Because this claim was denied on the merits in the state court, this court must
first determine whether the state court’s decision can survive review under 28 U.S.C.
§ 2254(d). Unless Jenkins prevails on his claim under § 2254(d), he is not entitled
to present new evidence to this court and is not entitled to an evidentiary hearing on
his mental retardation claim. See Cullen v. Pinholster, 131 S. Ct. 1388, 1398-99
(2011). The review of Jenkins’s Atkins claim in this court is “limited to the record
that was before the state court that adjudicated the claim on the merits.” Id. at 1398.
Further, the “backward-looking language” of the statute requires an examination of
the state court’s decision on the date it was made. Id.
A. Title 28 U.S.C. § 2244(d)
“By its terms § 2254(d) bars relitigation of any claim adjudicated on the merits
in state court, subject only to the exceptions in §§ 2254(d)(1) and (d)(2).”
Harrington v. Richter, 131 S. Ct. 770, 784 (2011)(internal quotations omitted).13
Those sections provide that when a state court has made a decision on a petitioner’s
constitutional claim, habeas relief cannot be granted unless the state court’s
adjudication of the claim either:
13

It does not matter whether the state court decision contains a lengthy analysis of the claim or is a
summary ruling “unaccompanied by explanation.” Id.
18

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 19 of 54
407a

(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d).
The “contrary to” and “unreasonable application” clauses of § 2254(d) have
been interpreted as “independent statutory modes of analysis.” Alderman v. Terry,
468 F.3d 775, 791 (11th Cir. 2006) (citing Williams, 529 U.S. at 405-07).14 When
considering a state court’s adjudication of a petitioner’s claim, therefore, the habeas
court must not conflate the two modes of analysis.
1. The meaning of § 2254(d)(1)’s “contrary to” clause
A state-court determination can be “contrary to” clearly established Supreme
Court precedent in at least two ways:
First, a state-court decision is contrary to this Court’s precedent if the
state court arrives at a conclusion opposite to that reached by this Court
on a question of law. Second, a state-court decision is also contrary to
this Court’s precedent if the state court confronts facts that are
14

See also Williams, 529 U.S. at 404 (O’Connor, J., majority opinion) (“Section 2254(d)(1) defines
two categories of cases in which a state prisoner may obtain federal habeas relief with respect to a
claim adjudicated on the merits in state court. Under the statute, a federal court may grant a writ of
habeas corpus if the relevant state-court decision was either (1) ‘contrary to . . . clearly established
Federal law, as determined by the Supreme Court of the United States,’ or (2) ‘involved an
unreasonable application of . . . clearly established Federal law, as determined by the Supreme Court
of the United States.’”) (emphasis supplied).
19

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 20 of 54
408a

materially indistinguishable from a relevant Supreme Court precedent
and arrives at a result opposite to ours.
Williams, 529 U.S. at 405 (emphasis added); see also, e.g., Brown v. Payton, 544 U.S.
133, 141 (2005) (same); Early v. Packer, 537 U.S. 3, 8 (2002) (per curiam) (same);
Putman v. Head, 268 F.3d 1223, 1240-41 (11th Cir. 2001) (same).
The Eleventh Circuit has observed that the majority opinion in Williams does
not limit the construction of § 2254(d)(1)’s “contrary to” clause to the two examples
set forth above.15 Instead, the statutory language “simply implies that ‘the state
court’s decision must be substantially different from the relevant precedent of [the
15

Indeed, as one commentator has observed, the possible permutations are not just two, but at least
four in number:
The word “contrary” denotes incompatibility or logical inconsistency. Two
propositions are incompatible with one another if both cannot be true or correct.
Thus, a state court decision is contrary to federal law if that decision and the
applicable federal law cannot both be true or correct. Given this premise, there
appear to be four possible combinations of state court adjudications and resulting
decisions that are pertinent to this textual inquiry:
•

the state court applies the correct federal standard and arrives at a correct
outcome;

•

the state court applies an incorrect federal standard and arrives at an incorrect
outcome;

•

the state court applies an incorrect federal standard and arrives at a correct
outcome; and

•

the state court applies the correct federal standard and arrives at an incorrect
outcome.

Allan Ides, Habeas Standards of Review Under 28 U.S.C. § 2254(d)(1): A Commentary on Statutory
Text and Supreme Court Precedent, 60 WASH. & LEE L. REV. 677, 685 (2003) (footnotes omitted).
20

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 21 of 54
409a

Supreme] Court.’” Alderman, 468 F.3d at 791 (quoting Williams, 529 U.S. at 405)
(alteration supplied).
2. The meaning of § 2254(d)(1)’s “unreasonable application” clause
A state court’s determination of a federal constitutional claim can result in an
“unreasonable application” of clearly established Supreme Court precedent in either
of two ways:
First, a state-court decision involves an unreasonable application of this
Court’s precedent if the state court identifies the correct governing legal
rule from this Court’s cases but unreasonably applies it to the facts of
the particular state prisoner’s case. Second, a state-court decision also
involves an unreasonable application of this Court’s precedent if the
state court either unreasonably extends a legal principle from our
precedent to a new context where it should not apply or unreasonably
refuses to extend that principle to a new context where it should apply.
Williams, 529 U.S. at 407 (emphasis added) see also, e.g., Putman, 268 F.3d at 124041 (same).
It is important to note that “an unreasonable application of federal law is
different from an incorrect application.” Williams, 529 U.S. at 410 (emphasis in
original). A federal habeas court “may not issue the writ simply because that court
concludes in its independent judgment that the relevant state-court decision applied
clearly established federal law erroneously or incorrectly. Rather, that application
must also be unreasonable.” Id. at 411 (emphasis added).

21

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 22 of 54
410a

In other words, the question is not whether the state court “correctly” applied
Supreme Court precedent when deciding the federal constitutional issue but whether
the state court’s determination was “unreasonable.” Id. at 409 (“[A] federal habeas
court making the ‘unreasonable application’ inquiry should ask whether the state
court’s application of clearly established federal law was objectively unreasonable.”);
see also, e.g., Bell, 535 U.S. at 694 (observing the “focus” of the inquiry into the
reasonableness of a state court’s determination of a federal constitutional issue “is on
whether the state court’s application of clearly established federal law is objectively
unreasonable,” and stating that “an unreasonable application is different from an
incorrect one”); Harrington v. Richter, 131 S. Ct. 770, 785-87 (2011) (same).16
In order to demonstrate that a state court’s application of clearly established
federal law was “objectively unreasonable,” the habeas petitioner “must show that
the state court’s ruling on the claim being presented in federal court was so lacking

16

The Eleventh Circuit has observed that § 2254(d)(1)’s “unreasonable application” provision is the
proper statutory lens for viewing the “run-of-the-mill state-court decision applying the correct legal
rule.” Alderman v. Terry, 468 F.3d 775, 791 (11th Cir. 2006).
In other words, if the state court identified the correct legal principle but
unreasonably applied it to the facts of a petitioner’s case, then the federal court
should look to § 2254(d)(1)’s “unreasonable application” clause for guidance. “A
federal habeas court making the ‘unreasonable application’ inquiry should ask
whether the state court’s application of clearly established federal law was objectively
unreasonable.”
Id. (quoting Williams, 529 U.S. at 409) (emphasis in original).
22

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 23 of 54
411a

in justification that there was an error well understood and comprehended in existing
law beyond any possibility for fairminded disagreement.” Id. at 786-87 (emphasis
added). Stated another way, if the state-court’s resolution of a claim is debatable
among fairminded jurists, it is not “objectively unreasonable.”
“By its very language, [the phrase] ‘unreasonable application’ refers to mixed
questions of law and fact, when a state court has ‘unreasonably’ applied clear
Supreme Court precedent to the facts of a given case.” Neelley v. Nagle, 138 F.3d
917, 924 (11th Cir. 1998) (citation and footnote omitted). Mixed questions of
constitutional law and fact are those decisions “which require the application of a
legal standard to the historical-fact determinations.” Townsend v. Sain, 372 U.S. 293,
309 n.6 (1963).
3. The meaning of § 2254(d)(2)’s clause addressing an “unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding”
“28 U.S.C. § 2254(d)(2) imposes a ‘daunting standard — one that will be
satisfied in relatively few cases.’” Cash v. Maxwell, 132 S. Ct. 611, 612 (2012)
(quoting Maxwell v. Roe, 628 F.3d 486, 500 (9th Cir. 2010) (internal quotation marks
omitted in original)).
As we have observed in related contexts, “[t]he term ‘unreasonable’ is
no doubt difficult to define.” Williams v. Taylor, 529 U.S. 362, 410, 120
S. Ct. 1495, 146 L. Ed. 2d 389 (2000). It suffices to say, however, that
23

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 24 of 54
412a

a state-court factual determination is not unreasonable merely because
the federal habeas court would have reached a different conclusion in
the first instance. Cf. Id., at 411, 120 S. Ct. 1495.
Wood v. Allen, 558 U.S. 290, 301 (2010). Therefore, “even if reasonable minds
reviewing the record might disagree about the finding in question, on habeas review
that does not suffice to supersede the trial court’s . . . determination.” Id. (quoting
Rice v. Collins, 546 U.S. 333, 341-42 (2006)) (punctuation omitted). Conversely:
when a state court’s adjudication of a habeas claim results in a decision
that is based on an unreasonable determination of the facts in light of the
evidence presented in the state court proceeding, this Court is not bound
to defer to unreasonably-found facts or to the legal conclusions that flow
from them.
Atkins v. Warden, Holman Correctional Facility, 710 F.3d 1241, 1249-50 (11th Cir.
2013) (quoting Jones v. Walker, 540 F.3d 1277, 1288 n.5 (11th Cir. 2008) (en banc)
(punctuation omitted)).
Jenkins maintains the state court’s adjudication of his mental retardation claim
resulted in a decision that was contrary to, or involved an unreasonable application
of, clearly established federal law and was an unreasonable determination of the facts
in light of the evidence presented in state court. (Jenkins’ Amended Petition, Doc.
12 at 24; Jenkins’ Reply Brief, Doc. 48 at 23).
B. The Perkins Standard

24

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 25 of 54
413a

Alabama uses the definition of mental retardation adopted by the Alabama
Supreme Court in Ex parte Perkins, 851 So.2d 453 (Ala. 2002). Perkins held that to
be considered mentally retarded for purposes of the Eighth Amendment’s prohibition
on execution, a defendant “must have significantly subaverage intellectual
functioning (an IQ of 70 or below), and significant or substantial deficits in adaptive
behavior” that “manifested themselves during the developmental period (i.e., before
the defendant reached age 18).” Id. at 456. Later, in Smith v. State, No. 1060427,
2007 WL 1519869 at *8 (Ala. May 25, 2007), the Alabama Supreme Court
“reaffirmed the definition of mental retardation it identified in Perkins” and “clarified
that it is implicit in that definition that the IQ and deficits in adaptive behavior exist
not only prior to the age of eighteen but also both at the time of the crime and
currently.” Powell v. Allen, 602 F.3d 1263, 1272 (11th Cir. 2010) (citing Smith,
2007 WL 1519869 at *8).
Jenkins contends the state appellate court’s use of the Perkins standard in
rejecting his Atkins claim was either contrary to, or an unreasonable application of,
clearly established federal law:
In denying relief on this claim, the state applied an erroneous legal
standard that violated Atkins and the prevailing clinical standards, and
constitutes an unreasonable application of federal law. See Id. at 398
(“Our difference is as to the cases in which, at first blush, a state-court
judgment seems entirely reasonable, but thorough analysis by a federal
25

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 26 of 54
414a

court produces a firm conviction that that judgment is infected by
constitutional error. In our view, such an erroneous judgment is
‘unreasonable’ within the meaning of the Act even though that
conclusion was not immediately apparent.”).
Rather than apply the “broadest definition of mental retardation,”
as required, see Jenkins II, 972 So.2d at 154, the CCA erroneously used
an IQ cutoff of 70, in violation of the prevailing scientific standards
which were expressly relied upon by Atkins. 536 U.S. at 309 n. 3, 318;
see footnote 8, supra, at 23. In defining mental retardation Atkins did
so without implementing a specific IQ cut-off and it drew extensively
from clinical sources that reject such cut-offs and expressly require IQ
be expressed within a “confidence interval.” See Atkins, 536 U.S. at
318, 309 n.3, 309 n.5 (citing Kaplan & Sadock’s Comprehensive
Textbook of Psychiatry, at 2952). Specifically, the creators of WAIS-R,
the very test utilized by Dr. Kirkland, advised its instruments are not
capable of giving bright line scores and instead employ a confidence
interval of 95% with a Standard Error of Measurement of + or – five
points. David Wechsler, WAIS-R Manual; Wechsler Adult intelligence
Scale 0 Revised 31 (1981); see WAIS-IV Administrative and Scoring
Manual Tables A.3-A.7, at 220-25. This is so because the instrument is
not capable of providing a bright-line Full Scale IQ score. Id.
Accordingly, the WAIS technical manual provides:
The standard error of measurement is used to calculate the
confidence interval, or the band of scores, around the
observed score in which the individual’s true score is likely
to fall. . . . The examiner can use confidence intervals to
report an individual score as an interval that is likely to
contain the individual’s true score. Confidence intervals
also serve as a reminder that measurement error is inherent
in all test scores and that the observed test score is only an
estimate of true ability.
Wechsler, WAIS-R Manual, at 31 (emphasis added).
...
26

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 27 of 54
415a

No reasonable interpretation of Atkins would allow the use of a
particular standardized intelligence test to assess intellectual disability
divorced from the very Technical Manual created for scoring and
interpreting that test. The WAIS-R, selected by the State’s expert to test
Mr. Jenkins, is a very precise instrument and for it to be effective and
the results to be reliable, it must be administered and interpreted as
designed. The test administrator must take into account the SEM.
Currently no testing instrument has been created that measures IQ with
so much precision that confidence intervals can be ignored. Thus, the
Alabama courts erred in inventing out of whole cloth a bright line cutoff
for determining mental retardation where no instrument exists that can
measure IQ with that level of precision. Indeed, the state courts
unreasonably ignored that the instrument utilized by the State’s expert
expressly prohibits that practice. The State of Alabama may not make
standardized IQ results more precise than the test’s creators determined
is reasonable; to do so is both unscientific and unreasonable.
While the Court in Atkins indicated that states would be allowed
leeway in crafting appropriate procedures to implement the
constitutional restriction against executing the mentally retarded, see
Atkins, 536 U.S. at 342, it did not authorize the use of definitions
unmoored from sound science and accepted clinical practice. In Atkins
itself, the Court acknowledged a lack of precision in IQ testing and the
need for confidence intervals implicitly rejecting a hard cutoff. For
instance, the Court stated that “[m]ild” mental retardation is typically
used to describe people with an IQ level of 50-55 to approximately 70.”
Id. at 308 n.3 (citing DSM-IV, at 42-43 (2000)). Even more significant,
the Court noted “an IQ between 70 and 75 or lower . . . is typically
considered the cutoff IQ score for the intellectual function prong of the
mental retardation definition.” Id. at 309 n.5. Nowhere in Atkins did the
Court allow states to alter the clinical definition of mental retardation by
eliminating the use of the SEM and confidence intervals which the
creators of the WAIS-R have consistently stated are necessary for the
proper interpretation of the test. By applying the wrong standard, one
that contained a strict IQ cut-off, the state court unreasonably

27

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 28 of 54
416a

determined Mr. Jenkins was not mentally retarded. Jenkins II, 972 So.
2d at 155.
(Jenkins’s Reply Brief, Doc. 48 at 35-38) (parentheticals and footnote omitted).
Jenkins further alleges that Smith v. State, clarifying that the IQ and deficits in
adaptive behavior must also be present at the time of the crime and at the time the
Atkins claim is raised, is unconstitutional and was improperly applied to his case.17
(Id. at 23, n.8).
“Although the Atkins Court alluded to clinical definitions propounded by the
American Association on Mental Retardation18 (‘AAMR’) and the American
Psychiatric Association (‘APA’), it left to the states the development of standards for
courts to employ in making a determination of whether an offender is mentally
retarded.” Thomas v. Allen, 607 F.3d 749, 752 (11th Cir. 2010)(citing Atkins, 536
U.S. at 317)(footnote added).19 The Eleventh Circuit has repeatedly applied the
17

The court notes that Smith v. State was not applied to Jenkins’s case since it was not decided until
2007, well after the Alabama Court of Criminal Appeals’ 2004 opinion on his Atkins claim.
18

The American Association on Mental Retardation is now known as the American Association on
Intellectual and Developmental Disabilities.
19

The Atkins court noted:
The American Association on Mental Retardation (AAMR) defines mental
retardation as follows: “Mental retardation refers to substantial limitations in present
functioning. It is characterized by significantly subaverage intellectual functioning,
existing concurrently with related limitations in two or more of the following
applicable adaptive skill areas: communication, self-care, home living, social skills,
community use, self-direction, health and safety, functional academics, leisure, and
work. Mental retardation manifests before age 18.” Mental Retardation: Definition,
28

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 29 of 54
417a

Alabama standard. In doing so, it has never indicated that any of that standard’s
regarding deficits in IQ and adaptive behavior are inconsistent with Atkins or
otherwise unconstitutional. See Id. at 752, 756-57; Burgess v. Comm’r, Ala. Dept. of
Corr., 723 F.3d 1308, 1314, 1321 (11th Cir. 2013); Powell v. Allen, 602 F.3d 1263,
1272 (11th Cir. 2010); Holladay v. Allen, 555 F.3d 1346, 1353, 1357 (11th Cir.
2009); Wood v. Allen, 542 F.3d 1281, 1285-86 (2008).

Therefore, this court finds

Alabama’s standard for establishing mental retardation applies to Jenkins’s case.
Jenkins has offered nothing to show the state appellate court’s use of Alabama’s
mental retardation standard was contrary to, or an unreasonable application of, clearly
established federal law.
C. Application of Atkins and Perkins

Classification, and Systems of Supports 5 (9th ed. 1992). The American Psychiatric
Association’s definition is similar: “The essential feature of Mental Retardation is
significantly subaverage general intellectual functioning (Criterion A) that is
accompanied by significant limitations in adaptive functioning in at least two of the
following skill areas: communication, self-care, home living, social/interpersonal
skills, use of community resources, self-direction, functional academic skills, work,
leisure, health, and safety (Criterion B). The onset must occur before age 18 years
(Criterion C). Mental Retardation has many different etiologies and may be seen as
a final common pathway of various pathological processes that affect the functioning
of the central nervous system.” Diagnostic and Statistical Manual of Mental
Disorders 41 (4th ed.2000). “Mild” mental retardation is typically used to describe
people with an IQ level of 50-55 to approximately 70. Id., at 42-43.
Atkins, 536 U.S. at 308 n.3.
29

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 30 of 54
418a

Jenkins maintains the Alabama Court of Criminal Appeals’ decision that he is
not mentally retarded is contrary to, and involved an unreasonable application of,
clearly established federal law. Jenkins further contends this decision was an
unreasonable determination of the facts in light of the evidence presented in state
court. Jenkins divides his arguments among the three criteria for determining mental
retardation: (1) significantly subaverage intellectual functioning (an IQ of 70 or
below); (2) significant or substantial deficits in adaptive behavior; and (3) the
manifestation of those deficits before the age of eighteen.
1. Intellectual Functioning
Jenkins acknowledges that Dr. Karl Kirkland administered the Wechsler Adult
Intelligence Scale to him in 1996, resulting in a IQ of 76. (Jenkins’s Reply Brief,
Doc. 48 at 24). He emphasizes that Dr. Kirkland stated Jenkins’s IQ score was two
standard deviations below the mean. (Id.). Jenkins argues that when “the “Flynn
Effect’20 and standard error of measurement21 are considered, Mr. Jenkins’s actual IQ
20

The Flynn Effect is “a method that recognizes the fact that IQ scores have been increasing over
time” and “acknowledges that as an intelligence test ages, or moves farther from the date on which
it was standardized, or formed, the mean score of the population as a whole on that assessment
instrument increases, thereby artificially inflating the IQ scores of individual test subjects.” Thomas
v. Allen, 607 F.3d 749, 753 (11th Cir. 2010).
21

The Standard Error of Measurement (“SEM”) is an index of the variability of test scores produced
by persons forming the normative sample.
In other words, the SEM is a statistical measure that allows the evaluator to know the
amount of error that could be present in any test. The AAMR acknowledges that the
30

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 31 of 54
419a

is between 65 and 75 . . . and satisfies even Alabama’s unconstitutionally rigorous
interpretation of Atkins’s first prong.” (Id.).
This court finds Jenkins has failed to provide clear and convincing evidence
to overcome the presumption of correctness that attaches to the state appellate court’s
factual findings. Jenkins also has not demonstrated that the state court unreasonably
applied federal law in connection with the assessment of his intellectual functioning
or that the decision was based on an unreasonable determination of the facts in light
of the evidence presented in the state court proceedings. Further, Jenkins did not
raise his Flynn Effect argument in the state court.
a. The Flynn Effect
As previously stated, when a state court has adjudicated a claim on the merits,
this court must judge the decision on the record before that court. Since Jenkins did
not raise the Flynn Effect as an issue during collateral review, this court cannot now
consider it. However, even if Jenkins had raised the Flynn Effect as a concern on
collateral review, neither Atkins nor Alabama law requires that a court take the
phenomenon into account when evaluating a defendant’s IQ test scores. The cases
SEM has been estimated to be three to five points for well-standardized measures of
general intellectual functioning. Hence, the IQ standard score is bounded by a range
that would be approximately three to four points above and below the obtained
scores.
Thomas, 607 F.3d at 753.
31

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 32 of 54
420a

cited by Jenkins in support of the Flynn Effect22 are not binding authorities of the
Supreme Court, Eleventh Circuit, or State of Alabama, and none of them have held
that the Flynn Effect must be taken into account when examining an IQ test score.
Moreover, this court finds that, to the extent the appellate courts of the State of
Alabama have discussed the Flynn Effect, they have stated that consideration of the
phenomenon lies in the discretion of the trial judge. For example, the Alabama Court
of Criminal Appeals observed in its 2009 opinion in the case of Beckworth v. State,
No. CR-07-0051, 2009 WL 1164994 (Ala. Crim. App. May 1, 2009), that it had not
previously
addressed the “Flynn effect,” see James R. Flynn, Tethering the
Elephant: Capital Cases, IQ, and the Flynn Effect, 12 Psych., Pub.
Pol’y, & L., 170-78 (2006), which posits that IQ scores increase over
time in certain populations. However, the Texas Court of Appeals
recently stated: “We have previously refrained from applying the Flynn
effect . . . noting that it is an ‘unexamined scientific concept’ that does
not provide a reliable basis for concluding that an appellant has
significant sub-average general intellectual functioning.” Neal v. State,
256 S.W.3d 264, 273 (Tex. Crim. App. 2008).
Beckworth, 2009 WL 1164994 at *38 n.5 (some citations omitted), reversed on other
grounds, Ex parte Beckworth, No. 1091780, 2013 WL 3336983 (Ala. July 3, 2013).
A more recent decision of the Alabama Court of Criminal Appeals, Albarran
v. State, 96 So. 3d 131 (Ala. Crim. App. 2011), makes it clear that consideration of
22

(Jenkins’s Reply Brief, Doc. 48 at 24-26).
32

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 33 of 54
421a

the Flynn Effect is not a requirement when applying Alabama’s criteria for
determining whether a criminal defendant suffers from mental retardation. That
opinion states:
First, this Court cannot, based on the record, say that the circuit court
abused its discretion in determining that Albarran failed to meet the
definition of mental retardation adopted by the Alabama Supreme Court
in Perkins based on Albarran’s IQ score. Although Dr. Weinstein also
testified that, when adjusted for the “Flynn effect,” Albarran’s IQ was
around 68, the circuit court could have reasonably rejected the “Flynn
effect” and determined that Albarran’s IQ was 71. Gray v. Epps, 616
F.3d 436, 446 n.9 (5th Cir. 2010) (quoting In re Mathis, 483 F.3d 395,
398 n.1 (5th Cir. 2007) (“[T]he Flynn Effect ‘has not been accepted in
this Circuit as scientifically valid.’”)); Bowling v. Commonwealth, 163
S.W.3d 361, 375 (Ky. 2005) (holding that “Atkins did not discuss
margins of error or the ‘Flynn effect’ and held that the definition [of
mental retardation] in KRS 532.130(2) ‘generally conform[ed]’ to the
approved clinical definitions” so the court could not consider the Flynn
effect); Thomas v. Allen, 607 F.3d 749, 758 (11th Cir. 2010) [(observing
that:] “[T]here is no uniform consensus regarding the application of the
Flynn effect in determining a capital offender’s intellectual functioning,
and there is no Alabama precedent specifically discounting a court’s
application of the Flynn effect . . . .”). Because the circuit court could
have reasonably determined that Albarran’s IQ was 71, a score that
places him outside the Alabama Supreme Court’s definition of mental
retardation, this Court cannot say that the circuit court abused its
discretion in denying Albarran’s Atkins motion.
Albarran, 96 So.3d at 199-200 (second alteration supplied, all others in original,
footnote omitted).
b. Standard Error of Measurement

33

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 34 of 54
422a

Jenkins argued to the Alabama Court of Criminal Appeals that, given the
Standard Error of Measurement (“SEM”) of plus or minus five points, Jenkins meets
the threshold for mental retardation. (Appellant’s Supplemental Reply Brief, Rule 32
C.R. Vol. 39, Tab 58). However, neither the appellate court nor Dr. Kirkland
indicated that they took the SEM into account.
It is undisputed that Jenkins scored 76 on the IQ test administered by Dr.
Kirkland. Thus, considering the SEM, Jenkins’s IQ falls within a range of 71-81,
which is still above the threshold established in Perkins. Further, the record of the
Rule 32 proceedings indicates that testing performed on Jenkins in 1980, when he
was twelve years old, calculated his IQ at 90 on the Peabody Picture Vocabulary Test
and Raven Progressive Matrices Test, and 83 on the Wechsler Intelligence Scale for
Children - Revised.23 The record of the Rule 32 proceedings also indicates that
testing performed in 1981, when Jenkins was fourteen years old, calculated his IQ at

23

The preparer of the Re-Evaluation Report prepared in conjunction with the 1980 testing noted that
Jenkins is dyslexic. Additionally, the preparer of the report rated Jenkins’s intellectual capacity as
average as opposed to below average or borderline and offered the following comments:
Frequent moves, changes in schools and family instability have made it difficult for
[Jenkins] to achieve success in academic subjects. Low ability coupled with a
specific learning disability add to his problems so that, at times, behavior is reflection
of inferiority feelings, rejection by peers and general lack of success in school life.
Lack of responsibility for self control and poor use of time contribute to lack of
learning as well as some social problems.
(Rule 32 C.R. Vol. 27 at 955-58).
34

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 35 of 54
423a

81 on the Shipley Institute of Living Scale, and 86 on the Peabody Picture
Vocabulary Test.24 (Rule 32 C.R. Vol. 27 at 845-48; 955-58). Furthermore, Jenkins’s
school records consistently indicate that his poor performance was a result of
excessive absences, late assignments, and lacking fundamental skills in math, reading
and language. (Id. at 877-964).

24

The psychological report prepared by the San Bernardino County, California Probation
Department, in conjunction with the 1981 testing, concluded that:
[Jenkins] is functioning in the Dull-Normal range of intelligence according
to the Shipely [sic] Institute of Living Scale and the Peabody Picture Vocabulary
Test. [Jenkins] appears to be suffering from a definite learning disability. It is
important to note that [his] scores on his testing reflect a wide discrepancy in his
performance level. He appears to have erratic comprehension in the verbal/reading
skills and to be easily distracted on tasks which require sustained concentration. A
full-scale Wechsler Intelligence Test and a Nebraska Psychoneurological Battery is
recommended to better define [his] specific learning disabilities. [Jenkins] is in need
of special education designed for the emotionally disturbed adolescent with definite
learning disabilities.
...
Testing indicates that [Jenkins] is a very emotionally disturbed adolescent.
[He] does not appear to be psychotic but to be functioning at a marginal, borderline
state of emotional adjustment. It is important to note, that [he] is presently under
psychiatric care and receiving medication for bedwetting (Elavil). The possible
benefit of medication needs to be noted in regards to testing results. [Jenkins’s]
testing data indicates strong fluctuations in consistency, he performs well on some
tasks and extremely poor on others. Testing suggests an innate dull normal or lower
level of average normal intelligence. However, his difficulty with verbal
comprehension and ability to concentrate suggest a learning disability, possibly a
factor of emotional interference in his cognitive processes. Therefore, in his present
emotional state, he may appear to be less intelligent than is actually the case.
(Rule 32 C. R. Vol. 27 at 846-47).
35

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 36 of 54
424a

None of the mental health experts who have evaluated Jenkins over the course
of his life has concluded Jenkins has significant limitations in his intellectual
functioning or that he is mentally retarded. Further, none of his IQ scores, adjusted
for the SEM, puts Jenkins below a 71 IQ score. Thus, the state appellate court’s
finding that Jenkins’s IQ does not meet the Perkins standard for “significantly
subaverage intellectual functioning (an IQ of 70 or below)” is not unreasonable.
c. Two Standard Deviations Below the Mean
Jenkins also argues that Dr. Kirkland’s conclusion that Jenkins’s IQ is two
standard deviations below the mean is enough, on its own, to establish the
“sufficiently subaverage intellectual functioning” prong of the Perkins test.
(Jenkins’s Motion for an Evidentiary Hearing, Doc. 49 at 3). However, it is apparent
that Dr. Kirkland simply misspoke when he made this statement. According to the
AAMR, an IQ of 100 is the mean IQ score, and the standard deviation is fifteen.
AAMR, Mental Retardation 36-67 (9th ed. 1992). Thus, two deviations from the
mean (30) indicates an IQ score of 70. Dr. Kirkland clearly stated that Jenkins’s IQ
is 76.
2. Adaptive Behavior
Because Jenkins’s IQ test scores fall within the SEM, he must also “be able to
present additional evidence of intellectual disability, including testimony regarding
36

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 37 of 54
425a

adaptive deficits.” Hall v. Florida, 134 S. Ct. 1986, 2001 (2014). “The AAMR
defines the term ‘adaptive behavior’ as the collection of conceptual, social, and
practical skills that people learn in order to function in their everyday lives.” Thomas
v. Allen, 607 F.3d 749, 754 (11th Cir. 2010) (citing Holladay v. Allen, 555 F.3d 1346,
1353 (11th Cir. 2009). “[S]ignificant or substantial deficits in adaptive behavior are
defined as ‘concurrent deficits or impairments in present adaptive functioning in at
least two of the following skill areas: communication, self-care, home living,
social/interpersonal skills, use of community resources, self-direction, functional
academic skills, work, leisure, health and safety.’” Holladay, 555 F.3d at 1353. “The
American Association on Mental Retardation (AAMR) defines mental retardation as
follows: ‘Mental retardation refers to substantial limitations in present functioning.’”
Atkins, 536 U.S. at 308 n. 3. Therefore, in order for Jenkins to be considered mentally
retarded in the Atkins context, he must currently (at the time the Atkins claim was
adjudicated) exhibit deficits in adaptive behavior. Moreover, these problems must
have manifested themselves before the age of eighteen.
In concluding that Jenkins did not exhibit significant or substantial deficits in
his adaptive behavior, the Alabama Court of Criminal Appeals stated there was
“evidence presented at Jenkins’s trial indicating that Jenkins maintained relationships
with other individuals and that he had been employed by P.S. Edwards Landscaping
37

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 38 of 54
426a

Company, Cotton Lowe 76 Service Station, and Paramount Painting Company.”
Jenkins, 972 So. 2d at 955. Jenkins argues that the state court’s “focus on only two
skill areas was an unreasonable application of Atkins.” (Jenkins’s Response to the
State’s Opposition to Motion for Evidentiary Hearing, Doc. 52 at 11).
Jenkins maintains that the state court record contains overwhelming evidence
of his significant adaptive deficits in the areas of functional academic skills,
communication skills, self-care, home living, social/interpersonal skills, use of
community resources, and self-direction. (Jenkins’s Reply Brief, Doc. 48 at 28-34).
With respect to functional academic skills, Jenkins notes the following:
Mr. Jenkins exhibited absolute failure in school, placing him
consistently several grade levels behind, despite a demonstrated and
concerted effort. Despite his diligence Mr. Jenkins’s grades were
always poor prompting his fifth grade teacher to note that he “work[s]
very hard,” “always tries to get his work done on time,” “but most of the
time finds it very difficult.” (RHCC, vol. 27, p. 940.) A county health
care services report observed that “[i]n spite of his academic failures,”
he “expressed liking for school and intends to graduate.” (Id. at 846.)
Yet, his secondary school records showed very poor grades, mostly Ds
and Fs in fifth and sixth grade academic classes and noted he was below
grade level in all the major subjects. (Id. at 883, 887, 940, 944.) His
fifth grade test scores fell in the very low percentiles, including the fifth
percentile in math concepts and fourth percentile in math application.
His seventh grade scores on the California Test of Basic Skills (CTBS)
also fell in the very low percentiles, including the fourth percentile in
reading comprehension. (Id. at 895, 936.) One teacher sent letters home
to his parents indicating Mr. Jenkins was failing for several reasons,
including deficiencies in his oral work. (Id. at 927, 931.) In addition,
Mr. Jenkins was held back multiple times and never completed the
38

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 39 of 54
427a

seventh grade. (RHCC, Tab #R-48, TR. 470; vol. 27, pp. 846, 883, 886,
895, 902, 905, 915, 916, 922, 927, 931, 940, 944, 958, 962, 973.)
State expert Dr. Kirkland confirmed this bleak picture, noting that
Mr. Jenkins had very poor problem solving abilities, was functioning in
the bottom one percentile in the most important academic subjects, and
was a very slow learner. (RHCC, Tab #R-48, TR. 624-25, 670.)
Kirkland administered the Wide Range Achievement Test, a test of
academic achievement, and found that at age 29, Mr. Jenkins was only
functioning at the third grade level in reading, spelling, and arithmetic.
(Id. at 624-25.) Kirkland’s testing corroborates the observation of one
of Mr. Jenkins’s teachers who observed some twenty years earlier that
he lacked the “fundamental skills in reading, math, and language,” to be
successful, was scoring in the bottom percentiles in virtually every
category, that “[t]he work is too hard for” him and that “[g]rading him
isn’t fair.” (RHCC, vol. 27, pp. 895, 905, 940, 944.)
(Id. at 28-30).25
With respect to communication skills, Jenkins argues the following:
Mr. Jenkins has significant cognitive deficits as well as poor
reading skills. His cognitive deficits prevented him from concentrating
and sitting still as a child. (RHCC, Tab #R-48, TR. 94,26 470; vol. 27, p.
941.) A county health care services report described his concentration
and attention spans as “poor.” (Id. at 846-47.) Another report noted that
he was “quite concrete in his thinking.” (Id.; see also vol. 25, p. 566.)
Throughout his limited schooling Mr. Jenkins’s teachers consistently
noted that he had poor reading skills, erratic comprehension. (Id. at 895,
25

However, the state court record lacks any finding that Jenkins’s performance in school was below
borderline and generally reflected that his poor performance was at least partially attributable to his
abysmal family life, frequent moves, changes in schools, frequent absences from school, and
dyslexia. (Rule 32 C.R. Vol. 27 at 877-964). Additionally, both Dr. Lisak and Dr. Kirkland
concluded that Jenkins functioned at a borderline intelligence level. (Rule 32 R. Vol. 21 at 467-68;
Rule 32 R. Vol. 22 at 624).
26

This cite refers to the portion of the testimony of Michael Jenkins, Jr., Jenkins’s brother, stating
Jenkins could not sit still while his father was beating him because it hurt.
39

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 40 of 54
428a

902, 940, 944.) One teacher made clear to his parents that Mr. Jenkins
was failing in school partially due to his lack of verbal communication
skills. (Id. at 927, 931.) Likewise, by the seventh grade, Mr. Jenkins
scores on a standardized test revealed that his reading comprehension
was in the bottom fourth percentile. (Id. at 846, 936, 895.) At the time
of his evaluation in 1996, Mr. Jenkins’s reading skills were so poor that
Dr. Kirkland had to read aloud all of the tests he administered to insure
that he understood them. (RHCC, Tab #R-48, TR. 641.) Dr. Kirkland
estimated he was reading at a third grade level at the time of his
evaluation, consistent with his academic records and deficits in the area
of communication. (Id.)
(Jenkins’s Reply Brief, Doc. 48 at 30).
With respect to self-care, Jenkins argues:
The unrebutted evidence presented in Rule 32 shows Mr. Jenkins
has significant deficits in self-care skills. For instance, as a child Mr.
Jenkins was filthy, lived in a filthy room, wet the bed and regularly
defecated in his underwear. His bladder and bowel control problems
persisted into adulthood and created significant problems for him
socially. (RHCC, Tab #R-48, TR. 86, 89, 91, 104-10, 113, 117-18, 171,
197-200, 230-231; vol. 27, pp. 859, 891, 934-35.27) Indeed, when he was
living with Sharon and Lonnie Seal in Alabama as a nineteen year-old
and it appeared that they would discover that he wet the bed, Mr.
Jenkins left their trailer to avoid having his enuresis found out. This
decision led to a rapid deterioration in his life and overall mental health
as he began to use drugs and alcohol to the degree that it severely
impaired his functioning and evidenced profound limitations in the area

27

No part of the record cited here by Jenkins supports his claim that, “[h]is bladder and bowel
control problems persisted into adulthood and created significant problems for him socially.”
Rather, all of the evidence cited pertains to Jenkins’s childhood.
40

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 41 of 54
429a

of self-care. (RHCC, Tab #R-48, TR. 58-5928, 48629; vol. 25, p. 56530;
vol. 26, p. 76031; vol. 27, pp. 859, 860.32)
(Jenkins’s Reply Brief, Doc. no. 48 at 30-31).
With respect to home living, Jenkins notes:
In addition to living in filth as a child, Mr. Jenkins was dependent
upon others to provide shelter. As a child he fled his home, rather than
28

Sherry Seal testified that while Jenkins was living with her family, she noticed that he wet the bed
several times. She discussed the problem with Jenkins and offered to help if she could. The Seals
had told Jenkins that when their baby was born, they wanted to switch bedrooms with him because
he had the largest bedroom, which was closest to the bathroom and the front door. Jenkins moved
out shortly after the Seals planned to swap bedrooms with him. When asked at the Rule 32 hearing
if Jenkins moved out because he wanted to be near the bathroom, Sherry Seal replied, “That could
be. I couldn’t say exactly what his reasons were.” Id. at 57-59. There is nothing in the record
indicating that Jenkins moved out of the Seals’ home to avoid their discovery of his enuresis. In fact,
Sherry Seal testified that she knew about Jenkins’s problem and discussed it with him before he
moved out.
29

This cite references the following testimony from Dr. David Lisak:
Q. Is there anything from the events following [Jenkins] leaving the Seals that
supports your conclusions here today?
A. I think when he left the Seals, and that being a very positive environment for him,
he moved back into a lifestyle that began to mimic more and more the kind of
lifestyle he had in California. He drank more and started using drugs more. He was
around people who did not have the kind of positive influence on him that Lonnie
Seal had.

30

This cite references the following portion of the June 8, 1997 Lunacy Commission report:
It is noted from prior records that the patient has a very significant history of alcohol
dependence with alcoholic blackouts in the last several years prior to his arrest. In
addition, he has used heroin, speed, inhalants, LSD, and PCP.

31

This cite references a page from a probation report prepared on May 11, 1983, when Jenkins was
16 years old.
32

This cite references a page from a probation report prepared on September 21, 1981, when
Jenkins was 14 years old.
41

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 42 of 54
430a

be abused, and ended up being homeless because he lacked skills to
locate lodging. (RHCC, Tab #R-48, TR. 118-24, 200; vol. 25, pp. 546,
573, 574, 575; vol. 26, p. 760; vol. 27, pp. 804, 822, 844, 845, 847, 857,
860.) While living with the Seals, he contributed where he was able but
had no significant home living responsibilities such as taking care of the
home, paying bills, buying groceries or other chores.33 After fleeing the
safety of their trailer when he feared that they might discover he was a
bed-wetter, he lived in squalor – taking up residence in a filthy mess of
a[] dwelling that had been provided by an employer, thereby confirming
his lack of home living skills and that his life totally deteriorated
without the limited structure of the Seals[’] home. (RHCC, Tab #R-48,
TR. 58-59, 486.)34
(Jenkins’s Reply Brief, Doc. 48 at 31).
With respect to social and interpersonal skills, Jenkins maintains that:
Mr. Jenkins suffers significant deficits in social and interpersonal
skills. He was a social outcast who was rejected and exploited by his
peers. (RHCC, Tab #R-48, TR. 108, 110, 124, 184, 194; vol. 27, pp.
847, 891, 935.) Mr. Jenkins had no friends during childhood. (RHCC,
Tab #R-48, TR. 108, 494.) In addition, because he often urinated and
defecated in his pants, Mr. Jenkins’s peers ostracized and ridiculed him.
(Id. at 110, 111.) Even his own family treated him differently. (Id. at
110, 192.) His parents never showed him any affection. (Id. at 111, 192.)
During much of his early life, Mr. Jenkins’s parents physically
prevented him from communicating by regularly “lock[ing him] in his
room” and “not allow[ing him] to be around anybody.” (Id. at 112.)
33

Jenkins offers nothing to support this statement. However, Lonnie Seal testified at the sentencing
phase of Jenkins’s trial that Jenkins contributed to the rent and other household expenses such as
groceries. (R. Vol. 9, Tab 19 at 1721-22).
34

These cites in no way support Jenkins’s statements that: “After fleeing the safety of their trailer
when he feared that they might discover he was a bed-wetter, he lived in squalor – taking up
residence in a filthy mess of a[] dwelling that had been provided by an employer, thereby confirming
his lack of home living skills and that his life totally deteriorated without the limited structure of the
Seal[‘]s home.”
42

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 43 of 54
431a

Others took advantage of him all the time. (Id. at 60.)35 In response to
the ostracism and exploitation, Mr. Jenkins did not stand up for himself.
When beaten, he would cower, cry, and apologize, but would not fight
back or run. (Id. at 193.) When asked to contribute on different
occasions, Mr. Jenkins would “always give more than anybody else,”
and when others asked for help, often “he would end up doing the whole
job.” (Id. at 60.) He also did not receive fair wages at his job and was
always working extended hours. (Id. at 61.) Mr. Jenkins was gullible and
easily exploited. Mr. Jenkins’s social isolation was a lifelong
experience. He lacked the basic foundation for establishing peer
relationships and had poor relationships with his family throughout his
life. (RHCC, Tab #R-48, TR. 100-04, 112-14, 184-186, 192-96, 232,
452.) Notes from his elementary school records reveal that Mr. Jenkins
was socially as well as mentally retarded with one evaluator opining that
at age 12, Mr. Jenkins was five years behind the social level of his peers.
(RHCC, vol. 27, pp. 879, 883, 944, 946, 955.) Indeed, the fact that Mr.
Jenkins was isolated and rejected by his family of origin did not prevent
the family from exploiting him. The evidence introduced in Rule 32
show that his mother extorted money from him while he was a homeless
teenager, in exchange for her commitment not to report him to
authorities. (RHCC, Tab #R-48, TR. 483.) According to the AAMR,
“victimization of people with mental retardation, observed in social and
economic exploitation, is ‘a more central (and generally more subtle)
problem that goes to the heart of why people with mental retardation are
considered to need that label.’” AAIDD MANUAL at 84 (citing Stephen
Greenspan, A Contextualist Perspective on Adaptive Behavior, in
Adaptive Behavior and Its Measurement: Implications for the Field of
Mental Retardation 69 (R.L. Schalock, ed., 1999)).
(Jenkins’s Reply Brief, Doc. 48 at 31-33).
With respect to use of community resources and self-direction, Jenkins offers
the following:

35

The record does not supports Jenkins’s assertion that people took advantage of him “all the time.”
43

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 44 of 54
432a

Mr. Jenkins has significant deficits in the area of use of
community resources and self-direction. Specifically, Mr. Jenkins could
not protect himself and failed to succeed without considerable
assistance. From a very young age, Mr. Jenkins suffered “severe” abuse,
which escalated throughout his childhood and included at least one
instance of sexual abuse from his grandfather. (RHCC, Tab #R-48, TR.
187-88, 454, 458, 462.) When Mr. Jenkins was abused, he would “ball”
up, instead of fighting back. (Id. at 93, 96, 193.) Mr. Jenkins also ran
away from home and lived on the streets. (Id. at 122.) In response to his
troubles in school and at home, a county health care services report
recommended that Mr. Jenkins, who was a ward of the court, stay in a
structured special education program. (RHCC, vol. 27, pp. 844, 846,
847.) The report also noted that Mr. Jenkins would “have to deal with
his feelings of rejection and worthlessness that he has received from his
family and work to improv[e] his self-image.” (Id.)
As evidenced by the testimony and records presented at the Rule
32 hearing, Mr. Jenkins did not utilize community resources after
becoming homeless as a child – such as a homeless shelter or juvenile
facility – and instead lived in the streets. (RHCC, Tab #R-48, TR.
118-24, 200.) Likewise, although his bladder and bowel control
problems and chemical dependency significantly interfered with any
efforts he made at normalcy, he was unable to avail himself to resources
that would have assisted with these issues. Indeed, rather than be
discovered as a bedwetter, Mr. Jenkins left the Seals’ home. As an adult,
Mr. Jenkins’s peers took advantage of him regularly, which required him
to subsist in the streets or rely on others. (Id. at 60, 61.36) During one of
36

This cite references the testimony of Sherry Brown Seal, who stated that after Jenkins moved out
of her house, he was taken advantage of on several occasions. She elaborated:
A. On several occasions, when asked to contribute for different occasions, whether
it was a meal or whatever, he would always give more than anybody else. There
were times people would ask for help, and he would end up doing the whole job.
Q. In his employment, was he taken advantage of?
A. The employment in California, I don’t know about. The employment while he
was employed in Alabama, yes, he was.
Q. Tell me how he was taken advantage of.
A. He was not receiving fair wages. He was asked to work extended hours.
44

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 45 of 54
433a

the periods in which Mr. Jenkins had no place to live, he followed a
family he befriended to Alabama and depended on them for
transportation and lodging. (RHCC, Tab #R-9, TR. 1726; Tab #R- 48,
TR. 151.)37 Those with mental retardation tend to be “followers,” and
rely on others for direction and support. Atkins, 536 U.S. at 318. Further
indicative of lack of his self direction, Mr. Jenkins found only “odd and
ends” work doing painting, landscaping, and assisting a mechanic.
(RHCC, vol. 29, p. 1255.)
(Jenkins’s Reply Brief, Doc. no. 48 at 33-34).
The respondent maintains the evidence before the state court reveals that
Jenkins does not have significant limitations in adaptive functioning. (Respondent’s
Opposition to Motion for Evidentiary Hearing, Doc. 51 at 19). The respondent first
argues that Lonnie Seal’s testimony at the penalty phase of the trial supports a finding
that Jenkins does not have significant limitations in adaptive functioning:
Mr. Seal testified that he met Jenkins when he started working at the
garage where Jenkins was employed in California. (Vol. 9, p. 1719.) Mr.
Seal described their job duties as consisting of “mostly heavy engine
work,” and he stated that Jenkins did whatever their boss needed him to
do, from driving a wrecker to installing engines. Id. at 1720. He testified
that they became “well acquainted” and added that Jenkins regularly
stopped by his home to visit with him, his wife, and their child. Id.
Seal indicated that she did not believe Jenkins was paid enough for the hours he worked.
37

Lonnie Seal testified at the sentencing phase of Jenkins’s trial that he invited Jenkins to move to
Alabama with his family and offered to let Jenkins live with him until he could obtain his own
lodging, or if he did not like Alabama, he would help him “get a bus ticket back.” He testified that
Jenkins helped with the move by driving the Seals’ truck to Alabama while Lonnie Seal drove his
car with his wife and child. He further testified that it took him several weeks to find a job, while
Jenkins found a job in two days, which allowed Jenkins to pay rent and contribute to household
expenses such as groceries. (R. Vol. 9, Tab 19 at 1721-22).
45

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 46 of 54
434a

Mr. Seal testified that he and his wife decided to move to
Alabama to be closer to relatives after they discovered that she was
pregnant with their second child. Id. at 1721. Jenkins volunteered to
assist them with their move. Id. Jenkins drove their truck and attached
trailer from California to Alabama while Mr. Seal drove himself, his
wife, and their child to Alabama in his wife’s car. Id. Once they arrived
in Alabama, the Seals invited Jenkins to stay with them, and he accepted
their offer. Id. at 1722. It took Mr. Seal “several weeks” to find a job,
but Jenkins obtained a job just two days after they arrived in Alabama.
Id.
When he was asked whether Jenkins paid rent and otherwise
contributed to their household, Mr. Seal responded, “Yes, sir. He paid
us about thirty dollars a week rent, and then he was constantly
contributing, buying groceries, do whatever he could do. He was always
offering more.” Id. at 1722-1723. Mr. Seal recalled that Jenkins lived
with them for approximately three weeks and then moved out of their
residence because “he got his own mobile home in Vandiver.” Id. at
1723. When he was asked whether they had close contact with Jenkins
after he left their home, Mr. Seal replied, “Yes, sir. I saw Mark about
every day.” Id. Mr. Seal explained that Jenkins stopped by their home
almost every day in the evening after his work shift to visit with them.
Id. When he was asked whether Jenkins had any contact with their
eight-month-old child during those visits, Mr. Seal testified, “Yes, sir,
he always did. He would go in his room and sit in the floor and play
with him. Every time Mark come to the house, he would bring
something, you know. If Mark ate lunch at Hardees, or something, he
would get the little toy, like the little raisin man or something, and bring
it home. Every time Mark come to the house he had something. If it was
just a sucker or candy, he would always spend time with Lon.” Id. at
1724.
Mr. Seal’s testimony reveals that Jenkins has good adaptive
functioning in the areas of communication, self-care, home living, social
and personal skills, use of community resources, and self-direction.
Jenkins volunteered to drive Mr. Seal’s truck and attached trailer from
California to Alabama and successfully completed that task. He then
46

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 47 of 54
435a

wisely accepted the Seals’ offer to live with them until he found a home
of his own, which he did just three weeks after arriving in Alabama.
Unlike Mr. Seal, who had to spend weeks searching for a job, Jenkins
found a job just two days after they arrived in Alabama, and he used the
money that he earned from that job to pay rent, buy groceries, and
otherwise support the household that he shared with the Seals. Jenkins
stayed in close contact with Mr. and Mrs. Seal after he moved into his
own home, visiting them in the evenings after completing his work
duties. Jenkins interacted well with their young child during these visits
and remembered to bring gifts, such as the toy from Hardees, to the
child. Thus, Mr. Seal’s testimony reveals that Jenkins not only could but
did live independently, that he provided for his own needs and the needs
of others, and that he had no difficulties in the areas of self-care,
self-direction, social, personal, and home living skills, communication,
and use of community resources.
(Id. at 19-22).
The respondent further argues the facts surrounding Jenkins’s crime also reveal
that he does not have significant deficits in adaptive functioning:
In the early-morning hours of April 18, 1989, Jenkins kidnapped,
robbed, and murdered Tammy Hogeland. (Vol. 3, pp. 522-526; Vol. 4,
pp. 672-673.) Later that morning, Jenkins approached Michael Brooks,
who was working as a mechanic at the Alford Avenue Shell in
Birmingham, and asked Brooks if he was willing to buy his car for $100
because, as he explained, he needed to travel to California to visit his
ailing mother. (Vol. 6, pp. 1026, 1032.) After Brooks agreed to purchase
the car for $80, Jenkins produced a bill of sale and signed the car over
to him. Id. at 1026-1032. Jenkins’s exchange with Brooks shows that he
was able to fabricate a plausible reason for needing money and
demonstrates that he understands proper sales transactions in light of the
fact that he had the bill of sale with him and signed it over to the
purchaser. Jenkins’s encounter with Brooks also demonstrates his ability
and willingness to bargain over a price to achieve what he wanted – in
this case, cash that he could use to escape Alabama.
47

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 48 of 54
436a

Jenkins next persuaded Reba Wood, who also worked at the
Alford Avenue Chevron, to take him to the Greyhound Bus Station.
(Vol. 6, pp. 1035-1039.) At that time, Jenkins had with him a blue
suitcase, a paper sack, and a duffel bag. Id. Jenkins boarded a bus
leaving Birmingham at approximately 12:00 p.m. Id. On the following
day, Jenkins awakened in Houston, Texas, and realized that his bus
ticket was at the end of its use. Id. at 1157-1158. So, Jenkins proceeded
to hitchhike to Los Angeles, California, where he ultimately was
arrested some 22 days after the offense. Id. at 1106.
Jenkins’s flight from Alabama to California and his ability to
avoid arrest for nearly three weeks after he committed the crime
demonstrate that he, perhaps regrettably, has good adaptive functioning.
By way of example, Jenkins’s encounters with Brooks and Wood and
the fact that he successfully hitchhiked from Texas to California
demonstrate good adaptive functioning in the areas of communication,
social and personal skills, and self-direction. And, Jenkins’s use of a bus
to flee Alabama demonstrates his ability to use community resources.
Because the evidence in the state-court record demonstrates that
he does not have significant limitations in his adaptive functioning,
Jenkins cannot satisfy his burden of showing that he is mentally retarded
and, therefore, ineligible for the death penalty under Atkins.
(Id. at 22-24).
Additionally, there was testimony at the evidentiary hearing concerning
Jenkins’s most recent adaptive behavior while he was incarcerated. Bonnie Adams,
a jailer for the St. Clair County Sheriff, testified that while Jenkins was in the county
jail from 1989 through 1991, she had constant contact with him. (Rule 32 R. Vol. 19,
Tab 48 at 13-17). Ms. Adams stated that Jenkins was a model inmate, the best she
ever supervised, who never complained about anything or caused trouble while he
48

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 49 of 54
437a

was in jail. (Id. at 18-27). Virginia Price, another jailer for the St. Clair County
Sheriff, also testified that Jenkins was the model inmate, always polite and respectful.
(Id. at 35-41). Finally, Dr. Kirkland testified that he reviewed Jenkins’s cell and met
with Jenkins at Holman Prison for several hours. (Rule 32 R. Vol. 22 at 618-19). Dr.
Kirkland testified that Jenkins’s cell was organized and clean and that Jenkins had
good relationships with guards. (Id.).
Jenkins argues he has significant limitations in adaptive functioning in the
following skill areas: academic, communication, self-care, home living,
social/interpersonal, community resources, and self-direction. Almost all of the
evidence cited by Jenkins pertains to his childhood. It is indisputable that Jenkins
had a horrible childhood in which he was seriously abused, ignored, and mistreated
by his parents. However, Jenkins’s school records indicate his poor academic
performance was due at least in part to his family problems, including frequent moves
and multiple absences from school.

(Rule 32 C.R. Vol. 27

at 877-964).

Additionally, many of the behavioral deficits Jenkins now claims to possess were in
no way attributable to Jenkins or his adaptive ability. Rather, they were the result of
the way Jenkins was treated by his parents since his birth.38
38

Jenkins’s brother, Michael Jenkins, Jr., testified to the following: Jenkins was regularly beaten as
a child; he was often beaten for lying or messing in his bed; he was made to wear his soiled
underwear to school or on his head; his father made Jenkins hang his soiled sheets on the fence for
the neighbors to see; his father rubbed feces on Jenkins’s face and made him eat feces; his father beat
49

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 50 of 54
438a

With the exception of academic skills, the respondent provides facts to support
an argument that Jenkins did not have significant limitations in adaptive functioning
in other skill areas during both the time period leading up to the murder and time
following the murder. Further, as the appellate court noted in its opinion on Jenkins’s
collateral appeal, there was testimony at trial indicating that during the time period
surrounding the murder, Jenkins maintained relationships with others and was
employed by a landscaping company, service station, and painting company.
Jenkins, 972 So. 2d at 155.
him more severely if he tried to run away or hide from beatings; he and Jenkins were forced to help
their father work all night, holding lights for him to work in the dark; they often were too tired to go
to school because of being required to stay up all night helping their father; Jenkins was never treated
with affection; Jenkins was locked in his room with two dogs who were not house-trained and was
required to clean up after the dogs who used his bedroom as their bathroom; Jenkins was locked in
his room during meals, so he had to eat dog biscuits and other scraps that were thrown to the dogs;
Jenkins and his siblings ran away regularly; he called Child Protective Services once, but his father
threatened to kill him if he ever called them again; and their parents regularly used “speed or crystal
methamphetamines.” (Rule 32 R. Vol. 20 at 81-172).
Jenkins’s cousin, Tammy Lynn Pitts testified to the following: she is five years older than
Jenkins and lived with Jenkins and his family until she was in her twenties; Jenkins was beaten and
mistreated as a child; his mother hid him from the family because his father was Mexican or Puerto
Rican; his mother did not change his diapers regularly, so he was forced to sit in soiled diapers for
several days at a time; he suffered bad diaper rash; his mother never bathed him; while he was a
baby, his mother smacked and tossed him around like he was nothing; things got worse when
Jenkins’s step-father was released from prison; his step-father beat him daily until he left home;
Jenkins tried to hide his soiled sheets and put clean sheets on his bed to avoid beatings; Jenkins’s
parents called him names such as “Puerto Rican puke” and “Bastard” and gave him no affection; he
was forced to attend school in his soiled clothing; Jenkins begged his father not to beat him, telling
him he loved him; Jenkins was locked in his room, filthy with dog feces and dirty clothes that were
never washed, and was not let out of his bedroom except to go to school or do chores; after the
family ate, they threw food into his bedroom for him, or he ate out of a trash can or ate dog food; his
siblings were treated better than he was; he was forced to wear diapers at age 9; his parents drank
a lot and used drugs; the living conditions in the home were filthy with dirty dishes and clothes; and
the dogs destroyed the house and urinated inside. (Id. at 182-225).
50

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 51 of 54
439a

Jenkins argues that the appellate court’s “focus on only two skill areas was an
unreasonable application of Atkins.” (Jenkins’s Response to the State’s Opposition
to Motion for Evidentiary Hearing, Doc. 52 at 11). However, the fact that the
appellate court mentioned only two skill areas in its opinion does not necessarily
mean that no other skill areas were considered. See Harrington v. Richter, 562 U.S.
86, 98 (2011) (“Where a state court’s decision is unaccompanied by an explanation,
the habeas petitioner’s burden still must be met by showing there was no reasonable
basis for the state court to deny relief. This is so whether or not the state court reveals
which of the elements in a multipart claim it found insufficient, for § 2254(d) applies
when a ‘claim,’ not a component of one, has been adjudicated.”).
The state record is replete with evidence pertaining to the various skill areas.
The evidence cited by Jenkins in support of his claim that he lacked skills in a number
of areas pertains mainly to his childhood, which was unquestionably terrible.
However, the record shows that Jenkins’s deficit in academic skills was in part a
result of matters that were beyond his control, such as his poor family life, frequent
moves and changes in schools, and frequent absences. Similarly, the deficits Jenkins
claims existed in other behaviors were in large part the result of the way his family
abused, ignored, and mistreated him. Further, the evidence pertaining to the time of
the offense and adjudication of the Atkins claim indicates Jenkins did not have
51

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 52 of 54
440a

significant or substantial deficits in adaptive behavior during that period of time.
Given the evidence before the state court, Jenkins is unable to establish that the
Alabama Court of Criminal Appeals’ decision–that Jenkins did not possess
significant or substantial deficits in adaptive behavior–resulted in: (1) a decision that
was contrary to, or involved an unreasonable application of, clearly established
federal law; or (2) a decision based on an unreasonable determination of the facts in
light of the evidence presented in the state court proceeding.
3. Onset Before Age Eighteen
The final requirement in proving an Atkins claim is that the alleged mental
retardation (significantly subaverage intellectual functioning and significant or
substantial deficits in adaptive behavior) must have been present before the petitioner
turned eighteen. Perkins, 851 So. 2d at 456. Jenkins argues that “all relevant
evidence shows [his] mental retardation manifested before the age of eighteen and is
a lifelong condition.” (Jenkins’s Reply Brief, Doc. 48 at 34). However, taking all
evidence into account, Jenkins cannot demonstrate his alleged mental retardation
manifested before he attained the age of eighteen.
School records clearly show Jenkins’s poor performance in school was due in
part to excessive absences, late assignments, and lack of fundamental skills in math,
reading, and language. (Rule 32 C.R. Vol. 27 at 877-964). At age 12, officials
52

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 53 of 54
441a

determined through extensive intelligence and adaptive functioning testing that
Jenkins’s intellectual capacity was average and that he was dyslexic, which impaired
his ability to read. (Id. at 955). Officials noted that frequent moves, changes in
schools, family problems, and a learning disability (dyslexia) all contributed to
Jenkins’s “problems.” (Id. at 958). Additional testing performed when Jenkins was
14 years old concluded that he functioned in the dull-normal range of intelligence and
was suffering from a “definite learning disability.” (Id. at 846). School and court
officials clearly determined that Jenkins’s intelligence scores and adaptive
functioning skills were attributable to his learning disability and other circumstances
in his life, rather than mental retardation. Thus, Jenkins is unable to establish that the
decision by the Alabama Court of Criminal Appeals–that his alleged mental
retardation manifested itself before he was eighteen years old–was contrary to clearly
established federal law. Neither can Jenkins show the Alabama Court of Criminal
Appeals’ decision either unreasonably applied clearly established federal law or was
based on an unreasonable determination of the facts in light of the evidence presented
in the state court proceeding.
V. CONCLUSION
Jenkins has failed to establish that the Alabama Court of Criminal Appeals’
decision that he is not mentally retarded under Atkins was contrary to, or involved an
53

Case 4:08-cv-00869-VEH-SGC Document 53 Filed 03/31/15 Page 54 of 54
442a

unreasonable application of, clearly established federal law, or resulted in a decision
that was based on an unreasonable determination of the facts in light of the evidence
presented in the state court proceeding. Thus, his Atkins claim is due to be DENIED.
Because he cannot prevail on his Atkins claim, Jenkins is not entitled to an
evidentiary hearing on that claim. See Cullen v. Pinholster, 131 S. Ct. at 1398-99.
Thus, Jenkins’s Motion for an Evidentiary Hearing on his Atkins claims (Doc. 49) is
due to be DENIED.
An appropriate order will follow.
DONE this the 31st day of March, 2015.

VIRGINIA EMERSON HOPKINS
United States District Judge

54

443a
Ala.

EX PARTE JENKINS
Cite as 972 So.2d 159 (Ala. 2005)

we are convinced that the findings and
conclusions are those of the trial court.
The record reflects that the trial court
was thoroughly familiar with the case
and gave the appellant considerable leeway in presenting evidence to support
his claims. While the practice of adopting the state’s proposed findings and
conclusions is subject to criticism, the
general rule is that even when the court
adopts proposed findings verbatim, the
findings are those of the court and may
be reversed only if clearly erroneous.
Anderson v. City of Bessemer City,
N.C., 470 U.S. 564, 105 S.Ct. 1504, 84
L.Ed.2d 518 (1985); Hubbard v. State,
584 So.2d 895 (Ala.Cr.App.1991); Weeks
v. State, 568 So.2d 864 (Ala.Cr.App.
1989), cert. denied, [498] U.S. [882], 111
S.Ct. 230, 112 L.Ed.2d 184 (1990); Morrison v. State, 551 So.2d 435 (Ala.Cr.
App.), cert. denied, 495 U.S. 911, 110
S.Ct. 1938, 109 L.Ed.2d 301 (1990).’’
593 So.2d at 126. See also DeBruce v.
State, supra; Holladay v. State, 629 So.2d
673 (Ala.Crim.App.1992); Wright v. State,
593 So.2d 111, 117–18 (Ala.Crim.App.1991).
The circuit court’s findings are supported by the testimony and the evidence
that was presented at the Rule 32 proceedings. There is no indication that the circuit court’s findings are ‘‘clearly erroneous.’’ See Bell, supra.
For the foregoing reasons, we affirm the
circuit court’s denial of Jenkins’s petition
for postconviction relief filed pursuant to
Rule 32, Ala.R.Crim.P.

159

Ex parte Mark Allen JENKINS.
(In re Mark Allen Jenkins
v.
State of Alabama).
1031313.
Supreme Court of Alabama.
April 8, 2005.
Background: Defendant petitioned for
postconviction relief from capital-murder
conviction and death sentence. The Circuit
Court, St. Clair County, No. CC-89-68.60,
William E. Hereford, J., denied petition.
The Court of Criminal Appeals, 972 So.2d
111, affirmed. Defendant petitioned for
certiorari review.
Holding: The Supreme Court, Lyons, J.,
held that relation-back doctrine was a civil
law derivative misapplied as to prevent
defendant from amending his postconviction petition; overruling Harris v. State,
947 So.2d 1079; McWilliams v. State, 897
So.2d 437; Giles v. State, 906 So.2d 963; Ex
parte Mack, 894 So.2d 764; DeBruce v.
State, 890 So.2d 1068; Charest v. State, 854
So.2d 1102; and Garrett v. State, 644 So.2d
977.
Affirmed in part, reversed in part, and
remanded.
On remand to, Ala.Cr.App., 972 So.2d 165.

AFFIRMED.
Criminal Law O1586
McMILLAN, P.J., and COBB,
BASCHAB, SHAW, and WISE, JJ.,
concur.

,

The ‘‘relation-back doctrine,’’ limiting
review of untimely raised issues only to
those that relate back to original postjudgment petitions and appeals, was a
civil law derivative misapplied to defendant’s criminal case as to impede his abil-

444a
160

Ala.

972 SOUTHERN REPORTER, 2d SERIES

ity to raise claim of juror misconduct for
first time in his amended petition for
postconviction relief from capital murder
conviction and death sentence; despite
civil nature of postconviction proceedings,
criminal
procedural
rule
governing
amendment of postconviction pleadings
permitted amendment of petition without
incorporating limitations of doctrine, stating, ‘‘Amendments to pleadings may be
permitted at any stage of the proceedings
prior to the entry of judgment,’’ and adding, ‘‘Leave to amend shall be freely
granted’’; overruling Harris v. State, 947
So.2d 1079; McWilliams v. State, 897
So.2d 437; Giles v. State, 906 So.2d 963;
Ex parte Mack, 894 So.2d 764; DeBruce
v. State, 890 So.2d 1068; Charest v. State,
854 So.2d 1102; and Garrett v. State, 644
So.2d 977.
Fed.Rules Civ.Proc.Rule
15(c), 28 U.S.C.A.; Rules Crim.Proc., Rule
32.7.
See publication Words and Phrases for other judicial constructions
and definitions.

Joseph T. Flood, Rochester, New York,
for petitioner.
Troy King, atty. gen., and Tracy M.
Daniel, asst. atty. gen., for respondent.
Bryan A. Stevenson, Randall S. Susskind, and Angela L. Setzer, Montgomery,
for amicus curiae Equal Justice Initiative
of Alabama, in support of the petitioner.
LYONS, Justice.
Mark Allen Jenkins was convicted in
March 1991 of two counts of capital murder in the death of Tammy Hogeland, i.e.,
murder during a robbery in the first degree and murder during a kidnapping in
the first degree. The jury recommended,
1.

Rule 32.2(c), Ala. R.Crim. P., was amended
effective August 1, 2002, to provide that in the
case of a conviction appealed to the Court of
Criminal Appeals a petitioner now has one

by a vote of 10 to 2, that Jenkins be
sentenced to death. The trial court followed its recommendation. On direct appeal, the Court of Criminal Appeals affirmed Jenkins’s convictions and sentence.
See Jenkins v. State, 627 So.2d 1034 (Ala.
Crim.App.1992), aff’d, 627 So.2d 1054 (Ala.
1993).
Jenkins timely filed a postconviction petition pursuant to Rule 32, Ala. R.Crim. P.,
in May 1995. He filed an amended petition in April 1997, after the then applicable
two-year period for filing set forth in Rule
32.2(c) had expired.1 After an evidentiary
hearing, the trial court denied the petition.
Jenkins appealed. The Court of Criminal
Appeals affirmed the judgment denying
postconviction relief. Jenkins v. State, 972
So.2d 111 (Ala.Crim.App.2004). Jenkins
then petitioned this Court for certiorari
review. We granted Jenkins’s petition to
consider that aspect of the judgment of the
Court of Criminal Appeals holding that a
claim asserted in a Rule 32 petition is
time-barred unless that claim satisfies the
requirements for relation back, borrowed
from Rule 15(c), Ala. R. Civ. P., and relates back to the date of the filing of the
original Rule 32 petition. Jenkins argues
that the Court of Criminal Appeals improperly applied principles taken from the
Alabama Rules of Civil Procedure to the
Alabama Rules of Criminal Procedure.
We agree, and, as to that aspect of the
Court of Criminal Appeals’ judgment, we
reverse.
The Court of Criminal Appeals’ opinion
states the following facts concerning the
murder of Tammy Hogeland:
year from the date on which that court issues
its certificate of judgment in which to file a
Rule 32 petition.

445a
EX PARTE JENKINS
Cite as 972 So.2d 159 (Ala. 2005)

‘‘At trial, the State’s evidence tended
to show that on April 21, 1989, a truck
driver discovered Tammy Hogeland’s
nude body on the side of a highway near
Birmingham, Alabama. Forensic tests
showed that Hogeland died as a result of
manual strangulation. Hogeland was
last seen on April 18, 1989, at the Tenth
Avenue Omelet Shoppe restaurant in
Birmingham were she was working as a
waitress. Some of the jewelry Hogeland
had been wearing when she was last
seen was missing when her body was
discovered.
‘‘At about 2:00 a.m. on April 18, 1989,
a witness saw a red sports car, driven by
Jenkins, enter the parking lot of the
Omelet Shoppe. Sara Harris, an employee of the Omelet Shoppe, testified
that she saw the victim drive off with
Jenkins. Later that morning two witnesses saw Jenkins at a gasoline service
station off I–59. They said that a female
was also in the car and that she appeared to be ‘passed out.’ These two
witnesses left the service station and
Jenkins also left the station and followed
them on I–59. They saw Jenkins pull off
of I–59 in an area near where Hogeland’s body was later discovered.’’
Jenkins v. State, 972 So.2d at 119–20 (footnote omitted).
Jenkins’s initial Rule 32 petition was
timely filed. It raised claims of ineffective
assistance of counsel and violations of Brady v. Maryland, 373 U.S. 83, 83 S.Ct. 1194,
10 L.Ed.2d 215 (1963), as well as other
claims that were determined to be procedurally barred. Jenkins’s amended Rule
32 petition added a claim of juror misconduct: Jenkins alleged that a juror in his
trial failed to disclose during voir dire that
two of her close relatives had been brutally
murdered. The juror testified at the Rule
32 hearing that her only nephew had been
murdered before she qualified as a juror in

Ala.

161

Jenkins’s trial. Jenkins states that press
accounts of that crime show that both the
juror’s nephew and his wife were murdered execution-style. The trial court denied relief on the juror-misconduct claim
on the ground that it could have been, but
was not, raised on appeal.
The Court of Criminal Appeals noted
that Jenkins’s juror-misconduct claim was
raised for the first time in the amended
petition, which was filed beyond the then
two-year limitations period for filing a
Rule 32 petition. Relying on Charest v.
State, 854 So.2d 1102 (Ala.Crim.App.2002),
the Court of Criminal Appeals held that
the juror-misconduct claim presented in
the amended petition would be considered
timely only if it related back to a claim
raised in the timely original petition; it
concluded that Jenkins’s original petition
had included ‘‘no claim even remotely related to the venire members’ failure to
truthfully answer questions during voir
dire examination.’’ 972 So.2d at 121. Because the limitations period in Rule 32.2(c),
Ala. R.Crim. P., is mandatory and jurisdictional, the court said, the trial court could
not consider a nonjurisdictional claim filed
beyond the limitations period; therefore,
the court held that Jenkins’s juror-misconduct claim was barred by the expiration of
the limitations period of Rule 32.2(c).
In Charest v. State, the Court of Criminal Appeals employed an analysis of the
relation-back doctrine drawn from Rule 15,
Ala. R. Civ. P.:
‘‘[T]he circuit court should have addressed only those claims raised in the
first petition, which was timely filed on
February 6, 1998, and any subsequently
filed legitimate amendments to that [petition] that relate back to the original
petition. See Rodopoulos v. Sam Piki
Enters., Inc., 570 So.2d 661, 664 (Ala.
1990) (‘ ‘‘ ‘[W]here the amendment is

446a
162

Ala.

972 SOUTHERN REPORTER, 2d SERIES

merely a more definite statement, or
refinement, of a cause of action set out
in the original complaint, the amendment relates back to the original complaint in accordance with [Ala.] R. Civ.
P. 15(c).’ ’’ ’) (quoting McCollough v.
Warfield, 523 So.2d 374 (Ala.1988), and
quoted with approval in Garrett v. State,
644 So.2d 977, 980 (Ala.Crim.App.
1994)).’’
854 So.2d at 1104. In Garrett v. State, 644
So.2d 977 (Ala.Crim.App.1994), the only
case we have found in which the Court of
Criminal Appeals applied the relation-back
doctrine before it did so in Charest, the
court held that a petitioner who had filed a
Rule 32 petition that was not in the proper
form should be allowed to amend his petition to comply with the requirements of
Rule 32, and that his amended petition
would relate back to the filing of the original petition and thus would not be barred
by the limitations period of Rule 32.2(c).
The court stated in Garrett: ‘‘Although the
cases [discussing the relation-back doctrine] in the preceding paragraph concerned the construction and application of
a specific rule of the Alabama Rules of
Civil Procedure, we find the relation-back
principle addressed in those cases applicable to the situation presented in this case.’’
644 So.2d at 981.
Jenkins argues that Rule 32.7(b), Ala.
R.Crim. P., permits an amendment to a
Rule 32 petition without incorporating the
limitations of the doctrine of relation back.
Rule 32.7(b) states: ‘‘Amendments to
pleadings may be permitted at any stage
of the proceedings prior to the entry of
judgment.’’ Furthermore, Jenkins notes
that Rule 32.7(d) provides: ‘‘Leave to
amend shall be freely granted.’’ Jenkins
maintains that the wording of Rule 32.7
clearly indicates that the relation-back doctrine should not impede a petitioner’s ability to file an amendment to a Rule 32
petition that asserts claims that were not

raised in the original petition. Jenkins
also points to Rule 32.4, which provides
that Rule 32 proceedings ‘‘shall be governed by the Rules of Criminal Procedure.’’ (Emphasis added.) If Rule 32 proceedings are governed by the Rules of
Criminal Procedure, Jenkins argues, then
principles taken from the Rules of Civil
Procedure do not apply in Rule 32 proceedings.
The State argues in its brief to this
Court that the Court of Criminal Appeals,
in analyzing Jenkins’s juror-misconduct
claim under the relation-back doctrine,
‘‘followed a long line of state and federal
precedent that has analogized to the relation-back principles of Rule [15, Ala. R.
Civ. P.,] in determining whether amendments to Rule 32 petitions are appropriate.’’ The only Alabama criminal cases the
State cites, however, are Charest and Garrett. The State is correct that most federal courts apply the relation-back principles
of Rule 15(c), Fed.R.Civ.P., to habeas corpus proceedings. See, e.g., Davenport v.
United States, 217 F.3d 1341 (11th Cir.
2000). The State’s reliance on federal
precedent is misplaced, however, because
federal habeas corpus proceedings are considered civil cases, and, consequently, it is
appropriate to apply the Federal Rules of
Civil Procedure to those cases. See, e.g.,
Fama v. Commissioner of Correctional
Servs., 235 F.3d 804 (2d Cir.2000). See
also Rule 11, Rules Governing § 2254
Cases (‘‘The Federal Rules of Civil Procedure, to the extent that they are not inconsistent with any statutory provisions or
these rules, may be applied to a proceeding under these rules.’’ (Emphasis added.)) Although, as previously noted, Rule
32 postconviction proceedings in Alabama
are considered civil in nature, Rule 32.4
specifically mandates that Rule 32 proceedings are governed by the Rules of
Criminal Procedure. As Justice Stuart

447a
EX PARTE JENKINS
Cite as 972 So.2d 159 (Ala. 2005)

explained in her dissent in Ex parte
Hutcherson, 847 So.2d 386, 389 (Ala.2002)
(Stuart, J., dissenting):
‘‘[W]hile a Rule 32 proceeding for postconviction relief is considered to be civil
in nature, such a proceeding is distinct
from a typical civil case. Rule 32, Ala.
R.Crim. P., provides a defendant a
method by which to seek postconviction
relief; therefore, the rights to be accorded a defendant during a Rule 32
proceeding and the procedures pursuant
to which such a proceeding is conducted
are based upon the rule and caselaw.’’
847 So.2d at 389–90 (citation omitted).
This Court recently examined the principles applicable to the amendment of Rule
32 petitions in Ex parte Rhone, 900 So.2d
455 (Ala.2004). In Rhone, the petitioner
moved to amend his Rule 32 petition 16
days after the trial court had received the
original petition. In denying the petition,
the trial court addressed only the claims in
the original petition. The Court of Criminal Appeals affirmed the denial, holding
that the trial court had not exceeded its
discretion in failing to address the claims
in the amendment to Rhone’s petition because ‘‘Rhone failed to meet his initial
burden of showing diligence in filing the
amendment or that the facts underlying
the amendment were unknown to him before filing his original petition.’’ Rhone v.
State, 900 So.2d 443, 448 (Ala.Crim.App.
2004). This Court granted certiorari review to consider Rhone’s contention that
the Court of Criminal Appeals’ decision
conflicted with the well-established principle stated by this Court in Ex parte Allen,
825 So.2d 271, 273 (Ala.2002), that although ‘‘[l]eave to amend a Rule 32 petition is within the discretion of the trial
court, TTT it should be freely granted.’’
In considering the nature of the factors
that would provide a proper basis upon
which a trial court could exercise the dis-

Ala.

163

cretion to disallow an amendment to a
Rule 32 petition, this Court stated in Ex
parte Rhone that ‘‘it is clear that only
grounds such as actual prejudice or undue
delay will support a trial court’s refusal to
allow, or to consider, an amendment to a
Rule 32 petition.’’ 900 So.2d at 458. We
concluded in Rhone that the Court of
Criminal Appeals erred in imposing upon a
Rule 32 petitioner an ‘‘initial burden’’ to
show diligence in filing the amendment or
that the facts underlying that amendment
were unknown when the original petition
was filed. We stated: ‘‘Such a burden is
clearly inconsistent with the mandate of
this Court, as expressed in both its decisions and in Rule 32, that leave to amend
should be freely granted.’’ 900 So.2d at
458–59.
This Court also responded in Ex parte
Rhone to the Court of Criminal Appeals’
statement that the only alternative to its
holding in Rhone v. State would be ‘‘ ‘to
allow a petitioner the unfettered right to
amend his Rule 32 petition.’ ’’ 900 So.2d at
459. We responded:
‘‘That statement, however, is not correct.
The right to amend is limited by the
trial court’s discretion to refuse an
amendment based upon factors such as
undue delay or undue prejudice to the
opposing party. That limitation is, in
this Court’s opinion, sufficient to protect
the rights of the parties, while allowing
the trial court sufficient control over the
management of its docket.’’
900 So.2d at 459. The State makes a
similar argument in its brief in this case.
If we do not apply the doctrine of relation
back to Rule 32 proceedings, the State
argues, ‘‘the result would be piecemeal,
unpredictable litigation and effective obliteration of the limitation period in Rule
32.2(c).’’ The State further argues:
‘‘A convict could file a simple, one-claim
Rule 32 petition, days after his convic-

448a
164

Ala.

972 SOUTHERN REPORTER, 2d SERIES

tion has become final, and then repeatedly amend the petition to add entirely new claims for as long as it takes
the trial court to reach final judgment.’’
As we held in Ex parte Rhone, however, a
petitioner does not have the unfettered
right to file endless amendments to a Rule
32 petition. The right to amend is limited
by the trial court’s discretion to refuse to
allow an amendment if the trial court finds
that the petitioner has unduly delayed filing the amendment or that an amendment
unduly prejudices the State. Such an exercise of the trial court’s discretion would
certainly be appropriate, for example, if,
on the eve of an evidentiary hearing, a
Rule 32 petitioner filed an amendment that
included new claims of which the State had
no prior notice and as to which it was not
prepared to defend.
We emphasize that the concepts of ‘‘undue delay’’ and ‘‘undue prejudice’’ as discussed in this opinion and in Ex parte
Rhone apply to the trial court’s management of its docket and to the petitioner’s
attention to his or her case. Those concepts cannot be applied to restrict the
petitioner’s right to file an amendment
clearly provided for in Rule 32.7 simply
because it states a new claim that was not
included in the original petition.
The United States Supreme Court has
made it clear that neither the Eighth
Amendment nor the Due Process Clause of
the United States Constitution requires
states to appoint counsel for inmates, including death-row inmates, who seek postconviction relief in state courts. Murray
v. Giarratano, 492 U.S. 1, 109 S.Ct. 2765,
106 L.Ed.2d 1 (1989). See also Mayes v.
State, 563 So.2d 38 (Ala.Crim.App.1990).
Because most Rule 32 petitioners file their
petitions without the assistance of legal
counsel, they could encounter serious
problems if the relation-back doctrine was
applied to Rule 32 petitions.

The Alabama Rules of Criminal Procedure permit a trial court to appoint counsel
to represent an indigent petitioner in a
postconviction proceeding if it ‘‘appears
that counsel is necessary to assert or protect the rights of the petitioner.’’ Rule
32.7(c), Ala. R.Crim. P. Such an appointment occurs only after a petition has been
filed. Therefore, inmates who are unable
to find counsel to represent them before
the limitations period for filing a Rule 32
petition expires, including inmates who are
mentally ill, illiterate, or mentally retarded, must determine the date by which they
must file their Rule 32 petition and prepare and file a petition in the proper form
with the proper claims in the proper court.
In 2002, this Court amended Rule 32, Ala.
R.Crim. P., to reduce the limitations period for filing a Rule 32 petition from two
years to one year. Because most Rule 32
petitioners are imprisoned, those petitions
are often based on a preliminary and restricted investigation of the claims asserted. Furthermore, an incarcerated inmate
who does not have legal counsel is obviously hampered in his or her ability to interview witnesses, to gather records, to investigate factual questions, and to conduct
legal research. A strict application of the
doctrine of relation back to prohibit reasonable amendments to Rule 32 petitions
could exacerbate these problems.
Given the direction in the Alabama
Rules of Criminal Procedure that amendments to Rule 32 petitions are to be allowed at any time before the trial court
enters a judgment, Rule 32.7(b), and that
leave to amend is to be freely granted,
Rule 32.7(d), we conclude that a restriction
on a Rule 32 petitioner’s right to file an
amendment by applying principles found
in the Alabama Rules of Civil Procedure,
such as the relation-back doctrine, should
be the subject of careful consideration by
the Standing Committee on the Alabama
Rules of Criminal Procedure. We decline
to rewrite the Rules of Criminal Procedure

449a
Ala.

JENKINS v. STATE
Cite as 972 So.2d 165 (Ala.Crim.App. 2005)

by sanctioning the incorporation of the
relation-back doctrine into those rules
when nothing of that nature presently appears in them.
To the extent that the following cases
applied the relation-back doctrine to proceedings governed by Rule 32, Ala.
R.Crim. P., we overrule those cases: Harris v. State, 947 So.2d 1079 (Ala.Crim.App.
2004); McWilliams v. State, 897 So.2d 437
(Ala.Crim.App.2004); Giles v. State, 906
So.2d 963 (Ala.Crim.App.2004); Ex parte
Mack, 894 So.2d 764 (Ala.Crim.App.2003);
DeBruce v. State, 890 So.2d 1068 (Ala.
Crim.App.2003); Charest v. State, 854
So.2d 1102 (Ala.Crim.App.2002); and Garrett v. State, 644 So.2d 977 (Ala.Crim.App.
1994).2
We reverse the judgment of the Court
of Criminal Appeals insofar as it held that
Jenkins’s claim of juror misconduct, presented for the first time in his amended
petition, could not be considered because it
did not relate back to his original petition,
and we remand the cause for further proceedings consistent with this opinion. We
affirm the judgment of the Court of Criminal Appeals insofar as it affirmed the trial
court’s denial of the other claims presented
in Jenkins’s Rule 32 petition.

165

Mark Allen JENKINS
v.
STATE of Alabama.
CR–97–0864.
Court of Criminal Appeals of Alabama.
Nov. 23, 2005.
Rehearing Denied April 14, 2006.
Certiorari Denied May 18, 2007
Alabama Supreme Court 1050972.
Background: Defendant convicted of capital murder and sentenced to death filed
petition for postconviction relief. The Circuit Court, St. Clair County, No. CC–89–
68.60, William E. Hereford, J., denied petition. Defendant appealed. The Court of
Criminal Appeals, 972 So.2d 111, affirmed.
The Supreme Court, 972 So.2d 159, affirmed in part, reversed in part, and remanded.
Holding: On remand, the Court of Criminal Appeals held that claim of jury misconduct was procedurally barred.
Affirmed.

AFFIRMED IN PART; REVERSED
IN PART; AND REMANDED.
Criminal Law O1429(1, 2)
NABERS, C.J., and SEE, HARWOOD,
WOODALL, STUART, SMITH, BOLIN,
and PARKER, JJ., concur.

,
2. We note that in Ex parte Nesbitt, 850 So.2d
228 (Ala.2002), this Court quoted from Garrett
v. State and held that under the circumstances
presented in Nesbitt, a Rule 32 petition that
was ‘‘refiled’’ was a valid amendment to a
timely filed Rule 32 petition. We stated in
Nesbitt: ‘‘As a valid amended, or ‘continued,’

Capital-murder defendant’s claim of
jury misconduct was procedurally barred
in postconviction-relief proceeding, where
defendant failed to raise claim at trial or
on direct appeal. Rules Crim.Proc., Rule
32.2(a)(3, 5).
petition, obviously accepted by the trial court
as such, Nesbitt’s October 27, 2000, Rule 32
petition related back to his timely filed 1998
petition.’’ 850 So.2d at 231. We did not
address in Nesbitt the merits of the question
whether the relation-back doctrine was appropriately applied to Rule 32 proceedings.

450a
Ala.

JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

ty, the Helton Drive property never became marital property. In addition, as
noted above, we agree with the wife that
paragraph 7, contrary to the husband’s
argument, simply does not contain a requirement that the property acquired by a
spouse after the execution of the agreement and titled in that spouse’s sole name
must be purchased with that spouse’s separate funds in order for the property to be
considered the separate property of the
purchasing spouse. Thus, the interest in
the Helton Drive property, which was
deeded in the wife’s sole name, is her
separate property under the agreement.
[5] The final argument asserted by the
husband is that he was entitled to a constructive trust on the wife’s assets because
he had not transferred his assets to her to
be her separate property but, instead, had
allowed the wife control over his separate
property for the mutual benefit of the
parties. This creative argument is, however, unavailing. The husband correctly explains that a constructive trust may ‘‘ ‘be
imposed upon property whenever the circumstances under which it was acquired
make it inequitable that it should be retained by the holder of legal title provided
some confidential relationship existsTTTT’ ’’
Herston v. Austin, 603 So.2d 976, 979
(Ala.1992)(quoting Cole v. Adkins, 358
So.2d 447, 450 (Ala.1978)). We also agree
that the husband presented sufficient evidence to overcome the wife’s summaryjudgment motion as to the intent of the
parties concerning the wife’s control of the
husband’s money for the benefit of both
parties. See Putnam v. Putnam, 274 Ala.
472, 475–76, 150 So.2d 209, 213 (1963)
(quoting 26 Am.Jur. Husband and Wife,
§ 102, at 729) (noting that a constructive
trust in favor of a husband may arise when
a wife uses the husband’s income to ‘‘ ‘purchase[ ] property with the understanding

111

that it is to be for the benefit of both of
them’ ’’).
[6] However, the husband’s failure to
adequately prove that specific items of
property were purchased with his separate
property (i.e., his salary or funds from his
disability payments) is fatal to his constructive-trust claim. ‘‘[T]o enforce a constructive trust there must have been a
tangible form of identifiable property
which was received as consideration for
the sale of trust property or into which it
may be otherwise traced and identified.’’
Ex parte Morton, 261 Ala. 581, 593, 75
So.2d 500, 512 (1954). The husband has
not definitively traced the wife’s expenditures of what he claims to have been his
separate property into any particular assets; thus, he has not established a ‘‘tangible form of identifiable property’’ upon
which a constructive trust in his favor
could be imposed. Therefore, we conclude
that the trial court did not err by entering
a summary judgment in favor of the wife
on the husband’s constructive-trust claim.
AFFIRMED.
THOMPSON, P.J., and PITTMAN,
BRYAN, and MOORE, JJ., concur.

,
Mark Allen JENKINS
v.
STATE of Alabama.
CR–97–0864.
Court of Criminal Appeals of Alabama.
Feb. 27, 2004.
Rehearing Denied May 21, 2004.
Background: Defendant convicted of capital murder filed petition for postconviction

451a
112

Ala.

972 SOUTHERN REPORTER, 2d SERIES

relief. The Circuit Court, St. Clair County,
No. CC-89-68.60, William E. Hereford, J.,
denied petition, and defendant appealed.
Holdings: The Court of Criminal Appeals
held that:
(1) defendant was not entitled to postconviction review of claims not raised
within two years of entry of judgment
on direct appeal;
(2) defendant did not have right to counsel
on second appeal to Supreme Court,
overruling Watkins v. State;
(3) defendant failed to support claims of
ineffective assistance of counsel during
guilt phase;
(4) defendant failed to support claims of
ineffective assistance of counsel during
sentencing;
(5) testimony by defendant’s clinical psychologist regarding effects of child
abuse in adulthood was not relevant
mitigating evidence;
(6) death sentence for defendant not mentally retarded was not cruel and unusual;
(7) State did not commit Brady violations;
and
(8) trial court’s adoption of State’s proposed order was not reversible error.
Affirmed.
Judgment affirmed in part, reversed in
part, and remanded, Ala., 972 So.2d 159,
on remand to, Ala.Cr.App., 972 So.2d 165.

1. Criminal Law O1134(6), 1147
When reviewing a circuit court’s ruling on a petition for postconviction relief,
the Court of Criminal Appeals applies an
abuse-of-discretion standard; if the circuit
court is correct for any reason, even
though it may not be the stated reason,
the Court will not reverse the circuit
court’s denial of the petition.

2. Criminal Law O1042
The plain-error standard of review is
not applied in postconviction proceedings
challenging a death sentence.
3. Criminal Law O1586
Defendant’s claim in amended postconviction petition of juror misconduct
during voir dire in capital-murder trial did
not relate back to any claim raised in
original petition, and, thus, trial court
lacked jurisdiction to consider claim not
brought within two-year limitations period
for filing postconviction claims after entry
of judgment on direct appeal. Rules Crim.
Proc., Rule 32.2(c).
4. Criminal Law O1586
A claim raised in an amended postconviction petition filed more than two years
after entry of judgment on appeal would
be considered timely if it relates back to a
claim raised in the original timely filed
petition. Rules Crim.Proc., Rule 32.2(c).
5. Criminal Law O1586
The two-year limitations period for filing a postconviction claim after entry of
judgment on direct appeal is mandatory
and jurisdictional, and deprives a court
from considering a nonjurisdictional claim
filed beyond that period. Rules Crim.
Proc., Rule 32.2(c).
6. Criminal Law O641.13(1)
When reviewing a claim of ineffective
assistance of counsel the court applies the
Strickland two-pronged standard: the petitioner must show (1) that his counsel’s
performance was deficient, and (2) that he
was prejudiced as a result of his counsel’s
performance. U.S.C.A. Const.Amend. 6.
7. Criminal Law O641.13(1)
Judicial scrutiny of counsel’s performance must be highly deferential. U.S.C.A.
Const.Amend. 6.

452a
JENKINS v. STATE

Ala.

Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

113

8. Criminal Law O641.13(1)

13. Criminal Law O641.13(6)

A fair assessment of attorney performance in reviewing a claim of ineffective assistance of counsel requires that
every effort be made to eliminate the distorting effects of hindsight, to reconstruct
the circumstances of counsel’s challenged
conduct, and to evaluate the conduct from
counsel’s perspective at the time.
U.S.C.A. Const.Amend. 6.

In any ineffectiveness-of-counsel case,
a particular decision not to investigate
must be directly assessed for reasonableness in all the circumstances, applying a
heavy measure of deference to counsel’s
judgments.

9. Criminal Law O641.13(1)
In reviewing a claim of ineffective assistance of counsel, the reviewing court
must indulge a strong presumption that
counsel’s conduct falls within the wide
range of reasonable professional assistance; that is, the defendant must overcome the presumption that, under the circumstances, the challenged action might
be considered sound trial strategy.
U.S.C.A. Const.Amend. 6.
10. Criminal Law O641.13(2.1)
Strategic choices made by counsel after thorough investigation of law and facts
relevant to plausible options are virtually
unchallengeable in a claim of ineffective
assistance of counsel. U.S.C.A. Const.
Amend. 6.
11. Criminal Law O641.13(6)

14. Criminal Law O641.13(2.1)
Counsel’s failure to object to State’s
use of peremptory challenges to strike all
African-American members of venire did
not state claim for ineffective assistance of
counsel, in capital-murder trial of white
defendant, under Batson rule in effect at
time of trial that limited such claims to
exercise of peremptory strikes against
members of defendant’s race. U.S.C.A.
Const.Amends. 6, 14.
15. Criminal Law O641.13(2.1)
Attorneys are not obliged to object
based on possible future developments in
the law in order to render effective assistance. U.S.C.A. Const.Amend. 6.
16. Criminal Law O1077.3
Capital-murder defendant did not
have constitutional right to counsel on second appeal to Supreme Court after direct
appeal to Court of Criminal Appeals; overruling Watkins v. State, 632 So.2d 555.
U.S.C.A. Const.Amend. 6.

Strategic choices made by counsel after less than complete investigation are
reasonable, for the purposes of a claim of
ineffective assistance of counsel, precisely
to the extent that reasonable professional
judgments support the limitations on investigation. U.S.C.A. Const.Amend. 6.

17. Criminal Law O641.13(7), 1077.3

12. Criminal Law O641.13(6)

18. Criminal Law O1018, 1026

Counsel has a duty to make reasonable investigations or to make a reasonable
decision that makes particular investigations unnecessary.
U.S.C.A. Const.
Amend. 6.

A criminal defendant is guaranteed
one appeal from his conviction, and that
appeal is to the Court of Criminal Appeals.
U.S.C.A. Const.Amend. 6; Code 1975,
§ 12–3–9.

A defendant is constitutionally entitled to effective assistance of counsel,
which includes the filing of an appellate
brief on first appeal as a matter of right.
U.S.C.A. Const.Amend. 6; Code 1975,
§ 12–3–9.

453a
114

Ala.

972 SOUTHERN REPORTER, 2d SERIES

19. Criminal Law O1077.3

25. Jury O33(5.15)

An appeal of a conviction and sentence
to the Alabama Supreme Court is a second
appeal, for the purposes of the right to
counsel, conducted after the Court of
Criminal Appeals has considered and addressed the issues raised by an attorney in
the brief to that Court. U.S.C.A. Const.
Amend. 6; Code 1975, § 12–3–9.

It is important that the defendant
come forward with facts, not just numbers
alone, when asking the trial court to find a
prima facie case of discrimination during
jury selection. U.S.C.A. Const.Amend. 14.

20. Criminal Law O1019, 1020
The primary responsibility for reviewing a capital-murder conviction and death
sentence lies with the Court of Criminal
Appeals. Code 1975, § 13A–5–53(a).
21. Criminal Law O1077.3
The right to appointed counsel extends to the first appeal as of right, and no
further. U.S.C.A. Const.Amend. 6; Code
1975, § 12–3–9.
22. Criminal Law O641.13(7), 1077.3
There is no right to counsel when
pursuing a second appeal of a criminal
conviction and sentence before the Alabama Supreme Court; therefore, there is
no right to the effective assistance of counsel. U.S.C.A. Const.Amend. 6; Code 1975,
§ 12–3–9.
23. Jury O33(5.15)
Defendant’s mere assertion that
State struck three, or all, African-American prospective jurors from venire was
not sufficient to establish prima facie
claim of racial discrimination in exercise
of peremptory strikes under Batson, in
capital-murder trial.
U.S.C.A. Const.
Amends. 6, 14.
24. Jury O33(5.15)
Numbers alone are not sufficient to
establish a prima facie case of discrimination in the exercise of peremptory strikes
under Batson. U.S.C.A. Const.Amend. 14.

26. Criminal Law O1028
An appellate court will not consider an
argument raised for the first time on appeal; its review is limited to evidence and
arguments considered by the trial court.
27. Criminal Law O641.13(6)
Counsel’s failure to interview victim’s
coworker regarding her inability to identify defendant as man she saw victim leave
with in order to impeach her identification
of defendant at trial for capital murder did
not constitute deficient performance that
prejudiced defendant, as required to support claim of ineffective assistance of counsel; counsel thoroughly cross-examined coworker regarding her inability to identify
defendant during two different pretrial
lineups. U.S.C.A. Const.Amend. 6.
28. Criminal Law O641.13(6)
The failure to interview or take the
depositions of the State’s witnesses for
impeachment purposes is not prejudicial
per se, for the purposes of sustaining a
claim of ineffective assistance of counsel.
U.S.C.A. Const.Amend. 6.
29. Criminal Law O641.13(6)
Allegation that counsel failed to interview manager for restaurant where victim
worked regarding inconsistent statement
to police did not state claim of ineffective
assistance of counsel, in capital-murder trial; counsel impeached manager with his
inconsistent statements at trial. U.S.C.A.
Const.Amend. 6.
30. Criminal Law O641.13(6)
Unsupported allegation that counsel
failed to interview victim’s coworker who

454a
JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

could have testified that, when defendant
was in restaurant, nobody mentioned that
victim had been sent to work at the restaurant’s other location, did not state claim
for ineffective assistance of counsel, in capital-murder trial, insofar as coworker could
not remember whether any conversation
took place about victim being sent to work
at other location. U.S.C.A. Const.Amend.
6.
31. Criminal Law O641.13(6)
Counsel’s alleged failure to review
prosecutor’s files and to discover that another person had been arrested for disappearance of victim did not support claim of
ineffective assistance of counsel, in capitalmurder trial; prosecutor had open-file discovery policy, counsel reviewed all of
State’s files, and police report from Mississippi indicating that other suspect had
been arrested had not been included in file
at time of review. U.S.C.A. Const.Amend.
6.
32. Criminal Law O641.13(2.1)
Unsupported assertion that counsel
failed to investigate allegedly systematic
underrepresentation of African-Americans
on both grand and petit jury venires did
not state claim of ineffective assistance of
counsel, in trial for capital murder.
U.S.C.A. Const.Amend. 6.
33. Criminal Law O1580(10)
Defendant’s assertion in postconviction motion, ‘‘[t]he claim that trial counsel
failed to object to actual conflict of interest
in cocounsel’s representation of material
witness for state,’’ could be dismissed for
violating rule requiring clear and specific
statement of grounds for relief. Rules
Crim.Proc., Rule 32.6(b).
34. Criminal Law O641.13(2.1)
Allegation that counsel failed to object
to fact that initial cocounsel had conflict of
interest due to his prior representation of

Ala.

115

material State witness did not state claim
of ineffective assistance of counsel, in capital-murder trial; cocounsel became aware
of potential conflict during pretrial discussions with defendant and counsel, at which
time cocounsel moved to have himself
withdrawn. U.S.C.A. Const.Amend. 6.
35. Criminal Law O641.13(4)
Record did not support claim that
counsel and cocounsel did not have requisite five years of experience to represent
capital defendant; prior to appointment,
counsel who handled guilt phase had notified court that he did not have requisite
five years’ experience, counsel was not appointed until he had completed requisite
five years, and cocounsel who handled penalty phase was local attorney with more
than five years in practice of criminal law.
Code 1975, § 13A–5–54.
36. Criminal Law O641.13(6)
Counsel’s failure to use funds that had
been approved to hire forensic expert did
not constitute deficient performance that
affected outcome of capital-murder trial, as
required to support claim of ineffective
assistance of counsel; counsel spent considerable time and effort learning about fiber
analysis, which evidence State was using
for purposes of identifying defendant as
perpetrator, counsel interviewed State’s fiber expert, expert’s testimony was not a
surprise to defense, and counsel thoroughly cross-examined fiber expert on known
problems with fiber analysis. U.S.C.A.
Const.Amend. 6.
37. Criminal Law O641.13(2.1)
Counsel’s failure to use funds granted
to hire private investigator did not constitute deficient performance that prejudiced
defendant, as required to support claim of
ineffective assistance of counsel, in capitalmurder trial; motion to hire investigator
was brought with specific investigator in
mind, and trial court informed counsel that

455a
116

Ala.

972 SOUTHERN REPORTER, 2d SERIES

particular investigator was not credible.
U.S.C.A. Const.Amend. 6.

serts counsel should have made objection.
U.S.C.A. Const.Amend. 6.

38. Criminal Law O641.13(6)

42. Criminal Law O641.13(2.1)

Counsel’s failure to request funds for
mental-health expert did not fall below
wide range of reasonable professional assistance, as required to support claim of
ineffective assistance of counsel, in capitalmurder trial; counsel had no reason to
question defendant’s mental health after
mental evaluation conducted by lunacy
commission resulted in finding that defendant was competent to stand trial.
U.S.C.A. Const.Amend. 6.

Effectiveness of counsel does not lend
itself to measurement by picking through
the transcript and counting the places
where objections might be made.
U.S.C.A. Const.Amend. 6.

39. Criminal Law O641.13(2.1)
Mere assertions that trial counsel
failed to conduct adequate voir dire examination that would have disclosed biases of
certain prospective jurors did not state
claim of ineffective assistance of counsel, in
capital-murder trial; defendant failed to
call counsel who conducted voir dire to
testify at evidentiary hearing on motion for
postconviction relief, and defendant offered
no evidence as to how voir dire should
have been conducted. U.S.C.A. Const.
Amend. 6.
40. Criminal Law O641.13(6)
Allegation that counsel failed to adequately cross-examine 29 State witnesses
did not state claim of ineffective assistance
of counsel, in capital-murder trial; defendant merely provided laundry list of witnesses and presented no facts or argument
to support claim. U.S.C.A. Const.Amend.
6.

43. Criminal Law O641.13(2.1)
Even though there might have been
several instances where counsel could have
objected, that does not automatically mean
that the defendant did not receive an adequate defense in the context of the constitutional right to counsel. U.S.C.A. Const.
Amend. 6.
44. Criminal Law O641.13(7)
In a challenge to the imposition of a
death sentence, the prejudice prong of the
ineffective-assistance-of-counsel inquiry focuses on whether the sentencer would
have concluded that the balance of aggravating and mitigating circumstances did
not warrant death.
U.S.C.A. Const.
Amend. 6.
45. Criminal Law O641.13(7)
The reasonableness of counsel’s investigation and preparation for the penalty
phase often depends critically upon the
information supplied by the defendant;
counsel cannot be found ineffective for failing to introduce information uniquely within the knowledge of the defendant and his
family which is not provided to counsel.
U.S.C.A. Const.Amend. 6.
46. Criminal Law O641.13(7)

41. Criminal Law O641.13(2.1)
Counsel’s alleged failure to make
laundry list of objections did not state
claim of ineffective assistance of counsel, in
capital-murder trial, absent any presentation of facts to support defendant’s claims
as to each specific instance where he as-

Claim that counsel failed to call family
members and friends to testify regarding
child abuse suffered by defendant and violent family background as mitigating evidence during sentencing for capital murder did not create reasonable probability
that, in balancing of aggravating and miti-

456a
JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

gating factors, death sentence was not
warranted, as required to support claim of
ineffective assistance of counsel; defendant
presented no evidence of counsel’s reasons
for not calling witnesses, jury was presented substantial evidence of mitigating factors for lack of criminal history, age, and
good character and was warned to be careful in choosing sentence because conviction
was based solely on circumstantial evidence, and witnesses’ testimony at hearing
on motion for postconviction relief indicated that they were biased and not credible,
and that they gave contradictory testimony
regarding extent of alleged abuse and defendant’s family background. U.S.C.A.
Const.Amend. 6.
47. Criminal Law O1158(1)
A trial court’s determination regarding the credibility of witnesses is entitled
to great weight on appeal, and such determination will not be disturbed unless clearly contrary to the evidence.
48. Criminal Law O742(1), 747
When there is conflicting testimony as
to a factual matter, the question of the
credibility of the witnesses is within the
sound discretion of the trier of fact.
49. Criminal Law O641.13(7)
A defense attorney is not required to
investigate all leads, and there is no per se
rule that evidence of a criminal defendant’s
troubled childhood must always be presented as mitigating evidence in the penalty phase of a capital case. U.S.C.A. Const.
Amend. 6.
50. Criminal Law O641.13(7)
Counsel has no absolute duty to present mitigating character evidence at all,
and trial counsel’s failure to present mitigating evidence is not per se ineffective
assistance of counsel. U.S.C.A. Const.
Amend. 6.

Ala.

117

51. Criminal Law O304(16)
The Court of Criminal Appeals may
take judicial notice of its previous records.
52. Criminal Law O641.13(7)
Allegation that counsel failed to investigate and present evidence of defendant’s
good conduct in county jail while awaiting
trial did not affect jury’s decision to impose death for capital murder, as required
to support claim of ineffective assistance of
counsel; defendant presented no evidence
as to counsel’s reasons for not presenting
evidence, jailers’ testimony that defendant
was always courteous and polite and that
he was model prisoner was inconsistent
with theory that abuse defendant suffered
as child caused him to commit violence as
adult, and jailers’ observations occurred
during time when defendant was confined
alone in cell located directly across from
guard’s desk. U.S.C.A. Const.Amend. 6.
53. Sentencing and Punishment O1721
Good conduct during pretrial incarceration is not necessarily a mitigating circumstance, for purposes of capital sentencing.
54. Sentencing and Punishment O1777
Whether potentially mitigating evidence mitigates the offense is for the trial
court to determine, in capital sentencing
proceeding.
55. Sentencing and Punishment O1653,
1658
While the trial court is required to
consider all evidence submitted as mitigation, in capital sentencing proceeding,
whether the evidence is actually found to
be mitigating is in the discretion of the
sentencing authority.
56. Criminal Law O641.13(7)
Allegation that counsel failed to request continuance before start of penalty
phase for capital murder did not state

457a
118

Ala.

972 SOUTHERN REPORTER, 2d SERIES

claim of ineffective assistance of counsel,
absent any evidence as to why counsel
failed to do so. U.S.C.A. Const.Amend. 6.
57. Criminal Law O641.13(7)
Counsel was not ineffective in arguing
mitigating factors at separate hearing prior to sentencing for capital murder; counsel prepared detailed presentence memorandum containing information regarding
alleged abuse that was included in presentence report, and counsel argued other
mitigating factors that defendant had no
significant criminal history, that he was
intoxicated and impaired at time of murder, that murder was not premeditated,
and that defendant did not have normal
family life. U.S.C.A. Const.Amend. 6;
Code 1975, § 13A–5–47(c).
58. Criminal Law O1519(15)
Defendant was not entitled to postconviction relief on allegation that he received
ineffective assistance of counsel on direct
appeal from conviction and sentence for
capital murder, absent any identification of
issues that counsel should have raised.
U.S.C.A. Const.Amend. 6.
59. Criminal Law O641.13(7)
Double counting of element for capital
murder as aggravating circumstance that
warranted imposition of death sentence
was not reversible error, and, thus, counsel
was not ineffective for failing to object on
that basis. U.S.C.A. Const.Amend. 6.
60. Criminal Law O1134(3)
Claim that counsel was ineffective for
failure to argue that execution by electrocution constituted cruel and unusual punishment was rendered moot by statute
changing method of execution to lethal injection. U.S.C.A. Const.Amends. 6, 8;
Code 1975, § 15-18-82.1.

61. Sentencing and Punishment O1761,
1769
Testimony by defendant’s retained
clinical psychologist regarding effects of
‘‘abusive and brutal childhood,’’ was not
relevant mitigating evidence, in sentencing
for capital murder; psychologist’s opinion
that there was no possibility that murder
was not connected to abusive childhood
was incredible and based purely on hearsay as to relative effects of child abuse in
adulthood, insofar as psychologist never
interviewed defendant about circumstances
of murder or conducted any psychological
tests or evaluation of defendant. Rules of
Evid., Rule 801.
62. Sentencing and Punishment O1642
Evidence that defendant had IQ score
of above 70, and that he had maintained
employment and relationships with other
individuals indicated that he was not mentally retarded, and, thus, death sentence
did not violate prohibition against cruel
and unusual punishment. U.S.C.A. Const.
Amend. 8.
63. Sentencing and Punishment O1642
To be considered mentally retarded
for the purposes of the prohibition against
executing a mentally retarded defendant,
the defendant must show that he has significantly subaverage intellectual functioning with an IQ score of 70 or below, significant deficits in adaptive behavior, and that
the problems must have manifested themselves before the defendant reached the
age of 18. U.S.C.A. Const.Amend. 8.
64. Criminal Law O700(2.1)
To establish a Brady violation a defendant must show (1) that the prosecution
suppressed evidence, (2) favorable to the
defendant or exculpatory, and (3) material
to the issues at trial.

458a
JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

Ala.

119

65. Criminal Law O700(3)
Prosecutor’s alleged failure to disclose
police report from Mississippi about ‘‘other
suspect’’ did not constitute Brady violation, in trial for capital murder; prosecutor
had open-file discovery policy, trial counsel
was not denied right to copy anything
from prosecutor’s file, and report was not
exculpatory evidence material to issues at
trial, in that individual referred to in report was detained because he matched defendant’s general description, not because
individual was suspect and evidence of defendant’s guilt was overwhelming.

for postconviction relief was not reversible
error, where the findings were not clearly
erroneous.

66. Criminal Law O700(3)
State did not commit Brady violation
in capital-murder trial by allegedly withholding evidence of information regarding
defendant’s abusive childhood, about which
defendant had personal knowledge.

Mark Allen Jenkins, currently an inmate
on death-row at Holman Penitentiary, appeals the circuit court’s denial of his petition for postconviction relief filed pursuant
to Rule 32, Ala.R.Crim.P.

67. Criminal Law O700(2.1)
There is no Brady violation where the
information in question could have been
obtained by the defense through its own
efforts.
68. Criminal Law O700(2.1)
Evidence is not ‘‘suppressed’’ by the
prosecution, in violation of Brady, if the
defendant either knew or should have
known of the essential facts permitting
him to take advantage of any exculpatory
evidence.
See publication Words and Phrases for other judicial constructions
and definitions.

69. Criminal Law O1427
Defendant was procedurally barred
from consideration of postconviction claims
that either were raised or could have been
raised at trial or on direct appeal. Rules
Crim.Proc., Rule 32.2(a).
70. Criminal Law O1177
Trial court’s adoption of State’s proposed order denying defendant’s motion

Joseph T. Flood, Manassas, Virginia, for
appellant.
Troy King and William H. Pryor, Jr.,
attys. gen.; and A. Vernon Barnett IV,
asst. atty. gen., for appellee.
PER CURIAM.

In March 1991, Jenkins was convicted of
two counts of capital murder for murdering Tammy Hogeland during the course of
a kidnapping and a robbery. The jury, by
a vote of 10 to 2, recommended that Jenkins be sentenced to death. The trial
court sentenced Jenkins to death. Jenkins’s conviction and death sentence were
affirmed on direct appeal. See Jenkins v.
State, 627 So.2d 1034 (Ala.Crim.App.1992),
aff’d, 627 So.2d 1054 (Ala.1993). This
Court issued its certificate of judgment on
October 28, 1993. See Rule 41, Ala.
R.App.P.
In May 1995, Jenkins filed a petition for
postconviction relief pursuant to Rule 32,
Ala.R.Crim.P. An amended petition was
filed in April 1997. After an evidentiary
hearing, the circuit court denied Jenkins’s
Rule 32 petition in a thorough 79–page
order. This appeal followed.
At trial, the State’s evidence tended to
show that on April 21, 1989, a truck driver
discovered Tammy Hogeland’s nude body
on the side of a highway near Birmingham,
Alabama. Forensic tests showed that

459a
120

Ala.

972 SOUTHERN REPORTER, 2d SERIES

Hogeland died as a result of manual strangulation. Hogeland was last seen on April
18, 1989, at the Tenth Avenue Omelet
Shoppe restaurant in Birmingham where
she was working as a waitress. Some of
the jewelry Hogeland had been wearing
when she was last seen was missing when
her body was discovered.1
At about 2:00 a.m. on April 18, 1989, a
witness saw a red sports car, driven by
Jenkins, enter the parking lot of the Omelet Shoppe. Sara Harris, an employee of
the Omelet Shoppe, testified that she saw
the victim drive off with Jenkins. Later
that morning two witnesses saw Jenkins at
a gasoline service station off I–59. They
said that a female was also in the car and
that she appeared to be ‘‘passed out.’’
These two witnesses left the service station and Jenkins also left the station and
followed them on I–59. They saw Jenkins
pull off of I–59 in an area near where
Hogeland’s body was later discovered.
Standard of Review
[1] When reviewing a circuit court’s
ruling on a petition for postconviction relief, we apply an abuse of discretion standard. ‘‘If the circuit court is correct for
any reason, even though it may not be the
stated reason, we will not reverse its denial of the petition. See Roberts v. State,
516 So.2d 936 (Ala.Cr.App.1987).’’ Reed v.
State, 748 So.2d 231, 233 (Ala.Crim.App.
1999).
[2] This Court applied a plain-error
standard of review when reviewing Jenkins’s conviction and sentence on direct
appeal. However, the plain-error stan1.

Hogeland’s body was so badly decomposed
that dental records were used for the identification.

2.

The two-year limitations period applies in
this case because the Rule 32 petition was
filed before Rule 32.2(c), Ala.R.Crim.P., was
amended effective August 1, 2002, to shorten

dard of review is not applied in postconviction proceedings challenging a death sentence. Hill v. State, 695 So.2d 1223 (Ala.
Crim.App.1997); Neelley v. State, 642
So.2d 494 (Ala.Crim.App.1993), writ
quashed, 642 So.2d 510 (Ala.1994).
Last, this proceeding was initiated at
Jenkins’s direction. According to Rule
32.3, Ala.R.Crim.P., Jenkins has the ‘‘burden of pleading and proving by a preponderance of the evidence the facts necessary to entitle the petitioner to relief.’’
I.
Jenkins first argues that he was deprived of his right to due process, his right
to select an impartial jury, and his right to
a fair trial when members of the venire
failed to answer critical questions during
voir dire examination.
In October 1993, this Court issued the
certificate of judgment for Jenkins’s direct
appeal. Jenkins’s Rule 32 petition was
filed in May 1995. This juror-misconduct
claim was not raised in Jenkins’s original
Rule 32 petition; however, it was raised in
an amended petition filed in April 1997—
more than three years after this Court
issued the certificate of judgment for Jenkins’s direct appeal.
When Jenkins filed his postconviction
petition, Rule 32.2(c), Ala.R.Crim.P., provided that a petitioner had two years from
this Court’s issuance of the certificate of
judgment in which to file a Rule 32 petition.2 Jenkins’s original petition was filed
within two years of the issuance of the
certificate of judgment. However, the juthe limitations period to one year. The Alabama Supreme Court recently issued an
opinion clarifying the effective date of the
amendment changing the limitations period
in relation to the issuance of the certificate of
judgment. See Ex parte Gardner, 898 So.2d
690 (Ala.2004).

460a
JENKINS v. STATE

Ala.

Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

ror-misconduct claim was not raised until
the amended petition was filed in April
1997—well past the two-year limitations
period.
[3, 4] Nonetheless, this claim would be
considered timely if it relates back to a
claim raised in the original timely filed
Rule 32 petition. However, the May 1995
petition had no claim even remotely related to the veniremembers’ failure to truthfully answer questions during voir dire
examination. See Charest v. State, 854
So.2d 1102 (Ala.Crim.App.2002).
[5] The limitations period in Rule
32.2(c), Ala.R.Crim.P., is mandatory and
jurisdictional, Williams v. State, 783 So.2d
135, 137 (Ala.Crim.App.2000), and deprives
a court from considering a nonjurisdictional claim filed beyond that period. Therefore, this constitutional claim is barred by
the expiration of the limitations period.
See Rule 32.2, Ala.R.Crim.P.3
II.
Jenkins next argues that he was deprived of the effective assistance of counsel
at all stages of his trial and on appeal.
[6–13] When reviewing a claim of ineffective assistance of counsel we apply the
two-pronged standard of review first announced by the United States Supreme
Court in Strickland v. Washington, 466
U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674
(1984). The petitioner must show (1) that
his counsel’s performance was deficient
and (2) that he was prejudiced as a result
of his counsel’s performance.
‘‘Judicial scrutiny of counsel’s performance must be highly deferential. It
is all too tempting for a defendant to
second-guess counsel’s assistance after
3. Jenkins does not argue that this claim meets
the test for newly discovered evidence con-

121

conviction or adverse sentence, and it is
all too easy for a court, examining counsel’s defense after it has proved unsuccessful, to conclude that a particular act
or omission of counsel was unreasonable.
Cf. Engle v. Isaac, 456 U.S. 107, 133–34
(1982). A fair assessment of attorney
performance requires that every effort
be made to eliminate the distorting effects of hindsight, to reconstruct the circumstances of counsel’s challenged conduct, and to evaluate the conduct from
counsel’s perspective at the time. Because of the difficulties inherent in making the evaluation, a court must indulge
a strong presumption that counsel’s conduct falls within the wide range of reasonable professional assistance; that is,
the defendant must overcome the presumption that, under the circumstances,
the challenged action ‘might be considered sound trial strategy.’ See Michel
v. Louisiana, [350 U.S. 91], at 101
[ (1955) ]. There are countless ways to
provide effective assistance in any given
case. Even the best criminal defense
attorneys would not defend a particular
client in the same way.’’
466 U.S. at 689, 104 S.Ct. 2052. As the
United States Supreme Court further stated:
‘‘[S]trategic choices made after thorough
investigation of law and facts relevant to
plausible options are virtually unchallengeable; and strategic choices made
after less than complete investigation
are reasonable precisely to the extent
that reasonable professional judgments
support the limitations on investigation.
In other words, counsel has a duty to
make reasonable investigations or to
make a reasonable decision that makes
particular investigations unnecessary.
tained in Rule 32.1(e), Ala.R.Crim.P.

461a
122

Ala.

972 SOUTHERN REPORTER, 2d SERIES

In any ineffectiveness case, a particular
decision not to investigate must be directly assessed for reasonableness in all
the circumstances, applying a heavy
measure of deference to counsel’s judgments.’’
466 U.S. at 690–91, 104 S.Ct. 2052.
During trial Jenkins was represented
by attorneys Douglas Scofield and Stan
Downey. Scofield testified at the postconviction proceedings; Downey did not.
Scofield said that he was responsible for
preparing for the guilt phase of the trial
and Downey was responsible for preparing for the penalty phase. Scofield also
represented Jenkins on appeal. Jenkins
makes the following claims related to his
counsel’s performance.
A.
[14] Jenkins argues that Scofield failed
to object to the State’s alleged discriminatory use of its peremptory strikes. He
argues that Scofield failed to make a Batson v. Kentucky, 476 U.S. 79, 106 S.Ct.
1712, 90 L.Ed.2d 69 (1986), objection after
the jury was struck and after all of the
blacks had been removed from the venire.
The United States Supreme Court in Batson held that black prospective jurors
could not be excluded from a black defendant’s jury solely on the basis of their
race.4
Jenkins was convicted on March 19,
1991. On April 1, 1991, the United States
Supreme Court released its decision in
Powers v. Ohio, 499 U.S. 400, 111 S.Ct.
1364, 113 L.Ed.2d 411 (1991), holding that
‘‘a criminal defendant may object to racebased exclusions of jurors effected through
peremptory challenges whether or not the
4.

Batson has also been extended to defense
counsel in Georgia v. McCollum, 505 U.S. 42,
112 S.Ct. 2348, 120 L.Ed.2d 33 (1992), and to
gender in J.E.B. v. Alabama, 511 U.S. 127,
114 S.Ct. 1419, 128 L.Ed.2d 89 (1994).

defendant and the excluded juror share
the same race.’’ 499 U.S. at 402, 111 S.Ct.
1364. Jenkins is white.5
The trial court made the following findings of fact concerning this issue:
‘‘On April 30, 1986, the United States
Supreme Court decided Batson v. Kentucky, 476 U.S. 79 (1986), which held
that a State denies a black defendant
equal protection when it puts him on
trial before a jury from which members
of his race have been purposefully excluded. The jury which convicted Jenkins was struck and empaneled on
March 13, 1991. On February 7, 1991,
trial counsel for Jenkins filed a ‘motion
to enjoin the prosecution from utilizing
his peremptory challenges to systematically exclude minorities from the jury
panel.’ In support of the motion, counsel asserted that Jenkins ‘[was] part
Mexican-blood, and [was] charged with
killing a white person.’ Trial counsel
argued that the motion addressed ‘all
minorities’, including blacks, despite the
fact that the law did not support that
contention. At the relevant time, a defendant could establish a prima facie
case of ‘purposeful discrimination in selection of the petit jury solely on evidence concerning the prosecutor’s exercise of peremptory challenges at the
defendant’s trial.’ Batson, 476 U.S. at
96. However, to establish such a case,
‘the defendant first must show that he
[was] a member of a cognizable racial
group and that the prosecutor ha[d] exercised peremptory challenges to remove from the venire members of the
defendant’s race.’ The claim in the
5. All of the court documents reflect that Jenkins is white. However, witnesses at the Rule
32 proceeding testified that Jenkins is of Hispanic descent.

462a
Ala.

JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

amended petition relates to ‘African–
American veniremembers.’
Because
Jenkins is not an African American, an
objection to the striking of members of
that race would have been meritless at
the relevant time.
‘‘Subsequent to Jenkins’s conviction,
the United States Supreme Court decided Powers v. Ohio, 499 U.S. 400, 404–17
(1991), which held that under the Equal
protection clause, a criminal defendant
may object to race-based exclusions of
jurors through peremptory challenges
whether or not the defendant and the
excluded jurors share the same race.
Powers was a change in the law. Farrell v. Davis, 3 F.3d 370, 371–72 (11th
Cir.1993). Alabama courts on many occasions have refused to hold trial counsel’s performance ineffective for failing
to forecast changes in the law. State v.
Tarver, 629 So.2d 14, 17–18 (Ala.Crim.
App.1993), TTT; Morrison v. State, 551
So.2d 435 (Ala.Crim.App.1989), cert. denied, 495 U.S. 911 (1990). It appears,
however, that trial counsel did forecast
Powers. The trial court simply did not
share trial counsel’s foresight. Trial
counsel’s performance was certainly not
outside ‘the wide range of reasonable
professional assistance.’ Strickland v.
Washington, 466 U.S. at 689. Finally,
there is no reasonable probability that
had a Batson/Powers motion been made
and entertained by the trial court, the
result of the trial would have been different.’’
(C.R. 307–09.)

123

805 So.2d 733 (Ala.Crim.App.2000), aff’d,
805 So.2d 763 (Ala.2001); Nicks v. State,
783 So.2d 895 (Ala.Crim.App.1999), cert.
quashed, 783 So.2d 926 (Ala.2000); Lawhorn v. State, 756 So.2d 971 (Ala.Crim.
App.1999); Davis v. State, 720 So.2d 1006
(Ala.Crim.App.1998); McArthur v. State,
652 So.2d 782 (Ala.Crim.App.1994); State
v. Tarver, 629 So.2d 14 (Ala.Crim.App.
1993).
Jenkins’s attorneys were not
‘‘ ‘obliged to object based on possible future developments in the law in order to
render effective assistance.’ ’’ Thompson
v. State, 581 So.2d 1216, 1236 (Ala.Crim.
App.1991), quoting trial court’s order,
which this Court adopted.
B.
Jenkins also argues that Scofield failed
to ensure that the record on direct appeal
to this Court and on appeal to the Alabama Supreme Court was supplemented to
support Jenkins’s Batson claim. He relies
heavily on this Court’s decision in Watkins
v. State, 632 So.2d 555 (Ala.Crim.App.1992)
(Taylor and Montiel, JJ., dissenting),6 in
support of this contention.
When addressing this issue the circuit
court stated:

[15] The trial court’s findings are consistent with Alabama caselaw. We have
frequently held that counsel’s performance
is not deficient for failing to ‘‘forecast
changes in the law.’’ See Dobyne v. State,

‘‘Trial counsel Doug Scofield testified
at the evidentiary hearing that he continued to represent Jenkins on appeal.
Although he was the attorney of record,
Mr. Scofield stated that he was assisted
a great deal by an attorney with the
Capital Resource Center, Hillary Hoffman. The Court notes that the Capital
Resource Center represented death row
inmates almost exclusively and the majority of that representation was at the
appellate level. Regarding the extent of

6. When the Alabama Supreme Court quashed
the petition for certiorari review, four Justices
dissented and stated that this Court’s decision

in Watkins should be reversed. The composition of the Supreme Court has changed since
it decided Watkins.

463a
124

Ala.

972 SOUTHERN REPORTER, 2d SERIES

Ms. Hoffman’s involvement in the case,
Mr. Scofield stated the following:
‘‘ ‘I continued to be involved in the
sense of Hillary would prepare things.
I would review them for signature and
things like that. She did the majority
of the work after that point. I reviewed court opinions. I reviewed her
drafts and this, that and the other.
Primarily, at that point, she became
more involved in the actual appellate
aspect of the case. I argued the case
before the Courts. In terms of the
actual preparation, she would make
drafts, send them to me and I would
review them.’
‘‘The Court does not find it to be insignificant that the Capital Resource Center was, in essence, raising the issues on
appeal and preparing the supporting argument. The past experience of an attorney is an important consideration in
evaluating ineffective assistance of counsel claims. See State v. Whitley, 665
So.2d 998, 999 (Ala.Crim.App.1995) (denying ineffective assistance of counsel
claim while pointing out that ‘[d]efendant’s attorney had extensive experience
in the trial of criminal cases and specifically homicide cases.’)’’
(C.R. 309–10.)
In Watkins v. State, 632 So.2d 555 (Ala.
Crim.App.1992), a majority of this Court
held that an attorney’s performance before
the Alabama Supreme Court was deficient
because the attorney failed to ensure that
the record was supplemented to support
Watkins’s Batson argument that counsel
pursued before the Alabama Supreme
Court. We held that the failure to supplement the record in the Alabama Supreme
Court to include the racial composition of
the jury members constituted deficient
performance and that ‘‘the petitioner did
not have to show any prejudice other than
the reasonable probability that the Ala-

bama Supreme Court would have granted
his motion to supplement the record to
show that a Batson hearing was warranted
had one been made.’’ 632 So.2d at 563
(emphasis added).
[16] At first blush it appears that our
holding in Watkins supports Jenkins’s
claim and warrants relief. However, a
closer examination of our decision in Watkins reveals that our conclusion—that
Watkins was denied the effective assistance of counsel when pursuing his appeal
before the Alabama Supreme Court—was
based on a faulty legal premise—that a
defendant has a constitutional right to
counsel when pursuing an appeal to the
Alabama Supreme Court.
The United States Supreme Court in
Douglas v. California, 372 U.S. 353, 83
S.Ct. 814, 9 L.Ed.2d 811 (1963), ‘‘held that
denial of counsel to indigents on first appeal as of right amounted to unconstitutional discrimination against the poor.’’
Pennsylvania v. Finley, 481 U.S. 551, 554,
107 S.Ct. 1990, 95 L.Ed.2d 539 (1987).
The Douglas Court also noted, ‘‘We are
not here concerned with problems that
might arise from the denial of counsel for
the preparation of a petition for discretionary or mandatory review beyond the stage
in the appellate process at which the
claims have once been presented by a lawyer and passed upon by an appellate
court.’’ 372 U.S. at 356, 83 S.Ct. 814. The
United States Court of Appeals for the
Eleventh Circuit, in Williams v. Turpin,
87 F.3d 1204, 1209 (11th Cir.1996), aptly
stated the rationale behind the Douglas
holding:
‘‘The right to effective assistance of
counsel during the first appeal attaches
because once a state has created a right
of appeal, the state must ensure that all
persons have an equal opportunity to
enjoy the right. [Douglas v. California,
372 U.S. 353,] at 356–57, 83 S.Ct. [814]

464a
JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

at 816 [ (1963) ]. However, ‘once a defendant’s claims of error are organized
and presented in a lawyerlike fashion’
during the first appeal as of right, the
obligation of ensuring equal access to
the court system is no longer constitutionally required. Ross v. Moffitt, 417
U.S. 600, 615–16, 94 S.Ct. 2437, 2446–47,
41 L.Ed.2d 341 (1974). ‘The duty of the
State TTT is not to duplicate the legal
arsenal that may be privately retained
by a criminal defendant in a continuing
effort to reverse his conviction, but only
to assure the indigent defendant an adequate opportunity to present his claims
fairly in the context of the State’s appellate process.’ Id.’’
We have consistently followed the Douglas holding and concluded that the right to
counsel does not extend beyond the first
appeal as of right. See State v. Tarver,
629 So.2d 14 (Ala.Crim.App.1993); Jackson v. State, 612 So.2d 1356 (Ala.Crim.App.
1992); Cunningham v. State, 611 So.2d
510 (Ala.Crim.App.1992); James v. State,
564 So.2d 1002 (Ala.Crim.App.1989); Kinsey v. State, 545 So.2d 200 (Ala.Crim.App.
1989); Thomas v. State, 511 So.2d 248
(Ala.Crim.App.1987); Bies v. State, 418
So.2d 940 (Ala.Crim.App.1982). We have
also applied the Douglas holding to deathpenalty cases. See State v. Tarver, supra,
and Thomas v. State, 511 So.2d 248 (Ala.
Crim.App.1987).
[17, 18] In Alabama, the right to appeal a criminal conviction is a statutory
right. See § 12–22–130, Ala.Code 1975.
A defendant convicted of a felony has the
right to appeal his conviction to the Alabama Court of Criminal Appeals; therefore, the first appeal as of right is to this
Court. See § 12–3–9, Ala.Code 1975
(‘‘The Court of Criminal Appeals shall
have exclusive appellate jurisdiction of all
TTT felonies.’’). ‘‘Appellant is constitutionally entitled to effective assistance of coun-

Ala.

125

sel, which includes the filing of an appellate brief on first appeal as a matter of
right.’’ Johnson v. State, 584 So.2d 881,
883 (Ala.Crim.App.1991). As we stated in
State v. Tarver, 629 So.2d at 18, also a
death-penalty case, ‘‘a criminal defendant
is guaranteed one appeal from his conviction, and that appeal is to this court.’’
Recently, in Ex parte Berryhill, 801
So.2d 7, 11 (Ala.2001), the Alabama Supreme Court reiterated the principle that a
defendant has a constitutional right to
counsel in his first appeal:
‘‘Historically, courts have emphasized
the importance of appellate review:
‘‘ ‘The need for forceful advocacy
does not come to an abrupt halt as the
legal proceeding moves from the trial
to [the] appellate stage. Both stages
TTT, although perhaps involving
unique legal skills, require careful advocacy to ensure that rights are not
forgone and that substantial legal and
factual arguments are not inadvertently [overlooked].’
‘‘Penson v. Ohio, 488 U.S. 75, 85, 109
S.Ct. 346, 102 L.Ed.2d 300 (1988).
‘‘ ‘In bringing an appeal as of right
from his conviction, a criminal defendant is attempting to demonstrate
that the conviction, with its consequent drastic loss of liberty, is unlawful. To prosecute the appeal, a criminal appellant must face an adversary
proceeding that—like a trial—is governed by intricate rules that to a layperson would be hopelessly forbidding.’
‘‘Evitts v. Lucey, 469 U.S. 387, 396, 105
S.Ct. 830, 83 L.Ed.2d 821 (1985).
Therefore, the constitutional right to effective assistance of counsel applies to
appellate proceedings. Id., 469 U.S. at
398, 105 S.Ct. 830 (criminal defendants
have constitutional rights to effective
counsel during the first appeal as of

465a
126

Ala.

972 SOUTHERN REPORTER, 2d SERIES

right); see Williams v. Turpin, 87 F.3d
1204, 1209 (11th Cir.1996).’’
801 So.2d at 11.
[19, 20] We are aware that the majority of Alabama cases that have followed
Douglas are not death-penalty cases and
that at the time our decision in Watkins
was released a defendant convicted of a
capital offense and sentenced to death was
granted an automatic review by this Court
and that a petition for a writ of certiorari
was automatically granted by the Alabama
Supreme Court.
See Rule 39, Ala.
R.App.P.7 However, an appeal to the Alabama Supreme Court is a second appeal
conducted after this Court has considered
and addressed the issues raised by an
attorney in the brief to this Court.8 The
State’s obligation to provide counsel was
satisfied by providing counsel on the first
appeal to this Court. See Douglas v. California, 372 U.S. at 356, 83 S.Ct. 814;
Williams v. Turpin, 87 F.3d at 1209.
Moreover, the scope of the Alabama Supreme Court’s certiorari review is limited
to determining the correctness of this
Court’s decision. See Rule 39, Ala.
R.App.P. The primary responsibility for
reviewing all death-penalty convictions and
sentences is with this Court. See § 13A–
5–53(a), Ala.Code 1975.
[21, 22] In Thomas, 511 So.2d 248, this
Court addressed a claim that an attorney’s
7.

Effective May 19, 2000, Rule 39, Ala.R.App.
P., was amended to provide that the review of
death-penalty cases by the Alabama Supreme
Court is discretionary. A petition for a writ
of certiorari is no longer automatically granted in death-penalty cases.

8. Section 13A–5–53(a), Ala.Code 1975, specifically addresses appeals in death-penalty
cases, and provides, in part: ‘‘In any case in
which the death penalty is imposed, in addition to reviewing the case for any error involving the conviction, the Alabama Court of
Criminal Appeals, subject to review by the
Alabama Supreme Court, shall also review

performance in his death-penalty appeal
before the United States Supreme Court
was deficient. In refusing to recognize the
right to counsel beyond that which is constitutionally required, we stated:
‘‘While we quickly recognize the apparent differences between the two types of
punishment [a sentence of death versus
a sentence of life imprisonment], we
know of no reason why the magnitude of
the death sentence should distort the
guarantee of effective counsel beyond
the scope defined by the Supreme
Court.’’
511 So.2d at 258. As the Ohio Supreme
Court stated in State v. Buell, 70 Ohio
St.3d 1211, 1211, 639 N.E.2d 110, 110
(1994):
‘‘[The defendant’s] 1986 appeal to [the
Ohio Supreme Court] was his second
appeal. ‘[T]he right to appointed counsel extends to the first appeal as of
right, and no further.’ (Emphasis added.) Pennsylvania v. Finley (1987), 481
U.S. 551, 555, 107 S.Ct. 1990, 1993, 95
L.Ed.2d 539, 545. See, also, Evitts v.
Lucey (1985), 469 U.S. 387, 394, 105
S.Ct. 830, 834–835, 83 L.Ed.2d 821, 828.
Having no constitutional right to counsel
on a second appeal, [the defendant] had
no constitutional right to the effective
assistance of counsel.’’
the propriety of the death sentence.’’ This
Code section places with this Court the primary responsibility for reviewing a capitalmurder conviction and death sentence. The
only provision for an automatic grant of a
petition for a writ of certiorari in the Alabama Supreme Court was Rule 39, Ala.
R.App.P. That provision was never codified.
The Supreme Court pursuant, to the rulemaking authority granted it by the Alabama
Constitution, amended Rule 39 to delete the
automatic-review provision of death-penalty
cases.

466a
JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

There is no right to counsel when pursuing
a second appeal before the Alabama Supreme Court; therefore, there is no right
to the effective assistance of counsel. Our
decision in Watkins improperly expands
the holding of the Douglas court.
Moreover, we question the continued validity of our decision in Watkins given the
Alabama Supreme Court’s subsequent decision in Ex parte Frazier, 758 So.2d 611
(Ala.1999). The Alabama Supreme Court
in Frazier abrogated in part the decision
in Watkins by holding that a similar Batson claim did not constitute per se ineffective assistance of counsel. The Frazier
court stated:
‘‘Frazier blames his attorneys for the
fact that the record does not permit
review of the Batson issue, and he urges
us to remand this case for a new trial
because his attorneys failed to preserve
this issue for reviewTTTT Failure to
make a record of the race or gender of
persons against whom the prosecution
asserted peremptory strikes is not per se
ineffective assistance of counsel; it
would constitute ineffective assistance
only if a prima facie case of purposeful
discrimination existed. See Ex parte
Yelder, 575 So.2d [137] at 139 [ (Ala.
1991) ].’’
758 So.2d at 616 (emphasis added).
[23–26] Accordingly, as the Alabama
Supreme Court noted in Ex parte Frazier,
the petitioner must establish a prima facie
case of purposeful discrimination. Jenkins’s only argument before the circuit
court to support this contention was that
the State struck three blacks, or all of the
blacks, from the venire. Numbers alone;
however, are not sufficient to establish a
9.

In his brief to this Court Jenkins makes
other arguments in support of this contention.
However, those arguments were not presented to the circuit court. ‘‘This court will not
consider an argument raised for the first time

Ala.

127

prima facie of discrimination. As the Alabama Supreme Court stated in Sharrief v.
Gerlach, 798 So.2d 646 (Ala.2001):
‘‘The [defendant’s] only objection regarding the [State’s] strikes of women, if
it can be characterized as an objection,
was to the fact that only three women
were left on the jury. However, ‘ ‘‘ ‘[I]t
is important that the defendant come
forward with facts, not just numbers
alone, when asking the [trial] court to
find a prima facie case’ ’’ of TTT discrimination.’ McElemore v. State, 798 So.2d
693, 696 (Ala.Crim.App.2000) (quoting
Mitchell v. State, 579 So.2d 45, 48 (Ala.
Crim.App.1991), in turn quoting United
States v. Moore, 895 F.2d 484, 485 (8th
Cir.1990)).’’
798 So.2d at 655.9
For the reasons stated above, we overrule our decision in Watkins, 632 So.2d
555. As Justice Ingram wrote in his dissenting opinion in Watkins v. State, 632
So.2d 566 (Ala.1994), a 5–4 decision in
which a majority of the Justices on the
Alabama Supreme Court voted to quash
the writ of certiorari:
‘‘I believe that society’s expectation of
its courts, under the law and within the
rules, is that we should establish some
reasonable point at which post-judgment
review would end. At least we should
preclude the same issue, once raised,
reviewed, and decided, from recurring
on appeal. I believe this case would be
an appropriate one in which to establish
that point.
‘‘The United States Supreme Court in
Strickland v. Washington, 466 U.S. 668,
104 S.Ct. 2052, 80 L.Ed.2d 674 (1984),
stated that the proper standard for
on appeal; its review is limited to evidence
and arguments considered by the trial court.’’
Myrick v. State, 787 So.2d 713, 718 (Ala.Crim.
App.2000).

467a
128

Ala.

972 SOUTHERN REPORTER, 2d SERIES

judging attorney performance in regard
to
ineffective-assistance-of-counselclaims is ‘simply reasonableness under
prevailing professional norms.’ 466 U.S.
at 688, 104 S.Ct. at 2065. Further, it
addressed the temptation of looking
backward with the knowledge of current
law:
‘‘ ‘A fair assessment of attorney performance requires that every effort be
made to eliminate the distorting effects of hindsight, to reconstruct the
circumstances of counsel’s challenged
conduct, and to evaluate the conduct
from counsel’s perspective at the
time.’
‘‘466 U.S. at 689, 104 S.Ct. at 2065.
(Emphasis added.)’’
632 So.2d at 567 (Ingram, J., dissenting).
Scofield’s performance was not deficient
because he failed to ensure that the record
on appeal was supplemented to support an
argument that had no legal foundation at
the time the alleged error occurred in the
trial court and that was not presented to
the trial court. To hold otherwise would
subject appellate counsel’s performance to
a stricter level of review than trial counsel’s performance.
C.
Jenkins next argues that he was denied
the effective assistance of counsel at the
guilt stage of the proceedings. He makes
many different arguments in support of
this contention. Most of the allegations
raised by Jenkins were directly contradicted by testimony at the evidentiary hearing.
1.
[27] Jenkins first argues that Scofield
failed to interview Sara Harris—a coworker of the victim’s who identified Jenkins as
the man she saw the victim with on the
night of April 18, 1989. Specifically, he
argues that Scofield should have inter-

viewed Harris so that he could have effectively cross-examined her on her failure to
identify Jenkins in two different pretrial
lineups.
The following occurred during the evidentiary hearing:
‘‘Q [Defense counsel]: I’m talking specifically about Sara Harris. Did you not
point that out to the trial court that she
did not positively identify Mr. Jenkins?
‘‘A [Scofield]: Yes, she was cross-examined on that item—no question about it.
My assumption going into trial was she
was not going to be able to identify him.
She couldn’t on two different occasions.
All of a sudden she shows up, after
having had a meeting with the [district
attorney], and now she is saying, ‘Yes,
that is the guy’ and identified himTTTT
‘‘Q: You made that argument, did you
not?
‘‘A: There is no question she was crossexamined and the jury was pointed that
out on two prior occasions. Whether
they believed and discredited her, I can’t
say.’’
(R. 381–82.)
[28] At the Rule 32 hearing Scofield
was questioned about Harris’s identification testimony. Scofield stated that he
knew that Harris’s identification of Jenkins was questionable because he had been
present at one pretrial lineup where she
was unable to identify Jenkins. He also
stated—and the trial record supports his
statement—that he thoroughly cross-examined Harris about the fact that although
she was unable to identify Jenkins before
trial she was able to identify him at trial.
‘‘[T]he failure to interview or take the
depositions of the State’s witnesses for
impeachment purposes is not prejudicial
per se. See McCleskey v. Kemp, 753
F.2d 877, 900 (11th Cir.1985) (en banc )
(holding no prejudice shown where at-

468a
Ala.

JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

torney failed to interview two of State’s
witnesses and potential defense witnesses); Boykins v. Wainwright, 737
F.2d 1539, 1543 (11th Cir.1984) (holding
no prejudice shown where attorney
failed to interview prosecution’s expert
witnesses), cert. denied, [470] U.S.
[1059], 105 S.Ct. 1775, 84 L.Ed.2d 834
(1985); Solomon v. Kemp, 735 F.2d 395,
402 (11th Cir.1984) (holding no prejudice
shown where attorney failed to talk to
all of the State’s witnesses and did not
seek funds for an investigator), cert. denied, [469] U.S. [1181], 105 S.Ct. 940, 83
L.Ed.2d 952 (1985).’’
Aldrich v. Wainwright, 777 F.2d 630, 636–
37 (11th Cir.1985). Jenkins has failed to
show that his counsel’s performance was
deficient or that he was prejudiced by
Scofield’s failure to interview Sara Harris.
Jenkins has failed to satisfy the Strickland
test.
2.
[29] Jenkins argues that counsel was
ineffective in failing to interview Doug
Thrash—the manager of the Riverchase
Omelet Shoppe where the victim worked.
Thrash testified that he sent the victim to
the Tenth Avenue Omelet Shoppe on the
evening of April 18, 1989, because the
Tenth Avenue location was short of personnel. The record shows that Thrash
made a pretrial statement to police in
which he said that he overheard Jenkins
and another employee talking at the Riverchase Omelet Shoppe and that he did not
hear any mention of the fact that the
victim had been sent to work at another
location that evening. At trial, Thrash
testified that he overheard someone mention the Tenth Avenue Omelet Shoppe
10. Jenkins also argues that the State violated
Brady v. Maryland, 373 U.S. 83, 83 S.Ct.
1194, 10 L.Ed.2d 215 (1963), by failing to

129

when Jenkins was in the Riverchase Omelet Shoppe.
The record shows that counsel did impeach Thrash with this information.
Counsel questioned him as to why he did
not tell police that the Tenth Avenue location was mentioned when Jenkins was at
the Riverchase Omelet Shoppe. The record does not support Jenkins’s contention.
3.
[30] Jenkins next argues that Scofield
failed to interview Frieda Vines, an employee of the Riverchase Omelet Shoppe,
who, he alleges, could have testified that
when Jenkins was in that store no one
mentioned the Tenth Avenue Omelet
Shoppe.
Vines was called to testify at the Rule 32
hearing. She testified that she could not
remember whether any conversation took
place about the Tenth Avenue Omelet
Shoppe. (R. 298–99.) Jenkins failed to
present evidence to support this contention.
4.
[31] Jenkins argues that Scofield failed
to review the prosecution’s files. Specifically, he argues that Scofield should have
discovered that another suspect had been
arrested in connection with Hogeland’s
murder.10
Scofield testified at the evidentiary hearing that the State had an open-file discovery policy, that he reviewed the State’s
files, that he had conversations with the
district attorney about the State’s evidence, and that he had been mailed reports from the National Crime Information Center (‘‘NCIC’’) regarding several of
the State’s witnesses. The following occurred at the evidentiary hearing:
disclose this information to the defense. We
note that Jenkins’s arguments on this issue
appear to be inconsistent.

469a
130

Ala.

972 SOUTHERN REPORTER, 2d SERIES

‘‘Q [Defense attorney]: Did you review
the entire District Attorney file in this
case?
‘‘A [Scofield]: Yes, I did.
‘‘Q: During the review of that evidence,
was there any time at which you saw the
State had any information regarding
other suspects for this crime?
‘‘A: No, I don’t remember seeing anything in the file about other suspects.
‘‘Q: Had there been information in the
files, do you think you would have recalled that?
‘‘A: That is definitely one of the things
I would have been looking for.
‘‘Q: Why is that?
‘‘A: In an identification case like this,
that is generally one of the things that is
helpful. You are always looking for ‘Is
this guy the only person they have ever
focused on?’ Or ‘Are there other people
that match the description?’ You are
always looking at ‘Do the descriptions
match? How accurate are the identifications? Misidentifications. Suspects.’
That is basic stuff you look for.
‘‘Q: You described this as an identification case. What do you mean by that?
‘‘A: The State’s case, at the time prior
to trial, they had no one who could
positively identify Mark Allen Jenkins as
the individual who left with Tammy
Hogeland the night of the murders.
They had one person who supposedly
was an eyewitness, who previously could
not pick Mark out of a photographic
lineup or a live lineup. I actually attended that live lineup. She couldn’t
pick Mark out of that lineup. I was told
she couldn’t pick him out of a photographic lineup. There was one other
witness whose identification was a little
bit questionable—the older couple.

There was some talk about maybe they
saw something on Crime–Stoppers.[11]
The question there was any subsequent
identifications—were they identifying
Mark as the person they saw on Crime–
Stoppers or were they identifying him
from the time. They had some real
questionable issues with regard to being
able to identify Mark as the individual
who was at the Omelet Shoppe that
night.

11. Crime–Stoppers’ was a television segment
that would be aired on the local newscast,

seeking information from viewers to help police solve a recent crime.

‘‘Q: Were there any special circumstances which would have given you a
heightened sensitivity to identification
issues or other suspect evidence in this
case?
‘‘A: You know, one case I previously
tried and had specific recollection, I had
gotten a conviction overturned on a Brady [v. Maryland, 373 U.S. 83 (1963) ],
issue in which the State failed to disclose
this type of evidence. In that particular
case, the police failed to disclose two—
‘‘[Assistant attorney general]: Your
Honor, this other case is irrelevant.
‘‘The Court: It really is. I understand you are showing he is aware of
an issue. Let’s move along.
‘‘Q: I show you what has been
marked—Your Honor, this is a document that has been turned over to me
by the State of Alabama during the discovery process. It was represented this
came out of the District Attorney’s file.
It was provided to me by opposing counsel. It has been in my custody and
possession since I have received it.
‘‘[Assistant attorney general]: We
have some objections to this document
being offered at this time.
‘‘The Court: We’ll see.

470a
Ala.

JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

‘‘Q: Will you take a look at what is
marked Petitioner’s No. 4. Have you
seen this before?
‘‘A:

6.

At my office Saturday morning.

‘‘Q: Prior to Saturday, January 18,
1997, had you seen this document before?
‘‘A:

trunk v. State, 630 So.2d 147, 149 (Ala.
Crim.App.1993), and Stewart v. State, 623
So.2d 413, 415 (Ala.Crim.App.1993).

Yes, I have.

‘‘Q: Where did you see it the first
time?
‘‘A:

131

I had not.

‘‘Q: What does that document appear
to be?
‘‘A: It appears to be a police report
from Jackson, Mississippi, in which an
individual by the name of Potagly or
something like that—Bragley or something—was arrested apparently in
connection with Tammy Hogeland’s
disappearance. It appears from this
document that the St. Clair County
Sheriff’s Office requested he be held
on a warrant and extradited back to
St. Clair County with regard to the
missing person—the Tammy Hogeland
case.’’
(R. 298–302.) The above testimony shows
that Jenkins has failed to satisfy the
Strickland test.
5.
[32] Jenkins argues that Scofield failed
to conduct an investigation so that he could
effectively challenge the systematic underrepresentation of blacks on both the grand
and the petit jury venires in St. Clair
County.
There was no evidence presented at the
Rule 32 hearing in support of this contention. Moreover, the State presented evidence that at the time of Jenkins’s trial St.
Clair County jurors were selected from a
random list of licensed drivers. This
method of jury selection has consistently
withstood constitutional attack. See Sis-

Jenkins argues that Scofield failed to
object to the fact that one of Jenkins’s
initial attorneys, Luther Gartrell, who
withdrew from the case, had an actual
conflict of interest because he represented
a material State witness.
[33] The circuit court stated the following about this issue:
‘‘The claim that trial counsel failed to
object to an actual conflict of interest in
cocounsel’s representation of a material
witness for the state.
‘‘This claim is set forth above precisely as it appears in Jenkins’s
amended petition for relief. This
claim is dismissed because it violates
the ‘clear and specific statement of the
grounds’ requirement of Rule 32.6(b)
of the Alabama Rules of Criminal Procedure.’’
(R. 322.)
[34] Moreover, the following occurred
at the evidentiary hearing:
‘‘Q: Did there come a time when Luther Gartrell move to withdraw from
this case?
‘‘A:

Yes.

‘‘Q: What were the circumstances under which he withdrew?
‘‘A: Sometime during the course of the
discussions that we were having with
Mark, Luther Gartrell realized that he
had represented an individual by the
name of George Jeffcoat. George Jeffcoat was going to be a state’s witness in
this particular case. At that particular
time, he said ‘Wait a minute. I think I
have a conflict.’ He handled that.
What he told Judge Holladay about that,

471a
132

Ala.

972 SOUTHERN REPORTER, 2d SERIES

I don’t know, but I know that was the
basis of him withdrawing.’’
(R. 284–85.) There is no more information
in the record on this issue. Clearly, Jenkins failed to meet his burden of proof on
this claim. See Rule 32.6, Ala.R.Crim.P.
7.
[35] Jenkins argues that Scofield failed
to inform the trial court that neither he
nor Downey had the five years of experience required by statute to represent a
capital defendant. See § 13A–5–54, Ala.
Code 1975.12

Mr. Stan Downey was appointed to represent Jenkins. Mr. Scofield testified at
the hearing that, by agreement, Mr.
Downey was primarily responsible for
the penalty phase of Jenkins’s trial.
Due to the fact that Mr. Downey did not
testify, the Court was neither privy to
his background and experience at the
time of Jenkins’s trial, nor to any actions
taken and decision made before, during,
and after the trial. However, the trial
transcript reflects that he was a local
attorney with more than five years experience in the practice of criminal law.’’

The circuit court stated the following in
its order on this issue:
‘‘Mr. Scofield graduated from Cumberland Law School in 1984, and was
admitted to the State Bar that same
year. Upon graduation, Mr. Scofield
went to work for the Birmingham law
firm of Redden, Mills and Clark. The
Court notes that this is an outstanding
criminal defense firm. Mr. Scofield described Mr. Redden and Mr. Clark as
top criminal defense attorneys whom he
had the privilege of working with for
almost five years. In addition to working with these more experienced attorneys, Mr. Scofield had, at the time of
Jenkins’s trial, acted as lead counsel in a
number of felony trials. The types of
cases in which Mr. Scofield assisted,
ranged from Medicaid fraud to capital
murder. At the time of Jenkins’s trial,
Mr. Scofield’s practice was 80 percent
criminal. Mr. Scofield additionally did a
substantial portion of the criminal appellate work for the firm. TTT
‘‘On September 14, 1989, the trial
court appointed Mr. Scofield to represent Jenkins. TTT On October 2, 1989,

(C.R. 293–94.) Jenkins’s argument regarding this issue is not supported by the
record. Moreover, even though Scofield
did have the required years of experience
when he was appointed, before his appointment he did bring to the trial court’s attention that at the point at which the trial
court was considering appointing him he
did not have five years’ experience. The
trial court did not appoint him until he had
the required years of experience. This
issue is without merit.

12. Section 13A–5–54, Ala.Code 1975, provides: ‘‘Each person indicted for an offense
punishable under the provisions of this article
who is not able to afford legal counsel must

be provided with court appointed counsel
having no less than five years’ prior experience in the active practice of criminal law.’’

8.
Jenkins argues that Scofield failed to
use funds that had been approved for a
forensic expert and an investigator and
that he failed to request funds for a mental-health expert.
Scofield filed three pretrial motions requesting funds and a mental evaluation of
Jenkins. He requested funds for a forensic expert because the State relied on
fiber-comparison evidence to connect Jenkins to the murder—that motion was approved. Scofield also filed a motion for
funds to hire an investigator—that motion was approved. Scofield also moved

472a
JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

that Jenkins be evaluated before trial by
the lunacy commission—that motion was
granted.
[36] During the evidentiary hearing
Scofield was questioned about his preparation for the State’s forensic’s fiber expert—Steve Drexler, trace-evidence examiner with the Alabama Department of
Forensic Sciences. The following occurred:
‘‘Q [Assistant attorney general]: How
did you prepare for the anticipated fiber
analysis testimony?
‘‘A [Scofield]: In talking to Mr. Drexler,
[the State’s forensics expert], I think it
was a telephone conversation I may
have had with him. I asked him whether or not there were any treatises that
might assist me in that preparation. He
told me there was a doctor in Auburn—
Dr. Hall or something like that—that
had written a book on fiber analysis. I
could probably get him. I contacted Dr.
Hall and got a copy of his book. I
bought a copy of his book on fiber analysis and identification.
‘‘Q: Did you use that book?
‘‘A: Yes, I did.
‘‘Q: How much time did you spend preparing through the use of the book and
talking to Mr. Drexler?
‘‘A: It is hard to ballpark. I spent
considerable time. I went through his
book. I tried to learn as much as I
could about fiber analysis. I did not
specifically discuss the facts or issues
with Dr. Hall. In other words, I didn’t
call him and say, ‘Could you tell me
about this?’ I pretty much said, ‘I understand you have a book. How much is
it? Could you mail it to me?’ He
mailed me a copy of the book. I spent a
lot of time on that. Drexler, I met with
him on one occasion. He corresponded
with me on another occasion when it
turned out there was some other evi-

Ala.

133

dence that he learned or some information he learned that he supplied to me.
I may have talked to him on the phone
one time. In terms of overall time, I
really don’t know. It was pretty considerable. I did a good bit of preparation
on the fiber analysis stuff.
‘‘Q: Were you surprised in any way by
the testimony he offered?
‘‘A: No. It was precisely what he said it
would be. He didn’t pull any punches.
‘‘Q: Did you come to a conclusion after
all your preparation that Drexler would
have testified to anything different?
‘‘A: I can’t say that. I came to the
conclusion that I was satisfied about
what Drexler would say. I also felt
pretty satisfied that Drexler was going
to confirm that fiber analysis was not an
exact science. You can’t really match
this fiber and say this fiber came from
here or here, like a fingerprint. I felt
like, given the state of testimony of what
Drexler was going to say, that would be
the best I could hope for. I did not go
get another expert to say or follow up on
whether Drexler did his comparisons
correctly. I was satisfied that Drexler—
his testimony was going to hurt but it
could be minimized by the mere nature
of fiber analysis.’’
(R. 375–77.)
When addressing this issue in its order
the circuit court stated:
‘‘[O]n cross-examination by the State,
Mr. Scofield testified concerning his
preparation for the forensic evidence
presented at trial by the State. The
Court finds that Mr. Scofield’s preparation was both extensive and significant.
Mr. Scofield stated that he was in no
way surprised by any of the forensic
evidence presented at trial. He effectively cross-examined all of the State’s
forensic experts, pointing out discrepan-

473a
134

Ala.

972 SOUTHERN REPORTER, 2d SERIES

cies and shortcomings which supported
the chosen theory of defense. Trial
counsel’s actions, in relation to this
claim, were not outside ‘the wide range
of reasonable professional assistance.’
Strickland, 466 U.S. at 689. In presenting no forensic expert testimony at the
Rule 32 hearing, Jenkins has shown no
reasonable probability that, had a particular forensic expert been retained by
the defense, the result of the trial would
have been different. Id. at 694.’’
(C.R. 302.) Clearly, Jenkins has failed to
satisfy the Strickland test.
[37] Moreover, Scofield specifically testified as to why he failed to use the allotted
funds to hire an investigator. During
cross-examination at the evidentiary hearing Scofield stated:
‘‘I originally requested funds because I
was contacted by a private investigator
who indicated to me that he might have
some contacts with the family and could
do some work for me with regard to
getting specific information. After I
talked to him, I filed my motion. After
the Judge granted the motion and gave
me funds, the Judge basically said, ‘You
can use anybody you want to. I don’t
believe this particular guy is a credible
investigator.’ He had testified maybe in
the Ricky Dale Adkins[13] case or something. Judge Holladay didn’t think he
was credible. One of the main reasons I
went to even request funds was because
I wanted to hire this guy. The Judge
did not know this was who I was considering. Once he made that representation, I thought, ‘Oh, well, there goes my
investigator. He was the one going to
help me. Judge was giving me money,
13. Ricky Dale Adkins was convicted in St.
Clair County of capital murder for the death
of a female real-estate agent. His trial was
conducted in October 1988. Tammy Hogeland was murdered in April 1989. See Ad-

and now he is saying he is not going to
let him testify in this case.’ ’’
(R. 378–79.)
The circuit court stated the following in
its order:
‘‘Mr. Scofield then testified that he conducted his own investigation in preparation for the trial. He stated that, as a
result of his efforts, he came to believe
that the case lent itself to a ‘very
strong’ reasonable doubt defense.
Among other theories, he related the
reasonable doubt defense to the issues
of identify, insufficient time to commit
the charged offense in the manner alleged by the State, and insufficiency of
the evidence as related to the kidnapping and robbery charges. The Court
finds that the investigation conducted
by trial counsel was more than sufficient
considering the strategic choice to pursue a reasonable doubt theory of defense. The action or, under this claim
inaction, of trial counsel was not outside
‘the wide range of reasonable professional assistance.’ Strickland, 466 U.S.
at 689. In addition, Jenkins has not
shown a reasonable probability that, but
for trial counsel’s failure to hire an investigator, the result of the proceeding
would have been different. Id. at 694.’’
(R. 300–01.) We agree with the circuit
court’s findings.
[38] Last, Jenkins argues that Scofield
failed to request funds for a mental-health
expert. The record shows that Scofield
filed a pretrial motion requesting that a
mental evaluation of Jenkins be performed
before trial. The report from the lunacy
commission found that Jenkins was competent to stand trial. Based on this finding,
kins v. State, 600 So.2d 1054 (Ala.Crim.App.
1990), remanded, 600 So.2d 1067 (Ala.1992),
opinion on return to remand, 639 So.2d 515
(Ala.Crim.App.1993), aff’d, 639 So.2d 522
(Ala.1994).

474a
Ala.

JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

Scofield had no reason to question Jenkins’s mental health or to proceed further
with a mental-health defense. Jenkins has
failed to show how Scofield’s performance
was outside the wide range of reasonable
professional assistance. Jenkins has failed
to satisfy the Strickland test.
9.
[39] Jenkins argues that his attorneys
failed to conduct an adequate voir dire
examination that he says would have disclosed biases of certain prospective jurors.
Specifically, Jenkins argues that the examination failed to disclose those jurors who
favored capital punishment, failed to disclose jurors who were biased against individuals who consumed alcohol, failed to
disclose jurors who believed that a defendant, if innocent, should testify, and failed
to disclose those jurors who were opposed
to capital punishment.
The circuit court stated the following
concerning this general claim:
‘‘In setting forth this claim in his petition, Jenkins failed to include a ‘full
disclosure of the factual basis’ of the
grounds upon which he contends he is
entitled to relief.
Rule 32.6(b),
A.R.Crim.P. Likewise, other than general questions of trial counsel about the
jury selection, Jenkins presented no evidence relevant to this claim at the evidentiary hearing. In fact, it was established at the hearing that Stan Downey
was primarily responsible for the selection of the jury due to his status as a
‘local’ attorney.
However, Jenkins
failed to call Mr. Downey as a witness.
There was no indication that Mr. Downey was unavailable to testify.
‘‘Jenkins has offered nothing concerning how the voir dire of the jury panel
should have been conducted. He has
not shown that the voir dire, as handled
by trial counsel, fell outside ‘the wide

135

range of reasonable professional assistance.’ Strickland v. Washington, 466
U.S. at 668. Furthermore, Jenkins has
not shown a reasonable probability that,
had a different method of voir dire been
employed, the result of the trial would
have been different. Id. at 694–95.
Jenkins has the burden to prove by a
preponderance of the evidence the facts
necessary to show that he was entitled
to relief. Rule 32.3, A.R.Crim.P. He has
failed to meet his burden.’’
(C.R. 306–07.)
As to the specific claims Jenkins raises
in his brief to this Court, there was no
evidence presented to support any of the
grounds raised in the petition. Jenkins
failed to present any evidence to support
this claim; therefore, he failed to meet his
burden of proof. See Rule 32.3, Ala.
R.Crim.P.
10.
Jenkins argues that Scofield failed to
make numerous objections at the guilt
phase and failed to effectively cross-examine many witness for the State.
[40] Jenkins first argues that Scofield
failed to adequately cross-examine 29
State witnesses. However, in his brief in
support of this argument he merely provides a laundry list of 29 names; he presents no facts or argument in support of
this claim. Nor did Jenkins present any
facts or argument in support of this claim
at the evidentiary hearing. Jenkins failed
to satisfy his burden. See Rule 32.6, Ala.
R.Crim.P.
[41] Jenkins also argues that Scofield
failed to object to the repeated misconduct
on the part of the prosecutor, failed to
object to instances where the trial court
misstated the law, failed to object and to
ensure that a complete record was transcribed for appellate review, failed to object to allegedly improper venue, and

475a
136

Ala.

972 SOUTHERN REPORTER, 2d SERIES

failed to make a laundry list on appeal of
other objections that should have been
made at trial. Again, Jenkins merely includes a laundry list of where he thinks
objections could have been made and failed
to offer any evidence to support each specific instance he alleges Scofield failed to
make an objection. When addressing this
issue, the circuit court stated:
‘‘Trial counsel testified that during the
course of the trial, he objected to matters he felt were improper. He additionally testified concerning his extensive appellate experience and stated that
he knew the importance of preserving
and protecting a record. Trial counsel’s
performance cannot be said to have been
‘outside the wide range of professionally
competent assistance’ simply because he
failed to raise every available objection
to argument. The Constitution does not
guarantee a perfect trial but rather a
‘fair and a competent attorney.’ Engle
v. Isaac, 456 U.S. at 134; Stanley v.
Zant, 697 F.2d 955, 964 n. 7 (11th Cir.
1983), cert. denied, 467 U.S. 1219 (1984)
(‘[A] defendant is not entitled to perfection but to basic fairness.’). A lawyer’s
‘heat-of-trial decision,’ concerning when
to object, should not be second-guessed
by those having the benefit of hindsight.
Fleming v. Kemp, 748 F.2d 1435, 1450
(11th Cir.1984), cert. denied, 475 U.S.
1058 (1986). Finally, Jenkins has failed
to show that a different outcome of the
trial probably would have resulted but
for counsel’s allegedly ineffective performance. He has failed to meet the
required showing of both deficient performance and prejudice pursuant to
Strickland.’’
(C.R. 313.)
[42, 43] As we stated in Daniels v.
State, 650 So.2d 544, 555 (Ala.Crim.App.
1994):

‘‘ ‘ ‘‘[E]ffectiveness of counsel does not
lend itself to measurement by picking
through the transcript and counting the
places where objections might be
made.’’ ’ Stringfellow v. State, 485 So.2d
1238, 1243 (Ala.Cr.App.1986). ‘Even
though there were several instances
where counsel could have objected, ‘‘that
does not automatically mean that the
[appellant] did not receive an adequate
defense in the context of the constitutional right to counsel.’’ Ex parte Lawley, 512 So.2d 1370, 1373 (Ala.1987).’
O’Neil v. State, 605 So.2d 1247, 1250
(Ala.Cr.App.1992). As this Court observed in Graham v. State, 593 So.2d
162, 166 (Ala.Cr.App.1991):
‘‘ ‘The lawyer whose performance the
appellant now attacks zealously and
vigorously defended the appellant.
No particular decision to object or not
object, even if it is a bad decision, is in
itself proof that counsel’s performance
fell below acceptable professional
standards.’ ’’
As the United States Court of Appeals
for the Eleventh Circuit stated in Marek v.
Singletary, 62 F.3d 1295 (11th Cir.1995):
‘‘We begin any ineffective assistance inquiry with ‘a strong presumption that
counsel’s conduct falls within the wide
range of reasonable professional assistance.’ [Strickland v. Washington, 466
U.S. 668,] at 689, 104 S.Ct. [2052] at
2065 [ (1984) ]; accord, e.g., Atkins v.
Singletary, 965 F.2d 952, 958 (11th Cir.
1992) (‘We also should always presume
strongly that counsel’s performance was
reasonable and adequate TTTT’), cert. denied, [515] U.S. [1165], 115 S.Ct. 2624,
132 L.Ed.2d 865 (1995). ‘[A] petitioner
seeking to rebut the strong presumption
of effectiveness bears a difficult burden.’
Waters v. Thomas, 46 F.3d 1506, 1512
(11th Cir.1995) (en banc).’’

476a
JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

62 F.3d at 1299. Jenkins has failed to
satisfy the Strickland test.
D.
[44] Jenkins argues that his attorney
was deficient at the penalty phase of his
capital trial for failing to investigate, to
obtain records, to interview Jenkins’s family members, and to seek expert assistance.
‘‘ ‘In a challenge to the imposition of a
death sentence, the prejudice prong of
the Strickland inquiry focuses on whether ‘‘the sentencer TTT would have concluded that the balance of aggravating
and mitigating circumstances did not
warrant death. Stevens v. Zant, 968
F.2d 1076, 1081 (11th Cir.1992), cert.
denied, 507 U.S. 929, 113 S.Ct. 1306, 122
L.Ed.2d 695 (1993).’’
Jones v. State, 753 So.2d 1174, 1197 (Ala.
Crim.App.1999).
‘‘When the ineffective assistance claim
relates to the sentencing phase of the
trial, the standard is whether there is ‘a
reasonable probability that, absent the
errors, the sentencer—including an appellate court, to the extent it independently reweighs the evidence—would
have concluded that the balance of aggravating and mitigating circumstances
did not warrant death.’ Strickland [v.
Washington ], 466 U.S. [668,] at 695, 104
S.Ct. [2052,] at 2069 [(1984)].’’

Ala.

137

The record of the direct appeal also reflects that on October 1, 1989, Downey
filed a motion for a continuance. In that
motion he argued, ‘‘Further discovery and
investigation (including a possible trip to
California) [are] needed for proper preparation of the case, requiring more time
than is available between this present day
and the trial date now set on October 30,
1989.’’ (Trial record, p. 68.) That motion
was granted. The fee declaration Downey
filed in circuit court for payment for his
services is contained in the record. It
reflects that Downey spent 171 hours on
the case and that he spent over 25 hours
talking with Jenkins in more than 10 visits
to the jail where Jenkins was housed
awaiting trial. It also shows that Downey
spoke with Jenkins’s grandmother. There
was absolutely no testimony as to any
conversations Downey had with Jenkins,
although it is clear from Downey’s itemization of hours in his attorney fee declaration that those conversations were extensive.

Jenkins first argues that his attorneys
never contacted any of his family members
and that they failed to present mitigating
evidence of his life and background.

[45] Scofield did testify at the Rule 32
hearing that Jenkins told him about his
abusive childhood, his abusive relationship
with his stepfather, the trouble he was in
when he was a juvenile, and the fact that
he ran away from home as a child. Scofield testified that he could not recall
whether Jenkins told him that he was
beaten on a daily basis but that he thought
that he would have remembered that information. (R. 394.) Last, Scofield testified
that he did not know what preparations
Downey had made for the penalty phase.
(R. 406.)

Scofield testified at the Rule 32 hearing
that he was in charge of the guilt phase
and that Downey was in charge of the
penalty phase. Downey did not testify nor
did he execute an affidavit to explain his
strategy and any preparation and investigation he conducted for the penalty phase.

‘‘The reasonableness of counsel’s investigation and preparation for the penalty phase, of course, often depends critically upon the information supplied by
the defendant. E.g. Commonwealth v.
Uderra, 550 Pa. 389, 706 A.2d 334, 340–
41 (1998) (collecting cases). Counsel

Stafford v. Saffle, 34 F.3d 1557, 1564 (10th
Cir.1994).

477a
138

Ala.

972 SOUTHERN REPORTER, 2d SERIES

cannot be found ineffective for failing to
introduce information uniquely within
the knowledge of the defendant and his
family which is not provided to counsel.’’
Commonwealth v. Bond, 572 Pa. 588, 609–
10, 819 A.2d 33, 45–46 (2002).
[46] At the evidentiary hearing Jenkins presented the testimony of his half
brother, Michael Jenkins; two cousins,
Tammy Pitts and Betty DeLavega; his
grandmother, Doris Wagoner; and a
friend, Sherry Seal. When addressing this
issue the circuit court made very detailed
findings of fact that related to the witnesses Jenkins called to testify at the evidentiary hearing. We quote extensively
from those very thorough findings:
‘‘The Court initially finds that because
Jenkins did not present any testimony
from Stan Downey at the evidentiary
hearing, he has not met his burden of
proof under Rule 32.3. The record
shows that Mr. Downey was responsible
for the penalty phase of the trial. Yet,
Mr. Downey, who was not shown to be
unavailable to testify, was not called by
Jenkins as a witness to support his claim
of ineffectiveness at the penalty phase.
Instead, Jenkins attempted to elicit testimony from Mr. Scofield concerning
Mr. Downey’s actions. The Court is
puzzled as to why Jenkins did not call
the one lawyer asserted to be responsible for that portion of the trial against
which most of his criticism is levied.
While this was Jenkins’s choice, the
Court finds that this choice resulted in
Jenkins’s failure to meet his burden of
proof. The record is virtually silent as
to what actions were or were not taken
or what was or was not done by Mr.
Downey at trial and why. It is possible
that his actions could have been reasonable and strategic under the circumstances and, in large part, undertaken
based upon what Jenkins told him. The

Court, therefore, finds that Jenkins did
not prove that Mr. Downey’s representation was deficient or that he was prejudiced as a result of that representation.
‘‘The Court will, however, based upon
the evidence presented at the hearing,
attempt to address Jenkins’s claim of
ineffectiveness of counsel at the penalty
phase. As previously stated in this order, Jenkins must show that counsel’s
representation was both deficient and
that the deficient performance prejudiced the defense. The Court finds that
Jenkins has not proven that, assuming
counsel’s deficiency, there was a reasonable probability that the sentencer, including the appellate court, to the extent
it reweighs the evidence, would have
concluded that a weighing of the aggravating and mitigating circumstances did
not warrant death.
‘‘The Court notes that for the reasons
that will follow, the evidence presented
at the hearing would not have affected
the sentence this Court would have imposed on Jenkins. The aggravating circumstances clearly outweighed any mitigation caused by Jenkins’s ‘abusive
childhood’, below average intelligence,
lack of a criminal history, and his age.
Jenkins kidnapped, robbed, and brutally
murdered Tammy Hogeland. He then
disposed of her nude body on the side of
the interstate, leaving her to decompose
beyond recognition. Death was the appropriate punishment in this case.
‘‘After listening to the evidence presented at the hearing and observing the
demeanor of the witnesses, the Court
finds that the witnesses were biased,
that they grossly exaggerated their testimony, and that they were not credible
for the following reasons:
‘‘The record reflects that, at the time
of the trial, friends and family of Jenkins
were contacted by a probation officer

478a
JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

regarding the preparation of a pre-sentence report. Nothing in the report indicated that Jenkins was abused to the
extent alleged at the evidentiary hearing. Additionally, although numerous
records were introduced at the hearing,
there were no medical records which
would corroborate the level of abuse alleged by several of Jenkins’s witnesses.
‘‘Jenkins’s cousin, Tammy Lynn Pitts,
was not a credible witness. Ms. Pitts
testified that she lived with Jenkins and
his family on a daily basis for the majority of her early life. She claimed that
Jenkins was beaten ‘daily’ from the time
he was an infant, to the time he left
home around the age of thirteen. Ms.
Pitts stated that Jenkins was ‘pounded
on’ and that his stepfather would take
whatever was in his hand, put all of his
weight behind it, and hit Jenkins with
‘full force.’ She related one alleged incident where Jenkins’s stepfather, a man
over six feet tall, hit Jenkins more than
once with a full size shovel on the back.
Ms. Pitts described the incident as ‘normal.’ According to the witness, Jenkins
would be laid up in bed for weeks at a
time due to the severity of the beatings.
Ms. Pitts even testified that Jenkins
would receive additional beatings during
the time he was laid up recovering from
previous abuse. However, Jenkins was
apparently never taken to the hospital
and there were no medical records reflecting injuries consistent with the alleged severity of the abuse alleged by
Ms. Pitts.
‘‘The Court also finds significant
school records which noted that Jenkins
suffered from a rash and gingivitis, but
contained absolutely no indication that
he was beaten on a regular basis. Ms.
Pitts additionally testified concerning
Jenkins’s difficulty in controlling his
bowels. She stated that, as a result of
this problem, Jenkins would be forced

Ala.

139

by his parents to wear ‘soiled’ clothing
to school ‘all the time.’ Again, the Court
finds it difficult to believe that school
records would reflect the notice of a
rash, but would be completely devoid of
any indication that a child was regularly
attending school in clothes soiled with
feces. Ms. Pitts also testified that Jenkins was locked in his room 24 hours a
day 7 days a week. According to her,
he was not even allowed to come out to
eat dinner with the rest of the family.
This contradicted the testimony of Jenkins’s brother who stated that Jenkins
was sent to bed without dinner, ‘on occasions,’ because he was bad. If Ms. Pitts
is to be believed, Jenkins eked a meager
existence of scraps thrown to him after
dinner by other members of the family.
‘‘Ms. Pitts testified that she called
Child Protection Services [ (CPS)] on
two occasions during her twenty plus
years in the Jenkins household. She
stated that the first time, CPS responded to the home but took no action. The
second time, there was no response of
any kind. The Court finds it to be
unbelievable that Ms. Pitts would feel it
necessary to call CPS on only two occasions when she claimed the abuse and
maltreatment was a ‘daily’ occurrence.
It is also unbelievable that child protective services would take no action.
‘‘Finally, Ms. Pitts testified that she
loved her cousin and felt it would be a
tragedy if he were executed. She stated that she felt guilty about Jenkins’s
childhood and that she believed she was
helping him by testifying at the hearing.
Ms. Pitts displayed a strong bias in favor of Jenkins. During direct examination, Ms. Pitts appeared to be very
emotional, often crying during her testimony. However, on cross-examination
by the State, her demeanor changed
dramatically. She became guarded and

479a
140

Ala.

972 SOUTHERN REPORTER, 2d SERIES

far less emotional. After hearing the
testimony of Ms. Pitts, weighing the interests of the witness and observing the
witnesses’ demeanor, the Court finds
the testimony to be incredible.
‘‘Not unlike the testimony of Tammy
Lynn Pitts, the Court finds the testimony of Jenkins’s half brother, Michael,
biased and not credible. Not only did
his testimony conflict with that of other
witnesses, it was also self-contradictory.
The Court will not discuss the testimony
in its entirety, however, a few examples
will make this point.
‘‘Michael Jenkins testified that the
family moved ten or fifteen times during
his youth because his father did not
work very much. This conflicted with
Ms. Pitt’s claim that the family moved
maybe four times and that the stepfather was gainfully employed. Michael
Jenkins stated that Jenkins would occasionally miss meals because he was sent
to his room for ‘being bad.’ Ms. Pitts
stated that Jenkins was not allowed to
eat with the family and would leap up at
the food thrown at him after dinner
while locked in his room. Additionally,
contrary to Ms. Pitts testimony that
Jenkins was locked in his room ‘twentyfour hours a day seven days a week,’
Michael stated that Jenkins was locked
in his room for ‘a couple of hours or so
TTT every time he done something.’’
‘‘As noted above, the testimony of Michael Jenkins was also self-contradictory. Describing the frequency of the alleged beatings, Michael initially stated
‘if it wasn’t once a day, it would be every
other day or every three days.’ He then
stated that Jenkins would get a whipping whenever he had a bowel movement in his pants and that his occurred
‘once a day.’ Subsequent to that, Michael described the discipline imposed
stating that Jenkins ‘would be sent to
his room and a number of things hap-

pened,’ including an occasional beating.
The witnesses’ testimony was in fact,
filled with apparent confusion and contradictions. He originally testified that
Jenkins was three or four years old at
the time his stepfather went to prison
for robbery. However, he subsequently
testified that Jenkins was conceived
while his stepfather was in prison. He
also contradicted himself a number of
times concerning whether Jenkins ever
wrote to him requesting him to come to
Alabama and testify during his capital
murder trial. He finally stated conclusively that he received a letter mentioning that Jenkins might need him to testify at the trial. Michael stated that he
had no ‘curiosity or concern about what
was going on.’
‘‘Finally, Michael testified that he believed that Jenkins was innocent and
that he could not have committed the
crime. Michael himself had never committed an act of violence despite the fact
that he was raised in an environment
similar to that of Jenkins. He also testified concerning the problems his other
two siblings were experiencing in their
adult lives. The Court notes that all of
the testimony indicated that these two
individuals were never abused as children and were, in fact, babied and
spoiled. They received this treatment
despite the fact that Stephen Jenkins
was not the biological father of either
one of them. Any contention that a
causal connection exists between the
abuse allegedly suffered by Jenkins and
the murder of Tammy Hogeland, is undercut by evidence within Jenkins’s own
family. After hearing the testimony of
Michael Jenkins, weighing the interests
of the witness and observing the witnesses demeanor, the court finds the
testimony incredible and assigns it little
weight.

480a
JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

‘‘Jenkins also presented the testimony
of a friend, Sharon Seal. Mrs. Seal stated that she came to know Jenkins
through her husband, Lonnie Seal. The
trial record reveals that Lonnie Seal testified at the penalty phase of his trial as
a character witness. After reviewing
the testimony of Mrs. Seal, the Court
finds that her testimony would have
been cumulative to that of her husband.
Furthermore, Mrs. Seal testified at the
evidentiary hearing that her husband
knew Jenkins better than she did.
‘‘The Court also noted contradictions
in Mrs. Seal’s testimony. For example,
she testified that Jenkins’s trial lawyers
never talked to her or contacted her
about being a witness at the trial. However, on cross-examination, Mrs. Seal
stated that she did not attend the trial
because ‘I was told by Mark’s lawyers
that we were not allowed in the courthouse because we might be potential
witnesses.’ She specifically stated that
she was told this by Mr. Downey. Because Mr. Downey did not testify at the
hearing, the Court can only speculate as
to why Mrs. Seal was not called to testify.
‘‘The witness in question also displayed a strong bias in favor of Jenkins.
She stated that she believed that he was
innocent, that he did not get a fair trial,
and that it would be a tragedy if he were
executed. The Court would also point
out that Mrs. Seal’s testimony directly
contradicted other theories of mitigation
presented by counsel for Jenkins at the
hearing. Her testimony related to the
good character of Jenkins, his non-violent nature, his generous and caring attitude, his love for her children, and other
qualities of a similar nature. Other evidence presented at the hearing, instead,
dealt with Jenkins’s abusive childhood,
and culminated in Dr. David Lisak’s testimony that abused children are at risk

Ala.

141

to commit violence. The evidence suggested on one hand that Jenkins was a
wonderful person who would never hurt
anyone. However, on the other hand,
evidence was presented to support a
theory that Jenkins’s violent and chaotic
background led him to murder Tammy
Hogeland. Regarding the later theory,
the Court finds it significant that the
only documented act of violence committed by Jenkins was the murder of Tammy Hogeland. Based on all of the foregoing, the Court finds that Jenkins has
proven neither deficient performance
nor prejudice related to the failure to
call Sharon Seal as a witness.
‘‘TTTT
‘‘The Court also finds that Betty DeLavega, Jenkins’s second cousin, was
not a credible witness and was biased.
Ms. DeLavega had only seen Jenkins on
two occasions in her life. Once when
Jenkins and his family visited her in
Indiana and once when she went to California to visit. Jenkins was very young
when he came to Ms. DeLavega’s home,
and he was 11 or 12 when she visited in
California. Ms. DeLavega testified that
she stayed in the Jenkins home for five
months with her husband and her four
children.
‘‘Ms. DeLavega informed the Court
that when Jenkins and his family visited
her in Indiana, Jenkins was not beaten
by his stepfather because she ‘wouldn’t
have stood for that.’ However, Ms. DeLavega testified that Jenkins’s stepfather was cruel to both Jenkins and his
brother Michael, and specifically recounted an incident where she claimed
that Jenkins’s stepfather forced Jenkins
to eat his own feces, in front of her and
her family, out of his underwear with a
spoon. Although claiming to be horrified at seeing this, Ms. DeLavega did
nothing. She did not call the authorities

481a
142

Ala.

972 SOUTHERN REPORTER, 2d SERIES

and she and her four children continued
to live in the Jenkins’s home. Ms. DeLavega and Jenkins’s brother, Michael,
were the only two persons to recount
that Jenkins was forced to eat his own
feces with a spoon.
‘‘Ms. DeLavega also testified, demonstrating her bias, that she did not believe that Jenkins could hurt anybody
and that he was innocent of the crime
for which he was convicted. Ms. DeLavega testified that it would be a terrible thing for Jenkins to be executed.
She also stated that she was asked to
come and testify at the evidentiary hearing by Jenkins’s grandmother, Doris
Wagoner, ‘to get him off death row.’
‘‘The Court finds that Ms. DeLavega
basically had no knowledge of any longterm abuse Jenkins suffered because
she had only seen Jenkins on two very
brief occasions in her life. At the time
of her testimony, she had not seen Jenkins since he was 11 or 12 years old.
The Court finds it to be beyond belief
that Ms. DeLavega could witness Jenkins being forced to eat his own feces
with a spoon and do nothing. It is also
beyond belief that she would remain in
the home with her four children after
witnessing such a horrifying event. After
observing Ms. DeLavega and listening
to her testimony, the Court finds her to
be a biased and incredible witness, giving her testimony no weight.
‘‘The petitioner’s grandmother, Doris
Wagoner, was also biased and incredible
witness. She testified that Jenkins was
‘slow’ as an infant and could not sit up at
the age of four months. Mrs. Wagoner
was not offered as an expert in early
childhood development and this Court
does not accept her as such. She testified that she never witnessed any physical abuse and offered nothing which
would establish ‘that the balance of aggravating and mitigating circumstances

did not warrant death.’ Strickland, 466
U.S. at 695.
‘‘Most importantly, Mrs. Wagoner testified that she was not available to testify at the penalty phase of Jenkins’s trial.
TTT Trial counsel can not be labeled
ineffective for failure to present the testimony of a witness who, by her own
admission, was unavailable and uninterested. Nothing in the testimony of Doris Wagoner mitigated Jenkins’s crime.’’
(C.R. 325–35.)
[47, 48] Initially, Jenkins takes issue
with the credibility choices that the circuit
court made based on the witnesses’ testimony at the Rule 32 hearing.
‘‘The resolution of TTT factual issue[s]
required the trial judge to weigh the
credibility of the witnesses. His determination is entitled to great weight on
appealTTTT ‘When there is conflicting
testimony as to a factual matter TTT, the
question of the credibility of the witnesses is within the sound discretion of
the trier of fact. His factual determinations are entitled to great weight and
will not be disturbed unless clearly contrary to the evidence.’ ’’
Calhoun v. State, 460 So.2d 268, 269–70
(Ala.Crim.App.1984) (quoting State v.
Klar, 400 So.2d 610, 613 (La.1981)).
Jenkins’s grandmother, Doris Wagoner,
testified that she did talk to Scofield about
representing her grandson and to several
other people, whom she could not identify,
and that she was in constant communication with Jenkins before his trial. She
also testified: ‘‘Mark never had a chance.
He didn’t have a home life. He was badly
mistreated and then he left. I was told by
others—this is hearsay. I didn’t see it.’’
(R. 254.) Wagoner testified that she didn’t
come to his trial because, ‘‘I don’t know
why. I’m a very busy person—and still
today even at my age. I don’t know why.

482a
JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

When the attorney started asking me for
money, I didn’t feel I could come down
here and hire attorneys and this sort of
thing.’’ (R. 259.) Last, on cross-examination, Wagoner testified that Jenkins’s
mother did not ‘‘want anything to do with
Mark.’’ (R. 261.) Her testimony shows
that she did not witness any abuse. Wagoner also testified that she was not available to testify at Jenkins’s trial.
Michael Jenkins, Jenkins’s stepbrother,
testified that Jenkins was frequently beaten by his stepfather. When questioned on
cross-examination as to whether Jenkins
had communicated with him about possibly
testifying at his trial, the following occurred:
‘‘Q [Assistant attorney general]: In your
earlier testimony—I’m just trying to
clarify some things. You seemed to indicate in a response to [Jenkins’s attorney’s] question that you thought Mark
wrote you about testifying at his trial.
Is that correct or are you not sure?
‘‘A [Michael Jenkins]: Before we go any
further, I would like to clarify for the
record, if I can. I had a severe accident
in 1983 and I have a problem thinking.
That is why I can’t remember. I had a
cracked skull in three places. I think he
did, yes.
‘‘Q: And specifically one of his letters
mentioned that he might need you to
testify in his trial?
‘‘A: Yes.
‘‘Q: From that, would it appear you
were back in contact before he actually
went to trial?
‘‘A: You are confusing me.
‘‘Q: You do recall you got a letter from
him.
‘‘A: Yes.
‘‘Q: Were you still in California at the
time?
‘‘A: Yes.

Ala.

143

‘‘Q: You do recall there was some reference to you testifying at this trial?
‘‘A:

From Mark?

‘‘Q:

Yes.

‘‘A:

Yes.’’

(R. 161–62.) From the above-quoted portion of Michael Jenkins’s testimony it is
clear why the circuit court gave Michael
Jenkins’s testimony little weight.
Jenkins’s cousin, Tammy Pitts, testified
that Jenkins had been abused and neglected 24 hours a day, 7 days a week and that
out of the 20 years that she lived with
Jenkins she reported Jenkins’s situation to
Child Protective Services on two occasions.
Pitts stated that the first time they investigated and took no action and that the
second time they did not come to the
house.
Betty DeLavega, Jenkins’s cousin, testified; however, she stated that she had
been around Jenkins on only two occasions
and that she had not seen him since he
was 11 years old. The following occurred
on cross-examination:
‘‘Q [Assistant attorney general]: How
did you come to be here today? Were
you contacted by [Jenkins’s attorney]?
‘‘A: My aunt contacted me.
‘‘Q:

Which aunt?

‘‘A: Doris, his grandmother.
‘‘Q:

Doris Wagoner.

‘‘A:

Yes.

‘‘Q: What did she tell you?
‘‘A: She told me what had happened
and that Mark was on death row.
‘‘Q: So you didn’t even know he had
been convicted of anything?
‘‘A:

No.

‘‘Q: What did she say—‘He was on
death row and what’ ’’
‘‘A:

They was trying to get a hearing.

‘‘Q: For what reason?

483a
144
‘‘A:

Ala.

972 SOUTHERN REPORTER, 2d SERIES

To get him off death row.’’

(R. 241–42.) This witness had had very
limited contact with Jenkins and could not
testify about any extended and significant
abuse he might have suffered.
Sharon Seal,14 a friend of Jenkins’s, testified that Jenkins was very generous and
that he had helped her family move from
California to Alabama. Seal also testified
that Jenkins’s attorneys did not contact
her about her being a possible witness in
the case. However, on cross-examination
the following occurred:
‘‘Q [Assistant attorney general]: Did
you attend the trial of Mr. Jenkins?
‘‘A [Seal]: I was told by Mark’s lawyers
that we were not allowed in the courthouse because we might be potential
witnesses.
‘‘Q: So you were a potential witness?
‘‘A: He said we might be called on as
potential witnesses.
‘‘Q: So he did talk to you about being a
witness in this case?
‘‘A: To me directly, no.
‘‘Q: You knew there was a possibility
you might be called as a witness?
‘‘A: Correct.
‘‘Q: Who knew Mr. Jenkins better—
you or your husband?
‘‘A: My husband.
‘‘Q: And your husband testified at the
sentencing phase?
‘‘A: Yes.’’

kins’s witnesses that none of the witnesses
was credible and that they had exaggerated the level of abuse that Jenkins had been
exposed to when he was child. This was
based on contradictions in the witnesses’
own testimony and on the fact no medical
or school records memorialized such abuse.
The circuit court noted that the school
records were very detailed and even referenced that Jenkins had suffered from a
rash and gingivitis but the circuit court
found it hard to believe that the records
made no reference to any injuries that
Jenkins had sustained as a child. The
circuit court’s ruling is supported by the
testimony at the Rule 32 hearing and is
consistent with the findings made by the
probation officer in the presentence report.
The probation officer described the level of
abuse as ‘‘moderate.’’
‘‘ ‘A defense attorney is not required
to investigate all leads, however, and
‘‘there is no per se rule that evidence of
a criminal defendant’s trouble childhood
must always be presented as mitigating
evidence in the penalty phase of a capital case.’’ ’ Bolender [v. Singletary ], 16
F.3d [1547,] at 1557 [ (11th Cir.1994) ]
(footnote omitted)(quoting Devier v.
Zant, 3 F.3d 1445, 1453 (11th Cir.1993),
cert. denied, [513] U.S. [1161], 115 S.Ct.
1125, 130 L.Ed.2d 1087 (1995)). ‘Indeed,
‘‘[c]ounsel has no absolute duty to present mitigating character evidence at all,
and trial counsel’s failure to present mitigating evidence is not per se ineffective
assistance of counsel.’’ ’ Bolender, 16
F.3d at 1557 (citations omitted).’’

(R. 63–64.) Seal’s husband did testify at
the penalty phase of Jenkins’s trial. His
testimony was virtually identical to Sharon
Seal’s testimony at the Rule 32 hearing.15

Marek v. Singletary, 62 F.3d at 1300.

[49, 50] The trial court made a finding
after listening to and viewing all of Jen-

Also, many courts have observed that
evidence of child abuse can be a ‘‘double-

14. This individual’s name is spelled differently throughout the records and the briefs. We
have chosen the spelling used by the court
reporter in the certified record of the Rule 32
proceedings.

15. Sharon and Lonnie Seal are described in
the presentence report as ‘‘part time local
pastors for the United Methodist Church.’’

484a
JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

Ala.

145

edged sword’’ because it cuts both ways;
therefore, it may be a strategic choice not
to present this type of evidence. See
Kitchens v. Johnson, 190 F.3d 698, 705
(5th Cir.1999) (evidence of childhood abuse
and alcoholism may be more effective than
a plea for mercy, ‘‘[y]et, it is equally possible that such evidence would have only
served to inflame the jury’’); Stanley v.
Zant, 697 F.2d 955, 969 (11th Cir.1983)
(‘‘[M]itigation may be in the eye of the
beholder.’’); United States ex rel. Cloutier
v. Mote, (No. 00–C–5476, January 8, 2003)
(N.D.Ill.2003) (not published in F.Supp.2d)
(‘‘This court recognizes that some mitigation testimony contains material that a
jury may consider as aggravating instead
of mitigating.’’); Johnson v. Cockrell, 306
F.3d 249, 253 (5th Cir.2002) (evidence of
brain injury, abusive childhood, and drug
and alcohol abuse was ‘‘double edged’’ because it would support a finding of future
dangerousness). See also cases upholding
the failure to present evidence of child
abuse given the horrific facts surrounding
the murder. See Santellan v. Cockrell,
271 F.3d 190, 198 (5th Cir.2001)(‘‘Considering TTT history in light of the horrific
nature of this offense, a reasonable court
could conclude that there was no substantial likelihood that the outcome of the punishment phase would have been altered by
evidence that [the defendant] suffered organic brain damage.’’); Callins v. Collins,
998 F.2d 269, 279 (5th Cir.1993) (‘‘Some
evidence of [the defendant’s] good character already had been admitted through his
mother; the wantonness of the murder
and [the defendant’s] violent escapades after it, however, swamped this evidence,

and we believe it equally would have overwhelmed the minimal mitigating evidence
that [the defendant] now argues should
have been introduced at the capital sentencing phase.’’); People v. Rodriguez, 914
P.2d 230, 296 (Colo.1996) (‘‘Given the brutal circumstances surrounding the murder
of [the victim] and the overwhelming evidence of aggravation against [the defendant], we are not persuaded that trial
counsel’s failure to present the proposed
mitigating evidence of child abuse materially affected the imposition of [the defendant’s] death sentence.’’). See also Rompilla v. Horn, 355 F.3d 233 (3d Cir.2004);
Byram v. Ozmint, 339 F.3d 203 (4th Cir.
2003); Lovitt v. Warden, 266 Va. 216, 585
S.E.2d 801 (2003).

16. This Court may take judicial notice of our
previous records. See Ex parte Salter, 520
So.2d 213, 216 (Ala.Crim.App.1987).

witness nor the reason for this witness’s not
testifying is contained in the trial record.
Nor was Scofield questioned about this at the
Rule 32 hearing.

17. It appears from a review of the record
another witness, who is not identified,
also scheduled to testify; however, this
ness did not. Neither the identity of

that
was
witthis

[51] It is apparent from the record of
Jenkins’s trial that Scofield thoroughly
prepared for the guilt phase. However,
Downey was in charge of the penalty
phase. Because we do not have the benefit of Downey’s testimony as to what occurred and why, we are left with examining the record of Jenkins’s trial.16
The record shows that in his opening
statement in the penalty phase Downey
detailed all of the statutory mitigating circumstances and informed the jury that it
was not limited to considering the mitigating circumstances contained in the statute
but that it could consider any mitigating
evidence that had been presented. The
trial court also instructed the jury that any
evidence presented in the guilt phase could
be considered in mitigation. One witness
was called to testify in Jenkins’s behalf at
the penalty phase.17 Lonnie Seal testified

However, the record of the Rule 32 hearing
indicates that Jenkins had been talking with
his grandmother about testifying at his trial

485a
146

Ala.

972 SOUTHERN REPORTER, 2d SERIES

that he traveled from California to Alabama with Jenkins, that Jenkins was a
very giving and generous person, that Jenkins lived with his family when they arrived in Alabama, that Jenkins obtained
work before he did and that he would give
his entire paycheck to Seal’s family, and
that Jenkins was very helpful with Seal’s
children.18 In closing, Downey argued
that according to his interpretation of the
Bible the jury should be cautious when
sentencing Jenkins because his conviction
was based solely on circumstantial evidence. The record shows that counsel argued residual doubt and Jenkins’s good
character at the penalty phase.
As we noted above, great effort was
expended in preparing for the guilt phase.
‘‘A lawyer’s time and effort in preparing to defend his client in the guilt phase
of a capital case continues to count at
the sentencing phase. Creating lingering doubt has been recognized as an
effective strategy for avoiding the death
penalty. We have written about it. See,
e.g., Stewart v. Dugger, 877 F.2d 851,
855–56 (11th Cir.1989). In addition, a
comprehensive study on the opinions of
jurors in capital cases concluded:
‘‘ ‘Residual doubt’ over the defendant’s guilt is the most powerful ‘mitigating’ fact.—[The study] suggests
that the best thing a capital defendant
can do to improve his chances of receiving a life sentence has nothing to
do with mitigating evidence strictly
speaking. The best thing he can do,
all else being equal, is to raise doubt
about his guilt.
‘‘Stephen P. Garvey, Aggravation and
Mitigation in Capital Cases: What do
Jurors Think?, 98 Colum.L.Rev. 1538,
but Jenkins later told his attorneys that she
was not going to be able to attend the trial.
(R. 396.)

1563 (1998) (footnotes omitted); see William S. Geimer & Jonathan Amsterdam,
Why Jurors Vote Life or Death: Operative Factors in Ten Florida Death Penalty Cases, 15 Am.J.Crim.L. 1, 28 (1988)
(‘[t]he existence of some degree of doubt
about the guilt of the accused was the
most often recurring explanatory factor
in the life recommendation cases studied.’); see also Jennifer Treadway, Note,
‘Residual Doubt’ in Capital Sentencing:
No Doubt it is an Appropriate Mitigating Factor, 43 Case W. Res.L.Rev. 215
(1992). Furthermore, the American
Law Institute, in a proposed model penal code, similarly recognized the importance of residual doubt in sentencing by
including residual doubt as a mitigating
circumstance. So, the efforts of Tarver’s lawyer, during trial and sentencing, to create doubt about Tarver’s guilt
may not only have represented an adequate performance, but evidenced the
most effective performance in defense to
the death penalty.’’
Tarver v. Hopper, 169 F.3d 710, 715–16
(11th Cir.1999).
Evidence was presented at the guilt
phase that Jenkins had been drinking at
the time of the murders. (One witness
testified that she saw Jenkins drink three
beers and four quarts of wine on the night
Hogeland was murdered.) In closing argument in the guilt phase, Scofield vigorously argued that based on the amount of
alcohol that Jenkins had consumed before
the murder it was impossible for Jenkins
to have formed the intent to kill. He
argued that Jenkins left a friend’s house
between 1:30 a.m. and 2:00 a.m., that when
he left the house he fell down a flight of
18. This was evidence that humanized Jenkins—evidence that has been classified as mitigation.
See Emerson v. Gramley, 883
F.Supp. 225, 245 (N.D.Ill.1995).

486a
JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

stairs, got into an old car, and backed into
another car. He argued that Jenkins
would have had to go to the Rocky Ridge
Shell gasoline station, the location where
the red Mazda automobile that was linked
to Hogeland’s murder had been stolen, and
get to the Omelet Shoppe by 2:00 a.m.19
Also, there was evidence presented that
Jenkins was 21 years of age at the time of
the murder. (R. 1148.)
The trial court in its sentencing order
found that Jenkins had no significant history of prior criminal activity—he had two
misdemeanor convictions—that he was 21
at the time of the murder, and that he did
consume alcohol at the time of the murder
although he was not so impaired that he
could not appreciate the criminality of his
conduct.20 The trial court also considered
the mitigation evidence of Jenkins’s childhood contained in the presentence report
and the presentence memorandum that
was prepared by Scofield; however, it
gave this evidence little weight. The trial
court found that the aggravating circumstances—that the murder was committed
during the course of a robbery and a kidnapping—outweighed the mitigating circumstances and warranted a sentence of
death.
We believe that Downey’s decision to
concentrate on reasonable doubt and to
portray Jenkins as a good person was
reasonable under the circumstances.
19. Scofield testified that his approach to this
case was to create a reasonable doubt in the
minds of the jurors.
20. The trial court specifically stated the following regarding Jenkins’s alcohol consumption before the murder:
‘‘The Court does find that there was evidence that the defendant, at some time during the night of April 17 or morning of April
18 had consumed alcoholic beverage, but
the Court does not find that at the time of
the commission of the capital offense the
capacity of the defendant to appreciate the

Ala.

147

Moreover, the evidence that Jenkins submits should have been introduced—his
abusive childhood and the fact that that
abuse made him a violent adult—would
have been in direct conflict with the evidence presented. Every witness questioned about Jenkins’s demeanor at the
Rule 32 hearing stated that Jenkins was
meek and mild. We cannot say that counsel’s conduct fell outside the wide range of
professional conduct. See Strickland.
Last, Jenkins cannot show any prejudice. As the United States Supreme
Court recently stated in Wiggins v. Smith,
539 U.S. 510, 123 S.Ct. 2527, 156 L.Ed.2d
471 (2003), when reviewing a claim of ineffective assistance of counsel at the penalty
phase of a capital murder trial:
‘‘In Strickland [v. Washington, 466 U.S.
668 (1984)], we made clear that, to establish prejudice, a ‘defendant must
show that there is a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding
would have been different. A reasonable probability is a probability sufficient to undermine confidence in the outcome.’ Id., at 694, 104 S.Ct. 2052. In
assessing prejudice, we reweigh the evidence in aggravation against the totality
of available mitigating evidence.’’
539 U.S. at 534, 123 S.Ct. at 2542.
The circuit court stated the following in
its order denying relief:
criminality of his conduct or to conform his
conduct to the requirements of law was
substantially impaired. The defendant’s
conduct, at approximately 5:00 a.m. on
[April 18] at the service station, and his
conversation with the two TTT witnesses
and his later recollection of the events that
occurred surrounding the commission of
the offense, would indicate that the defendant’s capacity to appreciate the criminality
of his conduct or to conform his conduct to
the requirements of law was not substantially impaired to the extent as required in
this mitigating circumstance.’’

487a
148

Ala.

972 SOUTHERN REPORTER, 2d SERIES

‘‘The Court notes that for the reasons
that will follow, the evidence presented
at the hearing would not have affected
the sentence this Court would have imposed on Jenkins. The aggravating circumstances clearly outweighed any mitigation caused by Jenkins’s ‘abusive
childhood’, below average intelligence,
lack of criminal history, and his age.
Jenkins kidnapped, robbed, and brutally
murdered Tammy Hogeland. He then
disposed of her nude body on the side of
the interstate, leaving her to decompose
beyond recognition. Death was the appropriate punishment in this case.’’

jailers testified that Jenkins was an absolute model prisoner who was always
courteous and respectful. Again, the
Court finds this to be inconsistent with
the theory that the abuse Jenkins allegedly suffered as a child caused him to
commit violence as an adult. Additionally, the Court notes that the behavior
observed by the jailers occurred after
the crime. The observation also took
place during time when Jenkins was
confined alone to a prison cell, directly
across from the guard desk. The Court
finds nothing in the testimony of the
jailers which mitigates Jenkins’s crime.’’

(C.R. 326.) We, like the circuit court, have
independently reweighed the alleged mitigating evidence against the aggravating
circumstances that were proven by the
State. Given the aggravating circumstances that were proven by the State and
the facts surrounding Hogeland’s murder,
we, like the circuit court, are confident
that death was the appropriate punishment
for Jenkins’s actions.

(C.R. 331.) Jenkins argues that the circuit
court’s findings are inconsistent with the
United States Supreme Court’s holding in
Skipper v. South Carolina, 476 U.S. 1, 106
S.Ct. 1669, 90 L.Ed.2d 1 (1986), because,
he argues, a court must consider this type
of evidence to be mitigating evidence.

E.
[52] Jenkins argues that his trial counsel was ineffective for failing to investigate
and introduce evidence of his good conduct
while he was incarcerated in the county
jail awaiting trial. At the Rule 32 hearing,
Jenkins presented the testimony of two
jailers who worked in the St. Clair County
jail where Jenkins was housed for 18
months before he was tried. The two
jailers stated that Jenkins was polite, courteous, and respectful and that he never
complained.
The circuit court, when considering this
issue, stated:
‘‘The inconsistencies in the different
theories of mitigation presented through
Sharon Seal’s testimony is also true concerning the testimony of the two St.
Clair County jailers who testified. Both

[53–55] The United States Supreme
Court in Skipper held that evidence of
Skipper’s good behavior in prison was improperly excluded from the penalty phase
of his capital trial after the State had
introduced evidence of his assaultive behavior. The trial court refused to allow
two jailers and one regular jail visitor to
testify about Skipper’s good behavior and
his good adjustment to prison life. In reversing the lower court’s ruling, the Supreme Court stated, ‘‘[E]vidence that the
defendant would not pose a danger if
spared (but incarcerated) must be considered potentially mitigating.’’ 476 U.S. at
5, 106 S.Ct. 1669. Since Skipper, the United States Supreme Court has stated that
its holding in Skipper was founded on dueprocess considerations. In Simmons v.
South Carolina, 512 U.S. 154, 114 S.Ct.
2187, 129 L.Ed.2d 133 (1994), the United
States Supreme Court stated:
‘‘In Skipper v. South Carolina, 476
U.S. 1 (1986), this Court held that a

488a
Ala.

JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

defendant was denied due process by
the refusal of the state trial court to
admit evidence of the defendant’s good
behavior in prison in the penalty phase
of his capital trial. Although the majority opinion stressed that the defendant’s
good behavior in prison was ‘relevant
evidence in mitigation of punishment,’
and thus admissible under the Eighth
Amendment, id., at 4, citing Lockett v.
Ohio, 438 U.S. [586], at 604 [ (1978) ]
(plurality opinion), the Skipper opinion
expressly noted that the Court’s conclusion also was compelled by the Due Process Clause. The Court explained that
where the prosecution relies on a prediction of future dangerousness in requesting the death penalty, elemental due
process principles operate to require admission of the defendant’s relevant evidence in rebuttal. 476 U.S., at 5, n. 1.
See also id., at 9 (Powell, J., opinion
concurring in judgment) (‘[B]ecause petitioner was not allowed to rebut evidence and argument used against him,’
the defendant clearly was denied due
process).’’
512 U.S. at 164, 114 S.Ct. 2187. Good
conduct during pretrial incarceration is not
necessarily a mitigating circumstance.
State v. Spears, 184 Ariz. 277, 279, 908
P.2d 1062 (1996). Whether potentially
mitigating evidence mitigates the offense
is for the trial court to determine. See Ex
parte Ferguson, 814 So.2d 970 (Ala.2001).
‘‘ ‘While Lockett and its progeny require
consideration of all evidence submitted as
mitigation, whether the evidence is actually found to be mitigating is in the discretion of the sentencing authority.’ ’’ Ex
parte Slaton, 680 So.2d 909, 924 (Ala.1996),
quoting Bankhead v. State, 585 So.2d 97,
108 (Ala.Crim.App.1989).
Jenkins argues that his counsel was ineffective for failing to investigate and present evidence of his good conduct while he
was incarcerated and awaiting trial. In

149

order to show that counsel was ineffective,
the petitioner must satisfy the twopronged test articulated in Strickland v.
Washington. The petitioner must show
that counsel’s performance was deficient
and that he was prejudiced by the deficient
performance. Here, neither attorney was
questioned about this issue—there is no
explanation in the record as to whether
counsel was in possession of this information, and, if so, why this evidence was not
presented as potential mitigation at the
penalty phase. Therefore, Jenkins failed
to meet his burden of proof.
Moreover, evidence of Jenkins’s conduct
while in jail awaiting trial was at most
‘‘minimally mitigating.’’ State v. Spears,
supra. A defendant facing trial on capital
charges is more likely to be well-behaved
in prison than an individual who has already been convicted of a capital offense
and has no incentive to cooperate with his
jailers. Also, as the trial court noted the
good conduct exhibited by Jenkins was
when Jenkins was alone in a cell that was
located directly across from a guard desk.
We are confident that had this information
been presented to the jury it would have
had no impact on the jury’s recommendation of death in this case.
F.
[56] Jenkins argues that counsel was
ineffective in failing to request a continuance before the start of the penalty phase.
There was no testimony presented concerning this issue at the Rule 32 hearing.
Scofield was asked whether he and Downey requested a continuance; however, he
was not asked why they failed to do so.
Jenkins has failed to meet his burden of
proof in regards to this issue. See Rule
32.3., Ala.R.Crim.P.
G.
[57] Jenkins argues that his counsel
failed to effectively argue his case in the

489a
150

Ala.

972 SOUTHERN REPORTER, 2d SERIES

separate sentencing hearing that was held
before the trial court pursuant to § 13A–
5–47(c), Ala.Code 1975.
Here, counsel prepared a detailed presentence memorandum that mirrored information about Jenkins’s childhood contained in the presentence report. Counsel
also argued at the hearing before the trial
court that Jenkins had no significant history of prior criminal activity, that Jenkins
was intoxicated and was impaired at the
time of the murder, that the murder was
not premeditated, that Jenkins had been
abused in his childhood, and that Jenkins
lacked a normal family life.
The trial court’s sentencing order shows
that it considered evidence of Jenkins’s
abusive childhood but that it chose to give
this evidence little weight. It found that
the aggravating circumstances outweighed
the mitigating circumstances. We can find
no evidence indicating that counsel’s performance before the sentencing hearing
held before the trial court was deficient.
Jenkins has failed to satisfy the Strickland
test.
H.
[58] Jenkins argues that he was denied
the effective assistance of counsel on direct
appeal before this Court. Scofield represented Jenkins on appeal.
The circuit court made the following
findings concerning this issue:
‘‘Mr. Scofield testified at the evidentiary hearing that he continued to represent Jenkins on appeal. Although he
was the attorney of record, Mr. Scofield
stated that he was assisted a great deal
by an attorney with the Capital Resource Center, Hillary Hoffman. The
Court notes that the Capital Resource
Center represents death-row inmates
exclusively and the majority of that representation occurs at the appellate level.
Regarding the extent of Ms. Hoffman’s

involvement in the case, Mr. Scofield
stated the following:
‘‘ ‘I continued to be involved in the
sense of Hillary would prepare things.
I would review them for signatures
and things like that. She did the
majority of the work after that point.
I reviewed court opinions. I reviewed
her drafts and this, that and the other.
Primarily, at that point, she became
more involved in the actual appellate
aspect of the case. I argued the case
before the Courts. In terms of the
actual preparation, she would make
drafts, send them to me and I would
review them.’
‘‘The Court does not find it to be insignificant that the Capital Resource Center was, in essence, raising the issue on
appeal and preparing the supporting argument. The past experience of an attorney is an important consideration in
evaluating ineffective assistance of counsel claims. See State v. Whitley, 665
So.2d 998, 999 (Ala.Crim.App.1995) (denying ineffective assistance of counsel
claim while pointing out that ‘[d]efendant’s attorney had extensive experience
in the trial of criminal cases and specifically homicide cases.’).
‘‘Finally, Jenkins offered no relevant
evidence in support of this claim at the
evidentiary hearing. Jenkins has the
burden to prove by a preponderance of
the evidence the facts necessary to show
that he is entitled to relief. Rule 32.3,
Ala.R.Crim.P., in order to do so successfully, in relation to an ineffective assistance of counsel claim, he must show
both deficient performance and prejudice. In presenting no evidence, he has
shown neither. This claim is dismissed.’’
(C.R. 344–45.)
As this Court stated in DeBruce v. State,
890 So.2d 1068, 1093–94 (Ala.Crim.App.
2003):

490a
Ala.

JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

‘‘A defendant has the right to the
effective assistance of counsel in his appeal to this Court. See Cochran v.
State, 548 So.2d 1062 (Ala.Crim.App.),
cert. denied, 493 U.S. 900 (1989). DeBruce argues on appeal that his appellate counsel should have raised an additional 33 issues before this Court.
Mathis represented DeBruce on appeal
and signed the brief prepared by the
anti-death-penalty organization known
as the Equal Justice Initiative. The
brief presented 13 issues, and this Court
issued a very lengthy opinion addressing
those issues. ‘ ‘‘[W]e emphasize that the
right to effective assistance of appellate
counsel does not require an attorney to
advance every conceivable argument on
appeal which the trial record supports.’’
Gray v. Greer, 778 F.2d 350 at 353 (7th
Cir.1985) (emphasis added [in Cochran ] ), citing Evitts v. Lucey, 469 U.S.
387, 105 S.Ct. 830, 83 L.Ed.2d 821
(1985).’ Cochran, 548 So.2d at 1069–70.
‘‘ ‘ ‘‘[E]xperienced advocates have emphasized the importance of winnowing
out weaker arguments on appeal and
focusing on one central issue if possible, or at most on a few key issues.
Selecting the most promising issues
for review has assumed a greater importance in an era when the time for
oral argument is strictly limited in
most courts and when page limits on
briefs are widely imposed.’’ ’
‘‘Boyd v. State, 746 So.2d 364, 403 (Ala.
Crim.App.1999), quoting Jones v.
Barnes, 463 U.S. 745, 746 (1983).’’
In his appellate brief submitted on Jenkins’s direct appeal Jenkins raised 13 issues. This Court addressed those issues
in a lengthy opinion. In neither his Rule
32 petition nor his brief on this appeal has
Jenkins identified any issues that his appellate counsel failed to raise. Jenkins

151

presented no evidence that his appellate
counsel’s performance was deficient.
I.
[59] Jenkins argues that Scofield failed
to object to the fact that an element of the
offense was also the aggravating circumstance that warranted the imposition of
the death penalty.
This Court’s opinion on direct appeal
addressed the substantive claim and found
that there was no error in double counting
an element of the offense as an aggravating circumstance. Jenkins, 627 So.2d at
1052. Therefore, because the substantive
claim is without merit, Jenkins cannot satisfy the Strickland test.
J.
[60] Jenkins argues that counsel failed
to object to the fact that electrocution as a
means of execution constitutes cruel and
unusual punishment.
Recently, the Alabama Legislature
adopted § 15–18–82.1, Ala.Code 1975,
which changed Alabama’s method of execution from electrocution to lethal injection. This legislation applies to all persons
currently on Alabama’s death row. See
§ 15–18–1, Ala.Code 1975. See Adams v.
State, 955 So.2d 1037 (Ala.Crim.App.2003).
Therefore, the substantive issue has been
rendered moot by the adoption of § 15–18–
82.1; Jenkins cannot satisfy the Strickland
test.
III.
[61] Jenkins next argues that the circuit court erred in discounting the testimony of his expert, Dr. David Lisak, a clinical
psychologist. Dr. Lisak was retained to
testify about the effects of ‘‘growing up in
an abusive, brutal household.’’ (R. 423.)
The circuit court correctly discounted all
of the hearsay factual statements brought

491a
152

Ala.

972 SOUTHERN REPORTER, 2d SERIES

out during Dr. Lisak’s testimony. Rule
801, Ala.R.Evid. The circuit court stated
that it discounted Dr. Lisak’s conclusions
for the following reasons:
‘‘One of the most incredible aspects of
Dr. Lisak’s testimony was his answer to
a question posed by the State on recross-examination. Dr. Lisak was asked
whether he could rule out the possibility
that Jenkins might have committed his
crime for a reason unrelated to any
abuse he might have suffered as a child
and adolescent. Dr. Lisak ruled out
such a possibility. He did so even
though he had not considered Jenkins’s
mental state at the time of the crime or
even inquired into the circumstances
surrounding the crime itself. The Court
finds that this response further supports
the witness’s lack of credibility.
‘‘The Court will lastly comment on Dr.
Lisak’s testimony concerning the cycle
of violence. The cycle of violence generally refers to the connection between
childhood abuse and the later perpetration of violence by persons who were
abused as children. Dr. Kirkland, the
psychological expert for the State,
whose testimony will be discussed further in this order, correctly pointed out
that under Dr. Lisak’s theory of the
cycle of violence, it would be hard to
ever hold anyone responsible for doing
anything if they had been abused. Dr.
Kirkland stated, and the Court agrees,
that it was more than a possibility that
Jenkins committed the crime for some
reason unrelated to any abuse he suffered.
‘‘In summary, Dr. Lisak was nothing
more than a conduit through which to
admit hearsay who was paid $5,000. He
did not evaluate Jenkins, he administered no psychological tests to him, and
offered no expertise to assist the trier of
fact. Dr. Lisak had no firsthand knowledge of any of the facts to which he

testified and most of those facts were
already before the Court through the
testimony of the lay witnesses. The
Court finds that this evidence, in the
form that it was presented, was not
credible and discounts altogether the
testimony of Dr. Lisak as an expert.
While Jenkins may well have been
abused as a child, Dr. Lisak’s testimony
does not show that, but the failure to
present his testimony to the jury, the
result of the proceedings would have
been different.’’
(C.R. 338–39.)
The trial court did not consider Dr. Lisak as an expert; it stated that he did not
assist the trier of fact. The trial court also
found that Dr. Lisak’s conclusions would
not constitute mitigation. That ruling is
correct. Dr. Lisak stated that he did not
interview Jenkins or speak with him about
the circumstances surrounding the murder
but that it was his conclusion that Hogeland’s murder was connected to Jenkins’s
abusive childhood. Dr. Lisak’s conclusion
was based on general observations concerning abused children and the possible
effect that such abuse may manifest itself
in their adult years.
Recently, in DeBruce v. State, supra, we
held that a trial court correctly found that
evidence from a sociologist about the effects of growing up in a high-crime area
was not mitigating evidence. We stated:
‘‘Alabama has never specifically addressed whether a sociologist may properly testify to establish mitigating evidence.
Section 13A–5–52, Ala.Code
1975, addresses nonstatutory mitigating
evidence and states:
‘‘ ‘In addition to the mitigating circumstances specified in Section 13A–
5–51, mitigating circumstances shall
include any aspect of a defendant’s
character or record and any of the

492a
JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

circumstances of the offense that the
defendant offers as a basis for a sentence of life imprisonment without parole instead of death, and any other
relevant
mitigating
circumstance
which the defendant offers as a basis
for a sentence of life imprisonment
without parole instead of death.’
‘‘ ‘The Eighth Amendment requires an
individualized sentencing determination
in a death penalty case.’ Sneed v. State,
783 So.2d 841, 853 (Ala.Crim.App.1999),
rev’d on other grounds, 783 So.2d 863
(2000), citing Stringer v. Black, 503 U.S.
222 (1992), and Lockett v. Ohio, 438 U.S.
586 (1978). Allowing a sociologist to
testify concerning the general affect of
environmental conditions violates the
right to an individualized sentencing determination.
‘‘The North Carolina Supreme Court
in State v. Taylor, 354 N.C. 28, 550
S.E.2d 141 (2001), cert. denied, 535 U.S.
934 (2002), had occasion to address
whether the circuit court properly excluded a sociologist’s testimony when
that testimony was offered to prove mitigation. The Taylor court stated:
‘‘ ‘While [the sociologist] was clearly
qualified to give his opinion as to the
possible cultural affects living in a
drug-infested environment would have
had on defendant, he was not qualified
to give what is in essence a medical
opinion as to any possible mental defect, as his training and experience
were insufficient to allow the court to
admit this portion of his testimony.
The trial judge properly exercised his
discretion in excluding testimony that
21. Dr. Lisak testified that Jenkins suffered
from no mental disease or defect, that he
suffered from post-traumatic stress disorder
and depression. Dr. Lisak subscribed to the
theory that Jenkins’s abusive childhood led to
his violent behavior as an adult.

Ala.

153

was unreliable for its intended purpose. Although the courts have often
properly allowed the testimony of psychiatrists and psychologists to address
mitigating circumstances focused on a
particular defendant’s mental state,
we do not believe it proper to allow a
sociologist who studies the functions
and patterns of groups to give this
type of testimony. Indeed, the above
portions of testimony could have applied to any family member or associate of defendant who grew up in the
same environment. The primary purpose of mitigating circumstances is, as
defendant notes, to treat the capital
defendant with ‘‘that degree of respect
due the uniqueness of the individual.’’
Lockett v. Ohio, 438 U.S. 586, 605, 98
S.Ct. 2954, 2965, 57 L.Ed.2d 973, 990
(1978). The witness’ testimony lacked
the requisite uniqueness regarding
this defendant, and the trial court did
not err in excluding the testimony.’
‘‘354 N.C. at 43, 550 S.E.2d at 152. See
also State v. Rose, 120 N.J. 61, 65, 576
A.2d 235 (1990).’’
890 So.2d at 1097–98.
Dr. Lisak did not discuss the murder
with Jenkins, yet he testified at the Rule
32 hearing to his conclusions about the
murder. The trial court correctly determined that Dr. Lisak’s testimony would
not constitute mitigating evidence because
it was not relevant to an ‘‘individualized
sentencing determination.’’ 21 See DeBruce.
The trial court instead relied on the
testimony of Dr. Karl Kirkland, the State’s
The State’s expert, Dr. Kirkland, testified
that Jenkins suffered from depression, as do
the majority of individuals on death row, and
that his IQ is 76. Dr. Kirkland did not subscribe to the theory that any abuse in Jenkins’s childhood contributed to his violent
acts as an adult.

493a
154

Ala.

972 SOUTHERN REPORTER, 2d SERIES

expert, because Dr. Kirkland had interviewed Jenkins about the murder and had
administered psychological tests. The trial court stated:
‘‘Testifying in rebuttal for the State
was Dr. Karl Kirkland, a clinical psychologist who had participated in over
500 forensic evaluations, 322 of which
were in criminal cases. Dr. Kirkland
had testified 146 times as a forensic
psychologist, 29 of those cases being
capital murder cases. Of those 29 cases,
Dr. Kirkland was retained by the defendant at least a dozen times. Dr. Kirkland evaluated Jenkins and administered
a number of psychological tests. Dr.
Kirkland found that Jenkins showed
signs of severe depression, which in the
Court’s experience, is not unusual for
death row inmates. Dr. Kirkland also
found that some of the test results produced an invalid profile in that Jenkins
answered the questions in a way that
tended to over-emphasize and exaggerate his symptoms. Jenkins scored in
the range of borderline intellectual functioning, with an IQ of 76. Dr. Kirkland
described Jenkins as a slow learner
though not technically learning disabled.
In his expert opinion, this had no effect
on Jenkins’s ability to appreciate the
criminality of his conduct. In fact, Dr.
Kirkland stated that, in his opinion, Jenkins did appreciate the criminality of his
conduct.
‘‘Dr. Kirkland, in contrast to Dr. Lisak, testified that, while not denying
that Jenkins was abused, his observation
of the witnesses was that they inflated
and exaggerated the degree of abuse. In
his opinion, this was done possibly out of
feelings of shame and guilt and in an
attempt to help a loved one. The Court
agrees. Dr. Kirkland found that Jenkins did not suffer from any mental
disorder that would detract from his
ability to appreciate the criminality of

his conduct and he also did not think
that Jenkins suffered from any mental
disorder at the time of the murder.
‘‘The Court finds, as did Dr. Kirkland,
that there was no causal connection between the abuse allegedly suffered by
Jenkins and the brutal murder he committed. Absent some causal connection
either making Jenkins less culpable or
mitigating some circumstance of the
crime, the allegedly mitigating evidence
does not mitigate the crime at all. It is
not the case here that Jenkins suffered
abuse which resulted in a mental disorder that caused him to commit the murder. There was ten years between the
end of the alleged abuse and the murder
of Tammy Hogeland. This fact severely
undercuts the weight of the evidence
presented at the hearing.’’
(C.R. 339–340.) These conclusions are
supported by the record.
[62, 63] Neither is there any indication
that Jenkins’s death sentence violates the
United States Supreme Court’s holding in
Atkins v. Virginia, 536 U.S. 304, 122 S.Ct.
2242, 153 L.Ed.2d 335 (2002). The United
States Supreme Court held in Atkins v.
Virginia, that it was cruel and unusual
punishment in violation of the Eighth
Amendment to execute a mentally retarded individual. Though Alabama has not
enacted legislation addressing the holding
in Atkins, our Supreme Court in Ex parte
Perkins, 808 So.2d 1143 (Ala.2001), has
applied the most liberal view of mental
retardation. To be considered mentally
retarded a defendant must have a significantly subaverage intellectual functioning
(an IQ score of 70 or below), significant
deficits in adaptive behavior, and the problems must have manifested themselves before the defendant reached the age of 18.
Perkins.

494a
JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

Dr. Kirkland testified that he performed
psychological tests on Jenkins and that
Jenkins’s IQ was 76. There was evidence
presented at Jenkins’s trial indicating that
Jenkins maintained relationships with other individuals and that he had been employed by P.S. Edwards Landscaping
Company, Cotton Lowe 76 Service Station,
and Paramount Painting Company. The
record fails to show that Jenkins meets the
most liberal view of mental retardation
adopted by the Alabama Supreme Court in
Perkins. Jenkins’s death sentence does
not violate Atkins v. Virginia.
IV.
Jenkins argues that the State failed to
comply with Brady v. Maryland, 373 U.S.
83, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963),
by failing to disclose exculpatory evidence.
Specifically, he argues that police failed to
disclose that another individual had been
arrested and detained for the murder and
that the State also withheld evidence about
Jenkins’s background and character.
The circuit court made the following
findings about this issue:
‘‘Jenkins alleged TTT that the prosecution failed to make available to him
‘exculpatory materials’ and ‘mitigating
evidence’ in violation of Brady v. Maryland, 373 U.S. 83 (1963). Jenkins specifically claims: (1) that the prosecution
failed to provide him with evidence that
another suspect had been questioned
about Tammy Hogeland’s murder, and
(2) that the prosecution withheld mitigating evidence at the penalty phase.
This mitigating evidence included aspects of Jenkins’s allegedly abusive
childhood. Although not specifically
referenced in his amended petition, this
mitigating evidence was apparently contained in Jenkins’s Taylor Hardin [Secure Medical Facility] records and in
the pre-sentence report.

Ala.

155

‘‘Turning first to the ‘other suspect’
information, the Court finds that Jenkins did not meet his burden of proving
this Brady claim at the evidentiary hearing. A Brady violation occurs where (1)
the prosecutor suppressed evidence; (2)
the evidence was favorable to the defendant; and (3) the evidence was material
to the issues at trial. Initially, Jenkins
did not prove that the evidence was
suppressed.
‘‘The St. Clair County District Attorney and prosecuting attorney at Jenkins’s trial, Van Davis, testified at the
evidentiary hearing that his discovery
policy now, and at the time of Jenkins’s
trial, was an ‘open-file policy.’ Anything
in the file was available to defense counsel for inspection and copying. When
shown Petitioner’s Exhibit 4, the alleged
‘other suspect’ information, Mr. Davis
testified that he recognized the document, that it was part of the file, and
that it was absolutely not withheld from
Jenkins’s trial counsel. Mr. Davis testified that it was his policy at the time of
Jenkins’s trial to make the entire file
available to the defense. Defense counsel would then be allowed to go through
the file and identify and mark any material they wanted copied. The D.A.’s office would then make photocopies for
defense counsel. This testimony contradicted Jenkins’s trial counsel’s earlier
testimony that he was not permitted to
photocopy the file, but instead had to
copy by hand the information he wanted.
According to both parties, defense counsel was permitted to spend as much time
looking at the file as was needed.
‘‘Mr. Davis further testified that he
never removed anything from Jenkins’s
file and considered nothing in a capital
case to be work product. He stated that
nothing had been added to the file in the
time period between the end of Jen-

495a
156

Ala.

972 SOUTHERN REPORTER, 2d SERIES

kins’s trial and the turning over of the
file to the Attorney General’s Office, unless it was some type of post-conviction
pleadings.
‘‘The Court also finds contradictions in
Mr. Scofield’s testimony concerning the
police report of the ‘other suspects.’
Mr. Scofield initially testified at the evidentiary hearing that he did not ‘remember seeing anything in the file
about other suspect,’ but subsequently
testified that he was ‘absolutely positive’
that he did not see the police report in
the file. Based upon the testimony presented at the evidentiary hearing, the
observation of the witnesses, and credibility determinations, it is the Court’s
finding that Jenkins has failed to prove
that the ‘other suspect’ report was withheld by the prosecution in violation of
Brady.
‘‘Even assuming arguendo that the
‘other suspect’ information was withheld,
the Court further finds that Jenkins has
failed to prove that the information was
either exculpatory or material. The
‘other suspect’ information consisted of a
Jackson, Mississippi, ‘Police Department
Offense/Supplementary,’ wherein there
was information from a Mississippi officer that an individual had been detained
in that State. According to the report,
the man had been traveling on a bus,
reportedly talking about killing and
shooting people, and was taking pills.
The individual had signs of scars or
scratches on his left forearm, and had in
his possession bus tickets to continue on
to Dallas, El Paso, San Diego, and San
Francisco. He also had in his possession tickets that had been used from
Richmond, Philadelphia, and Washington, D.C. The tickets had been purchased in Fort Lauderdale.
‘‘The individual had been detained because Mississippi officials had received a
teletype from St. Clair County concern-

ing Jenkins. The individual told the
officer that he thought he began riding
the bus on April 19, 1989. He stated
that he was asleep on the bus when it
arrived in Birmingham and he could not
remember if he had gotten off the bus.
The supplement also contained information that the individual detained in Mississippi matched Jenkins’s description
except for his weight. The individual
detained in Mississippi weighed 250
pounds, almost 100 pounds more than
the 165–pound Jenkins.
‘‘The Court finds that this information
was not exculpatory. The fact that an
individual was detained in Mississippi
who resembled Jenkins in no way exculpated Jenkins in Tammy Hogeland’s
murder. Van Davis testified at the evidentiary hearing that a [be on the lookout] had been sent to agencies between
Alabama and California that Jenkins
was possibly traveling by bus. Mr.
Davis further testified that they were
not looking for an unknown suspect, but
that they were looking for Jenkins. The
person detained in Mississippi, although
generally matching Jenkins’s physical
description, did not match Jenkins’s
weight. As previously noted, Jenkins,
at the time of his arrest, weighed approximately 100 pounds less than the
individual detained in Mississippi.
‘‘The amount of evidence incriminating Jenkins in Tammy Hogeland’s murder, at the time the individual in Mississippi was detained, was overwhelming.
Once it was determined that the individual detained in Mississippi was not Jenkins, the authorities continued to search
for Hogeland’s murderer. The detention of the individual in Mississippi did
not exculpate Jenkins and, thus, no Brady violation occurred.
‘‘Although unnecessary, the Court will
go yet another step further to show that,

496a
JENKINS v. STATE
Cite as 972 So.2d 111 (Ala.Crim.App. 2004)

even assuming that the evidence was
both suppressed and exculpatory, Jenkins did not prove that it was material.
The other suspect information would
have been material ‘only if there [was] a
reasonable probability that, had the evidence been disclosed to the defense, the
result of the proceeding would have
been different. A ‘‘reasonable probability’’ is a probability sufficient to undermine confidence in the outcome.’ United States v. Bagley, 473 U.S. 667, 682
(1985). Jenkins has offered no evidence
that the ‘other suspect’ information
would have, to a reasonable probability,
changed the outcome of his trial. The
evidence establishing Jenkins’s guilt was
overwhelming, and the information
would not have influenced the outcome
of his trial.
‘‘Moreover, the report was inadmissible hearsay and Jenkins could not prove
that it would have been admissible at his
trial. Alabama law provides that ‘other
suspect’ information is not admissible.
‘It is recognized that an accused is not
entitled to prove, without more, that another has been suspected of committing
the crime for which the accused is being
tried.’ Land v. State, 678 So.2d 201, 207
(Ala.Crim.App.1995). ‘The general rule
in Alabama is that an accused is not
entitled to introduce testimony that
someone else was suspected of committing the crime for which he is being
tried.’ Land, 678 So.2d at 207. Here,
the ‘other suspect’ was not a suspect at
all. He was detained because there was
a possibility that he was Mark Allen
Jenkins, the one and only suspect. For
the above reasons, there was no Brady
violation concerning the ‘other suspect’
information.
‘‘Turning next to the alleged withholding of mitigating evidence at the penalty
phase, the Court again finds that there
was no Brady violation. The informa-

Ala.

157

tion that Jenkins complains was withheld, allegedly mitigating aspects of his
childhood and adolescent years that are
detailed on page 28 of the amended petition, was information that was within
Jenkins’s knowledge and could not have
been suppressed by the prosecution.
There is no Brady violation where the
information was available to the defense
at the time of trial. Carr v. State, 505
So.2d 1294, 1297 (Ala.Crim.App.1987).
Moreover, defense counsel testified at
the evidentiary hearing that he had
some knowledge of most of the information that Jenkins now claims was withheld.’’
(C.R. 283–88.) The circuit court’s findings
are correct.
[64] To establish a Brady violation a
defendant must show (1) that the prosecution suppressed evidence, (2) favorable to
the defendant or exculpatory, and (3) material to the issues at trial. Martin v.
State, 931 So.2d 736, 744 (Ala.Crim.App.
2003).
[65] Here, the record shows that Jenkins was identified as the individual who
was last seen with the victim. The police
were never looking for another suspect. A
BOLO (be on the lookout) was issued for
Jenkins, and a person who resembled Jenkins was arrested in Mississippi. This information was not exculpatory evidence.
[66–68] Moreover, any evidence about
Jenkins’s childhood that he alleges was
withheld was information within his knowledge.
‘‘ ‘There is no Brady violation where the
information in question could have been
obtained by the defense through its own
efforts.’ Johnson [v. State ], 612 So.2d
[1288] at 1294 [ (Ala.Crim.App.1992) ];
see also Jackson v. State, 674 So.2d 1318
(Ala.Cr.App.1993), aff’d in part and rev’d

497a
158

Ala.

972 SOUTHERN REPORTER, 2d SERIES

in part on other grounds, 674 So.2d 1365
(Ala.1995). ‘ ‘‘Evidence is not ‘suppressed’ if the defendant either knew
TTT or should have known TTT of the
essential facts permitting him to take
advantage of any exculpatory evidence.’’
United States v. LeRoy, 687 F.2d 610,
618 (2d Cir.1982)[, cert. denied, 459 U.S.
1174, 103 S.Ct. 823, 74 L.Ed.2d 1019
(1983) ].’ Carr v. State, 505 So.2d 1294,
1297 (Ala.Cr.App.1987) (noting, ‘The
statement the appellant contends was
suppressed in this case was his own, and
no reason was set forth to explain why
he should not have been aware of it.’).
Where there is no suppression of evidence, there is no Brady violation.
Carr, 505 So.2d at 1297.’’

G. Whether emotional outbursts by the
victim’s family at trial denied Jenkins
his constitutional rights;

Freeman v. State, 722 So.2d 806, 810–11
(Ala.Crim.App.1998). Jenkins has failed to
prove that the State violated Brady.

M. Whether use of an element of capital offense as an aggravating circumstances violates his constitutional rights;
and

V.
[69] Jenkins makes several arguments
in his brief that the circuit court correctly
determined were procedurally barred in
this postconviction proceeding. The following issues are procedurally barred:
A. Whether the trial court erred in
denying defense counsel’s motion for individually sequestered voir dire;
B. Whether the trial court’s jury instructions on robbery were erroneous;
C. Whether the evidence against Jenkins was insufficient to convict him of
capital murder;
D. Whether the trial court erred in
failing to give several requested jury
instructions;
E. Whether the trial court’s admission
of illegal and inflammatory evidence
prejudiced Jenkins and warrants a reversal of his conviction;
F. Whether the trial court failed to
take sufficient steps to limit the effects
of prejudicial publicity;

H. Whether the failure to fully transcribe all of the proceedings warrants
reversal;
I. Whether the prosecutor used his
peremptory strikes in a discriminatory
manner;
J. Whether a sentence of death in this
case is disproportionate;
K. Whether electrocution as the means
of execution is cruel and unusual punishment;
L. Whether African–American women
were systematically underrepresented in
the jury pool in St. Clair County;

N. Whether the cumulative effect of
these errors entitles him to a new trial.
These issues are all barred in a Rule 32
proceeding because they could have been
raised at trial or on appeal. See Rule
32.2(a)(3) and 32.2(a)(5), Ala.R.Crim.P. Additionally, issues C, I, E, G, and M are
procedurally barred because they were
raised and addressed on direct appeal.
See Rule 32.2(a)(4), Ala.R.Crim.P.
VI.
[70] Jenkins argues that the circuit
court erred in its wholesale adoption of the
State’s proposed order denying relief.
Jenkins’s argument on this point consists
of only three paragraphs in his brief to
this Court.
In Bell v. State, 593 So.2d 123 (Ala.Crim.
App.1991), we stated:
‘‘The trial court did adopt verbatim the
proposed order tendered by the state;
however, from our review of the record,

498a
Ala.

EX PARTE JENKINS
Cite as 972 So.2d 159 (Ala. 2005)

we are convinced that the findings and
conclusions are those of the trial court.
The record reflects that the trial court
was thoroughly familiar with the case
and gave the appellant considerable leeway in presenting evidence to support
his claims. While the practice of adopting the state’s proposed findings and
conclusions is subject to criticism, the
general rule is that even when the court
adopts proposed findings verbatim, the
findings are those of the court and may
be reversed only if clearly erroneous.
Anderson v. City of Bessemer City,
N.C., 470 U.S. 564, 105 S.Ct. 1504, 84
L.Ed.2d 518 (1985); Hubbard v. State,
584 So.2d 895 (Ala.Cr.App.1991); Weeks
v. State, 568 So.2d 864 (Ala.Cr.App.
1989), cert. denied, [498] U.S. [882], 111
S.Ct. 230, 112 L.Ed.2d 184 (1990); Morrison v. State, 551 So.2d 435 (Ala.Cr.
App.), cert. denied, 495 U.S. 911, 110
S.Ct. 1938, 109 L.Ed.2d 301 (1990).’’
593 So.2d at 126. See also DeBruce v.
State, supra; Holladay v. State, 629 So.2d
673 (Ala.Crim.App.1992); Wright v. State,
593 So.2d 111, 117–18 (Ala.Crim.App.1991).
The circuit court’s findings are supported by the testimony and the evidence
that was presented at the Rule 32 proceedings. There is no indication that the circuit court’s findings are ‘‘clearly erroneous.’’ See Bell, supra.
For the foregoing reasons, we affirm the
circuit court’s denial of Jenkins’s petition
for postconviction relief filed pursuant to
Rule 32, Ala.R.Crim.P.

159

Ex parte Mark Allen JENKINS.
(In re Mark Allen Jenkins
v.
State of Alabama).
1031313.
Supreme Court of Alabama.
April 8, 2005.
Background: Defendant petitioned for
postconviction relief from capital-murder
conviction and death sentence. The Circuit
Court, St. Clair County, No. CC-89-68.60,
William E. Hereford, J., denied petition.
The Court of Criminal Appeals, 972 So.2d
111, affirmed. Defendant petitioned for
certiorari review.
Holding: The Supreme Court, Lyons, J.,
held that relation-back doctrine was a civil
law derivative misapplied as to prevent
defendant from amending his postconviction petition; overruling Harris v. State,
947 So.2d 1079; McWilliams v. State, 897
So.2d 437; Giles v. State, 906 So.2d 963; Ex
parte Mack, 894 So.2d 764; DeBruce v.
State, 890 So.2d 1068; Charest v. State, 854
So.2d 1102; and Garrett v. State, 644 So.2d
977.
Affirmed in part, reversed in part, and
remanded.
On remand to, Ala.Cr.App., 972 So.2d 165.

AFFIRMED.
Criminal Law O1586
McMILLAN, P.J., and COBB,
BASCHAB, SHAW, and WISE, JJ.,
concur.

,

The ‘‘relation-back doctrine,’’ limiting
review of untimely raised issues only to
those that relate back to original postjudgment petitions and appeals, was a
civil law derivative misapplied to defendant’s criminal case as to impede his abil-

499a
IN THE cmCIDT COURT FOR ST. CLAm COUNTY, ALABAMA

MARK ALLEN JENKINS,
Petitioner,
versus

CASE NO: 89-68.60

STATE OF ALABAMA,
Respondent.

ORDER

Based on the evidence presented at trial and at the evidentiary hearing on Jenkins's Rule
32 petition, the Court enters the following findings offact and conclusions of law:

I. PROCEDURALLY BARRED CLAIMS
Rule 32.1 of the Alabama Rules of Criminal Procedure states that, subject to the
limitations of Rule 32.2, "any defendant who has been convicted of a criminal offense may
institute a proceeding in the court of original conviction to secure appropriate relief on various
grounds that are set out in Rule32.1(a)-(e). Rule32.1 expressly states that relief under Rule 32 is
limited to the extent that the claims raised by a Rule 32 petition may be procedurally defaulted
from a circuit court's review. The Alabama Rules of Criminal Procedure, at Rule 32.2(a),
unambiguously state which category of claims raised by a Rule 32 petitioner are procedurally
defaulted from this Court's review. Rule 32.2(a) states as follows:

500a

.I"

\

\

501a

502a

petitioner to avoid a procedural default if the factual claim presented is newly discovered
evidence. To be considered newly discovered evidence, the claim presented must meet the
five criteria stated in Rule 32. 1(e)(I)-(5). At the evidentiary hearing, Jenkins did not attempt
to make a showing that any of his procedurally defaulted claims qualified as newly discovered
evidence as defined in Rule 32.I(e)(I)-(5).
A. Claims Which Were Raised At Trial Are
Barred From Review

Seven of the claims raised in Jenkins's amended Rule 32 petition are barred from
review, at least in part, because they were raised or addressed at trial. These seven claims are
as follows:
Claim A - Guilt Phase Jury Instructions Misstated
Law (part 3)

3. The claim that the trial· court
erred in refusing Jenkins's
requested jury instruction to the
effect that the jury could not
convict him of capital murder-robbery
ifit found that he took the victim's
property as an afterthought
Claim B - The claim that the evidence was
insufficient to support Jenkins's
conviction for capital murder-robbery
and was insufficient to support the
finding of the robbery as an
aggravating circumstance

C.,,'!:R l;,):';;HY

d7/

503a

Claim C - The claim that the evidence was
insufficient to support Jenkins's
conviction for capital
murder-kidnapping and was
insufficient to support the finding
of the kidnapping as an aggravating
circumstance
Claim G - The claim that the trial court
erroneously admitted into evidence a
business card found in Jenkins's
wallet in violation of his right to
be free from warrantless searches and
seizures
Claim I - (part c)
c. The claim that Jenkins's clothing was
improperly identified by Jenkins's
roommate, Mitchell Babb
Claim J - The claim that the trial court
violated Jenkins's due process rights
by permitting an in-court
identification which arose from an
unduly suggestive pretrial line-up
Claim X - The claim that the trial.
court's denial of Jenkins's motion
for individually sequestered voir '"
dire violated his constitutional
rights"
Rule 32.2(a)(2) of the Alabama Rules of Criminal Procedure provides that claims
were raised or addressed at trial are barred from further Rule 32 proceedings. See,
Daniels v. State, 650 SO.2d 544, 551 (Ala. Crim. App.), cert. denied, 650 So.2d 544 (Ala.
1994), cert. denied, 115 S.Ct. 1375 (1995); Cochran v. State, 548

(Ala.
I,,'

:

!-' .........

j

"

.

I" #

I

4

CT.

'!'

CLEr::{

,1

C:!,;,1T

504a

Crim. App.), cert. denied, 548 So.2d 1062 (Ala. 1989); Baldwin v. State, 539 So.2d 1103,
1105 (Ala. Crim. App. 1988), cert. denied, 539 So.2d 1103 (Ala. 1989), cert. denied, 110
S.Ct. 206 (1989); Dobard v. State, 455 So.2d 281,283 (Ala. Crim. App. 1984); Bell v. State,
518 So.2d 840 (Ala. Crim. App. 1988), cert. denied, 486 U.S. 1036 (1988); Richardson v.
State, 419 So.2d 189, 191 (Ala. Crim. App.), cert. denied, 419 So.2d 289 (Ala. 1982), cert.
denied, 460 U.S. 1017 (1983). Accordingly, the above seven claims are barred from review
by this Court, at least in part, because they were raised or addressed at trial.
B. Claims Which Could Have Been But Were
Not Raised At Trial Are Barred From Review
Twenty-six of the claims raised in Jenkins's amended Rule 32 petition are barred
from review, at least in part, because he failed to raise the claims at trial. These twenty-six
claims are as follows:
Claim A - Guilt Phase Jury Instructions
Misstated The Law (parts 1, 2a, 2b,
and 4-9)
1. The claim that the trial court failed
to adequately instruct the jury
on the lesser included offenses-of
felony or unintentional murder '
2a. The claim that the error resulting
from the trial court's allegedly
inadequate instructions on lesser
included offenses was compounded by
the trial court's and prosecutors
misstatements of the law regarding
the elements of capital murder
,- .

'I

.... J.) : lui

505a

2b. The claim that the prosecutor
misstated to the jury the elements of
capital murder
4. The claim that the failure to
give Jenkins's requested jury
instruction, that the jury could not
convict him of capital murder-robbery
if it found that he took the victim's
property as an afterthought, was
compounded by the prosecutor's
misstatements of the law that a
robbery occurring as an afterthought
to a murder constitutes capital
murder
5. The claim that the trial court
erroneously failed to instruct the
jury that the determination of the
voluntariness of Jenkins's statements
was for the jury to decide
6. The claim that the trial court's
instruction on Jenkins's failure to
testify denied him the benefit of the
principle that no adverse inferences
should be drawn from his silence
7. The claim that the trial court's
instructions on' crrcumstantial
evidence were prejudicial and
misleadingbeeause they shifted the
burden of proof to Jenkins and
suggested that circumstantial
evidence was entitled
to the same weight as direct evidence
only when it points to the guilt of
the accused
.....

)

'f",

WG
'"
t,,; J

6

506a

8.. The claim that the trial court
improperly instructed the jury on
reasonable doubt
9. The claim that the trial court's
alleged error in its jury instruction
on reasonable doubt was compounded by
the prosecutor's misstatements of the
law on the State's burden of proof
Claim E - The claim that the trial court's jury
instruction on flight was misleading
Claim F - The claim that the trial court failed
to prohibit the jury from exposure to
publicity about the case after
Jenkins waived sequestration
Claim H - The claim that the trial court
improperly admitted into evidence
highly inflammatory and prejudicial
photographs of the victim's body
Claim I - (parts a and b)
a. The claim that fibers taken from the
stolen automobile, fibers taken from
his clothing, and his boots were
improperly admitted at trial because
they lacked a proper predicate or '
chain of custody
.-.

b. The claim that the admission into
evidence of Jenkins's clothing and
his boots was improper because they
were linked to Jenkins solely upon
inadmissible hearsay

.

; ..) J '1
: ':.

...

...

..

tr"-

t:G:JNft

7

d7

507a

Claim L - The claim that Jenkins was denied his
right to grand and traverse jury
pools that were representative of the
community
Claim M - The claim that the trial court failed
to provide funds for expert and
investigatory assistance
Claim N - The claim that Alabama's manner of
execution is cruel and unusual
punishment
Claim 0 - The claim that emotional outbursts by
the victim's family violated
Jenkins's constitutional rights
Claim P - The claim that Jenkins's death
sentence was disproportionate
punishment under state and federal
law'
.
Claim 0 - The claim that the trial court
improperly instructed the jury at the
penalty phase that its verdict was
merely advisory
Claim R -

-.

of his right to strike a petit jury
from a panel of impartial jurors-' . ,.. . .
a jur9r failed t9 answer voir
dire questions··... .. - _....

Claim T - The claim that the prosecution used
its peremptory strikes in a racially
discriminatory manner
Claim U - The claim that Jenkins was provided
counsel with insufficient criminal
and capital litigation experience
!

1'-:: '"

<-.'-"..J

'J

.",,-,

'\.'1 :

"I J

8

508a

Claim V - The claim that Jenkins was deprived
of a full appeal from and an
appropriate review of his conviction
and sentence because all trial
proceedings were not transcribed
Claim W - The claim that St. Clair County
lacked jurisdiction to prosecute
Jenkins because the State failed to
prove that the offense occurred in
St. Clair County where the victim's
body was found
Claim Y - The claim that permitting the jury to
infer an abduction/kidnapping of the
victim from the identical act that
resulted in her murder - her
strangulation - fails to narrow the
class of persons eligible for the
death penalty
Rule 32.2(a)(3) of the Alabama Rules of Criminal Procedure provides that claims
which could have been but were not raised at trial are barred from this Court's review. See
Daniels v. State, 650 So.2d 544,551 (Ala. Crim. App.), cert. denied, 650 So.2d 544 (Ala.
1994), cert. denieg, 115 S.Ct. 1375 (1995); Russ v. State, 640 So.2d 21,22 (Ala. Crim. App.
1994).

above twenty-six claims in Jenkins's amended petition are not

properly before this court, at least in part, because.J enkins could have but did not raise them at
trial.

9

cr. CLAIR WUNfY
(Z.LI$1<lu.oy'
CU:H:( CRCUIT COURT

509a

C. Claims Which Were Raised Or Addressed On
Appeal Are Barred From Review
Eighteen of Jenkins's claims in his amended Rule 32 petition are barred from
review, at least in part, because the claims were raised or addressed on appeal. These eighteen
claims are as follows:
Claim A - Guilt Phase Jury Instructions
Misstated The Law (parts 1, 2b,
and 3-9)
1. The claim that the trial court failed
to adequately instruct the jury
on the lesser included offenses of
felony or unintentional murder
2b. The claim that the prosecutor
misstated to the jury the elements of
capital murder
3. The claim that the trial court
erred in refusing Jenkins's
requested jury instruction to the
effect that the jury could not
convict him of capital murder-robbery
if it found that he took the victim's
property as an afterthought
4.

claim that the failure to give ,:
Jenkins's requested jury instruction,
that the jury could not convict him
of capital murder-robbery if it found
he took the victim's property as an
afterthought, was compounded by the
prosecutor's misstatements of the law
that a robbery occurring as an
afterthought to a murder constitutes
capital murder

.,' :...; 51 1997
10

-; ....
"

510a

5, The claim that the trial court
erroneously failed to instruct the
jury that the determination of the
voluntariness of Jenkins's statements
was for the jury to decide
6, The claim that the trial court's
instruction on Jenkins's failure to
testify denied him the benefit of the
principle that no adverse inferences
should be drawn from his silence
7, The claim that the trial court's
instructions on circumstantial
evidence were prejudicial and
misleading because they shifted the
burden of proof to Jenkins and·
suggested that circumstantial
evidence was entitled to the same
weight as direct evidence only when
it·points to the guilt of the
accused
8. The claim that the trial court
improperly instructed the jury on
reasonable doubt
9. The claim that the trial court's
alleged error in its jury instruction
on reasonable doubt was compounded by
the prosecutors misstatements of the - .
law on the State's burden of proof
..
--. .".-. . .. _

-. '

Oaim B - The claim that the evidence was
insufficient to support Jenkinsts
conviction for capital murder-robbery
and was insufficient to support the
finding of the robbery as an
aggravating circumstance

I
.....

.

J'

.... : • ... L..i'.:rt

/;.-

"

I: ;.iil7
Ii I J

11

511a

Claim C - The claim that the evidence was
insufficient to support Jenkins's
conviction for capital
murder-kidnapping and was
insufficient to support the finding
of the kidnapping as an aggravating
circumstance
Claim G - The claim that the trial court
erroneously admitted into evidence a
business card found in Jenkins's
wallet in violation of his right to
be free from warrantless searches and
seizures
Claim H - The claim that the trial court
improperly admitted into evidence
inflammatory and prejudicial
photographs of the victim's body
Oaim· I - (parts a and. c)
a. The claim that fibers taken from the
stolen automobile, fibers taken from
his clothing, and his boots were
.
improperly admitted at trial because
they lacked a proper predicate or
chain of custody
c. The claim that Jenkins's clothing was
improperly identified by Jenkins's
roommate, Mitchell Babb
Oaim J - The claim that the trial court
violated Jenkins's due process rights
by permitting an in-court
identification which arose from an
unduly suggestive pretrial line-up

.. -

) ...) j

1 i i 1112

=:-;".
;1-

:.r-

./

.

512a

Claim 0 - The claim that emotional outbursts by
the victim's family violated
Jenkins's rights
Claim T - The claim that the prosecution used
its peremptory strikes in a racially
discriminatory manner

Rule 32.2(a)(4) of the Alabama Rules of Criminal Procedure provides that claims
which were raised or addressed on appeal are barred from review by this Court. See also Ex
parte Forg, 630 So.2d 113, 115 (Ala. 1993), cert. denied, 114 S.Ct. 1664 (1994); Baldwin v.
State, 539 So.2d 1103, 1105 (Ala. Crim. App. 1988), cert. denied, 539 So.2d 1103 (Ala.
1989), cert. denied, 110 S.Ct. 206 (1989); Bell v. State, 518 So.2d 840 (Ala. Crim. App.
1988), cert. denied, 486 U.S. l036 (1988); Richardson v. State, 419 So.2d 289,291 (Ala.
Crim. App.), cert. denied, 419 So.2d 289 (Ala. 1982), bert. denied, 460 U.S. 1017 (1983).
Accordingly, the above eighteen claims are procedurally defaulted, at least in part, because
they were raised or addressed on appeal.
D. Claims Which Could Have Been But Were Not
Raised on Appeal Are Barred From Review

Fifteen of the claims raised in Jenkins's amended Rule 32 petition are barred from
-

review, at least in part, because' of Jenkins's failure to raise the clahns on' appeal. These
ftfteen daims are as follows: -- .
Oaim A - Guilt Phase Jury Instructions
Misstated The Law (part 2a)

I

I •. '

v .• . .)

13."",

1

513a

2a. The claim that the error resulting
from the trial court's allegedly
inadequate instructions on lesser
included offenses was compounded by
the trial court's and prosecutor's
misstatements of the law regarding
the elements of capital murder
Claim E - The claim that the trial court's jury
instruction on flight was misleading
Claim F - The claim that the trial court failed
to prohibit the jury from exposure to
publicity about the case after
Jenkins waived sequestration
Claim I - (part b)
b. The claim that the admission into
evidence of Jenkins's clothing and
his boots was improper because they
were linked to Jenkins solely upon
inadmissible hearsay
Claim L - The claim that Jenkins was denied his
right to grand and traverse jury
pools that were representative of the
community
Claim M - The claim that the trial court failed·
to provide funds for expert and
investigatory assistance
Claim N - The claim that Alabama's manner of
execution is cruel and unusual
punishment

14
f.;l.

G..... iK \•.o:.:ttTY
/1·
t

<'itd.:,'Y

c-ct.;;rr

514a

Claim P - The claim that Jenkins's death
sentence was disproportionate
punishment under state and federal
, law
Claim 0 - The claim that the trial court
improperly instructed the jury at the
penalty phase that its verdict was
merely advisory
Claim R - The claim that Jenkins was deprived
of his right to strike a petit jury
from a panel of impartial jurors
because a juror failed to answer voir
dire questions
Claim U - The claim that Jenkins was provided
counsel with insufficient criminal
and capital litigation experience
Claim V - The claim that Jenkins was deprived
of a full appeal from and an
appropriate review of his conviction
and sentence because all trial
proceedings were not transcribed
Claim W - The claim that St. Clair County
lacked jurisdiction to prosecute
Jenkins because the State failed to
prove that the offense occurred in '
St. Clair County where the victim's
body was found
Oaim X - The claim that the trial
court's denial of Jenkins's motion
for individually sequestered voir
dire violated his constitutional
rights

/

S'

/J..

:':P"I",

t.'[)!..ltJTY
,rl

515a

Claim Y - The claim that permitting the jury to
infer an abductionlkidnapping of the
victim from the identical act that
resulted in her murder - her
strangulation - fails to narrow the
class of persons eligible for the
death penalty
Rule 32.2(a)(5) of the Alabama Rules of Criminal Procedure provides that claims
which could have been but were not raised on appeal are barred from review by this Court.
See also Ex parte Singleton, 548 So.2d 167, 169-70 (Ala.

Daniels v. State, 650 So.2d

544,551 (Ala. Crim. App.), cert. denied, 650 So.2d 544 (Ala. 1994), cert. denieg, 115 S.Ct.
1375 (1995); Jackson v.

612 So.2d 1356, 1357 (Ala. Crim. App. 1992). Accordingly,

the above fifteen claims are procedurally defaulted, at least in part, because they could have
, been but were not raised on appeal.

n.

BRADY CLAIM

Jenkins alleged, in Claim K of his amended petition, that the prosecution failed to
make available to him "exculpatory materials" and llmitigating evidence" in violation of
Brady v. Maryland, 373 U.S. 83 (1963). Jenkins specifically claims: (1) that the prosecution
failed to provide him with evidence that another suspect had been questioned about Tammy
Hogeland's murder, and (2) that the prosecution withheld mitigating evidence at the penalty
phase. This
mitigating evidence included aspects of Jenkins's allegedly abusive childhood.
.
\

Although not specifically referenced in his amended petition, this mitigating evidence was
apparently contained in Jenkins's Taylor Hardin records and in the pre-sentence report.

:.;

...;

1

III

cr.

WlIK w":NfY
.'y /1

('1 Cr"(

r.c!JRT

J

!

516a

Turning first to the "other suspect ll information, the Court finds that Jenkins did
not meet his burden of proving this Brady claim at the evidentiary hearing. A Brady violation
occurs where: (1) the prosecutor suppressed evidence; (2) the evidence was favorable to the
defendant; and (3) the evidence was material to the issues at trial. Initially, Jenkins did not
prove that the evidence was suppressed.
The St. Clair County District Attorney and prosecuting attorney at Jenkins's trial,
Van Davis, testified at the evidentiary hearing that his discovery policy now, and at the time
of Jenkins's trial, was an "open-file policy." Anything in the file was available to defense
counsel for inspection and copying. (EH.539)1 When shown Petitioner's Exhibit 4, the
alleged "other suspect" information, Mr. Davis testified that he recognized the document, that
it was part of the·file, and that it was .absolutely not withheld from Jenkins's trial counsel.
. (EH. 540, 545, 546) Mr. Davis testified that it was his policy at the time of Jenkins's trial to
make the entire file available to the defense. Defense counsel would then be allowed to go
through the file and identify and mark any material they wanted copied.. The D.A's office
would then make photo copies for defense counsel. (Eli 542) This

contradicted

Jenkins's trial counsel's earlier testimony that he was not permitted to photocopy the file, but
instead had to copy by hand the informatIon he wanted.

541-42)

to

both parties, defense counsel was permitted to spend as much time looking at the file as was
\

/

needed. (EH. 374)

l"EH." denotes references to the transcript from the Rule 32 hearing.
17

517a

Mr. Davis further testified that he never removed anything from Jenkins's file and
considered nothing in a capital case to be work product. (EH.556) He stated that nothing
had been added to the file in the time period between the end of Jenkins's trial and the turning
over·of the file to the Attorney General's Office, unless it was some type of post-conviction
pleadings. (EH.559-60)
The Court also finds contradictions in Mr. Scofield's testimony concerning the
police report of the "other suspects." Mr. Scofield initially testified at the evidentiary hearing
that he did not "remember seeing anything in the file about other suspects," (EH. 298), but
subsequently testified that he was "absolutely positive" that he did not see the police report in
the file. (EH. 325) Based

-

-

-

the testimony presented at the evidentiary hearing, the

observation of the witnesses, and

determinations, it is the Court's finding that

Jenkins has failed to prove that the "other suspect" report was withheld by the prosecution in
violation of Brady.
Even assuming arguendo that the "other suspect" information was withheld, the
Court further finds that Jenkins has failed to prove that the information was either exculpatory
or material. The "other suspect'! information consisted of a Jackson,
Department

-"Police

wherein there was information from a Mississippi'

officer that an individual had been detained in that State. According to the report, the man
\

.

had been travelling on a bus,

talking.aQ9ut killipg_an4

/

and was

taking pills. The individual had signs of scars or scratches on his left forearm, and had in his

, . . . 7'

'.i -,'

J

18

1

:;J. C:...r'*cIK l.O;Ji'JTY

/:/..

.

,1

-

518a

possession bus tickets to continue on to Dallas, EI Paso, San Diego, and San Francisco. He
also had in his possession tickets that had been used from Richmond, Philadelphia, and
Washington, D.C. The tickets had been purchased in Fort Lauderdale.
The individual had been detained because Mississippi officials had received a
teletype from St. Clair County concerning Jenkins. The individual told the officer that he
thought he began riding the bus on April 19, 1989. He stated that he was asleep on the bus
when it arrived in Birmingham and he could not remember if he had gotten off the bus. The
Supplement also contained information that the individual detained in Mississippi matched
Jenkins's description except for his weight. The individual detained in Mississippi weighed
250 pounds, almost 100 pounds more than the 165 pound Jenkins. (C. 52i

The Court finds that this information was not exculpatory. The fact that an
individual was detained in Mississippi who resembled Jenkins in no way exculpated Jenkins
in Tammy Hogeland's murder. Van Davis testified at the evidentiary hearing that a BOLO

had been sent to agencies between Alabama and California that Jenkins was possibly
travelling by bus. (EH. 559) Mr. Davis further testified that they were not looking for an
unknown suspect, 'but that they were looking for Jenkins. (EH.' 559), Th"e
Mississippi, although generally

-

.

.

.

Jenkins's physical descnptio"n;

detained in
not match

Jenkins's weight. As previously noted, Jenkins, at the time of his arrest, weighed
approximately 100 pounds less than the individual detained in Mississippi.

21tC. It denotes references to the Clerk's record on appeal.
"

: ..... ...:

.i 'I

Y

.

1(,"'.,
1 o\"';j
I,

p

19

519a

The amount of evidence incriminating Jenkins in Tammy Hogeland's murder, at
the time the individual in Mississippi was detained, was overwhelming. Once it was
determined that the individual detained in Mississippi was not Jenkins, the authorities
continued to search for Hogeland's murderer. The detention of the individual in Mississippi
did not exculpate Jenkins and, thus, no Brady violation occurred.
Although unnecessary, the Court will go yet another step further to show that,
even assuming that the evidence was both suppressed and exculpatory, Jenkins did not prove
that it was material. The other suspect information would have been material "only if there
[was] a reasonable probability that, had the evidence been disclosed to the defense, the result
of the proceeding would have been different. A 'reasonable probability' is a probability
sufficient to undermine confidence in the outcome." United States v. Bagley, 473 U.S. 667,
682 (1985). 'Jenkins has offered no evidence that the "other suspect" information would have,
to a reasonable probability, changed the outcome of his trial. The evidence establishing
Jenkins's guilt was overwhelming, and the information would not have influenced the
outcome of his trial.
Moreover, the report was inadmissible hearsay arid Jenkins could not prove that it
would have been admissible at his trilll.Alabama law.

suspect'" '

information is not admissible. 'It is recognized that an accused is not entitled to prove,
\

without more, that another has been suspected of committing the crime fOf,which the accused
;ci]
is being tried.'" Land v. State, 678 So.2d 201,207 (Ala. Crim. App.
rule

,I

520a

in Alabama is that an accused is not entitled to introduce testimony that someone else was
suspected of committing the crime for which he is being tried. II Land, 678 So.2d at 207.
Here, the lIother suspect II was not a suspect at all. He was detained because there was a
possibility that he was Mark Allen Jenkins, the one and only suspect. For the above reasons,
there was no Brady violation concerning the lIother suspect ll information.
Turning next to the alleged withholding of mitigating evidence at the penalty
phase, the Court again finds that there was no Brady violation. The information that Jenkins
complains was withheld, allegedly mitigating aspects of his childhood and adolescent years
that are detailed on page 28 of the amended petition, was information that was within
Jenkins's knowledge and could not have been suppressed by the prosecution. There is no
. Brady violation where the information was available to the defense at the time of tria!. Carr v.
State, 505 So:2d 1294, 1"297 (Ala. Crim. App. 1987) Moreover, defense counsel testified at
the evidentiary hearing that he had some knowledge of most of the information that Jenkins
now claims was withheld. (EH. 319, 393)

._'.

-'

... -..:

.:

21

521a

m.

INEFFECTIVE ASSISTANCE OF COUNSEL

On December 10, 1996, and on January 20-21, 1997, an evidentiary hearing was
held on Jenkins's claim that he was denied effective assistance of counsel at trial and on
appeal. At the Rule 32 hearing, Jenkins was represented by counsel and presented evidence,
in the form of testimony and exhibits, in support of his ineffective assistance of counsel
claims. Based upon the evidence presented at the hearing, including the Court's observations
and evaluation of the witnesses' demeanor and credibility, Jenkins failed to prove that trial
counsel rendered ineffective assistance.
A. Standard Of Review

Ineffective assistance of counsel claims are governed by the United States
Supreme Court's decision in Strickland v. Washington, 466 U.S. 668 (1984). After
recognizing that the benchmark for judging any claim of ineffectiveness must be "whether
counsel's conduct so undermined the proper functioning of the adversarial process that the
trial cannot be relied on as having produced a just result," the Supreme Court announced in
Strickland that there were two components to an ineffective assistance of counsel claim:
first, the defendant must show that counsel's performance was
deficient. This requires showing that counsel Ptade errors so
serious that counsel was not functioning as the "counsel" :.
guaranteed the defendant by the Sixth Amendment. Second, the
defendant must show truli the defiCient performance prejudiced .
the defense..This requires showing that counsel's errors were so
serious as to deprive the defendant of a fair trial, a trial whose
result is reliable. Unless a defendant makes both showings, it
cannot be said that the conviction or death sentence resulted
from a breakdown in the adversary process that renders the
result unreliable. Id. at 687. The proper standard for attorney

C

522a

performance is an objective one: "simply reasonableness under
prevailing professional norms."
Id. at 688.
Judicial scrutiny of counsel's performance must be highly
deferential. It is all too tempting for a defendant to secondguess counsel's assistance after conviction or adverse sentence,
and it is all too easy for a court, examining counsel's defense
after it has proved unsuccessful, to conclude that a particular act
or omission of counsel was unreasonable. Cf Engle v. Isaac,
456 U.S. 107, 133-134 (1982). A fair assessment of attorney
performance requires that every effort be made to eliminate the
distorting effects of hindsight, to reconstruct the circumstances
of counsel's challenged conduct, and to evaluate the conduct
from counsel's perspective at the time. Because of the
difficulties inherent in making the evaluation, a court must
indulge a strong presumption that counsel's conduct falls within
the wide range of reasonable professional assistance; that is, the
defendant must overcome the presumption that, under the
circumstances, the challenged actipn "might be considered
sound trial strategy." See Micheal v. New York,
350
U.S. at 101. There are countless ways'to provide effective
assistance in any given case. Even the best criminal defense
attorneys would not defend a particular client in the same way.
See Goodpastor, The Trial for Life: Effective Assistance of
Counsel in Death Penalty Cases, 58 N.Y.U.L.Rev. 299, 343
(1983).
Id. at 689-690 (emphasis added). After a petitioner has identified the specific acts or
omissions which he alleges

not the result of reasonable professional judgment, the court
.

. -..

; ":.

must determine whether those acts ate "outside'the wide range of professionally competent
assistance." rd. at 690. In making this determination, "the court shoUld recognize, that
counsel is strongly presumed to have rendered adequate assistance and made all significant
decisions in the exercise of reasonable professional judgment." Id. (emphasis added). The
J ;.el
v

{

.n:c'.!' t..,:..."':ll i-

,

.,., L:"",Ji

l.:J-iNrt

(.2;,.I.;.ka"..</
•

't'

.

cnU:{T

523a

Supreme Court said that courts must also recognize that strategic choices made after
reasonable investigation are virtually unchallengeable, and the reasonableness of a counsel's
actions may be determined or substantially influenced by what the defendant has told him. Id.
Even when a counsel's performance is outside the wide range of professional
reasonableness, the judgment in question is not to be set aside unless the petitioner
affirmatively proves prejudice. Id. at 691-693. It is not enough that a defendant "show that
the errors had some conceivable effect on the outcome of the proceeding." Id. at 693.
Instead:
The defendant must show that there is a reasonable probability
that. but for counsel's unprofessional errors, the result of the
proceeding would have been different. A reasonable probability
is a probability sufficient to undermine confidence in the
outcome.
Id. at 694 (emphasis added). More specifically, the Supreme Court held:
When a defendant challenges a conviction, the question is
whether there is a reasonable probability that, absent the errors,
the factfinder would have had a reasonable doubt respecting
guilt. When a defendant challenges a death sentence such as the
one at issue in this case, the question is whether there is a
reasonable probability that, absent the errors, the sentencer •.;
including an appellate court, to the extent it independentJy
reweighs the evidence - would have concluded that the balance .
of aggravating and mitigating circumstances did not warrant
death.
Id. at 695. In making a prejudice determination, the totality of the evidence that
the judge must be considered.

\

before

/

524a

Three additional Supreme Court decisions have a bearing on evaluating Jenkins's
ineffective assistance of counsel claims. The first is Engle v. Isaac, 456 U.S. 107 (1982), in
which the Supreme Court held:
Every trial permits a myriad of possible claims. Counsel might
have overlooked or chosen to omit respondent's due process
argument while pursuing other avenues of defense. We long
recognized, however, that the Constitution guarag.tees criminal
defendants only a fair trial and a competent attorney. It does
not insure that defense counsel will recognize and raise every
conceivable constitutional claim, '"
Id. at 134 (emphasis added).
The second is United States v. Cronic, 466 U.S. 648 (1984), in which the
Supreme Court held:
The right to the effective assistance of counsel is thus the right
of the accused to require the prosecution's case to survive the
crucible of meaningful adversarial testing. When a true
adversarial criminal trial has been conducted -- even if defense
counsel may have made demonstrable errors -- the kind of
testing envisioned by the Sixth Amendment has occurred.
Id. at 656 (footnotes omitted). The Cronic decision also held that: n[b]ecause we presume
that the lawyer is competent to provide the guiding hand that the defendant needs ... the
-

-

-

burden rests on the accused to demonstrate a constitutional violation. II Id. at 658 (footnote
omitted) .(emphasis added).
The third Supreme Court decision is Smith v. Murray, 106 S.Ct. 2261 (1986). In
that case, the Court recognized that the process of winnowing out weaker arguments on

2S

525a

appeal and focusing on those more likely to prevail is the hallmark of effective appellate
advocacy. Id. at 2667. The Court concluded:
It will often be the case that even the most informed counsel
will fail to anticipate a state appellate court's willingness to
reconsider a prior holding or will underestimate the likelihood
that a federal habeas court will repudiate an established state
rule. But, as Strickland v. Washington made clear, n[a] fair
assessment of attorney performance requires that every effort be
made to eliminate the distorting effects of hindsight, to
reconstruct the circumstances of counsel's challenged conduct,
and to evaluate the conduct from counsel's perspective at the
time." 466 U. S., at 689, 104 S. Ct., at 2065.
477 U.S. at 536.
Jenkins has raised numerous allegations of allegedly ineffective assistance of
counsel at ,trial and. on appeal. These allegations are found in Claim D of the amended
.petition. Jenkins was represented at trial by Doug Scofield and Stan Downey. Mr. Scofield
testified at the hearing on Jenkins's Rule 32 petition; however, Mr. Downey was not called as
a witness. The Court is unaware of any reason why Mr. Downey would have been
unavailable to testify.
Mr. Scofield graduated from Cumberland Law School in 1984, and was admitted
to the State Bar that same year. Upon graduation, Mr. Scofield went to work for the
.
I

..

'.

Birmingham law firm of Redden, Mills and Clark The Court notes that this is an outstanding
criminal defense firm. Mr.·SCofield described Mr. Redden and Mr. Clark as top criininal
defense attorneys whom he had the privilege of working' with -for almost five years.·
In
\
addition to working with these more experienced attorneys, Mr. Scofield had, at the time of

/

Jenkins'trial, acted as lead counsel in a number offelony trials. The types of cases in which

Mr. Scofield assisted, ranged from Medicaid fraud to capital murder. At the tin;1e of Jenkins's

.

.'c;:PJ

u

J ii
I I _,.

_,

'\

v

'J

/

,

",""'"

'"'' /)
"".

26

526a

trial, Mr. Scofield's practiCe was 80 percent criminal. Mr. Scofield additionally did a
substantial portion of the criminal appellate work for the firm. He handled a wide variety of
cases and successfully obtained several reversals on appeal. Mr. Scofield stated that this
experience taught him the importance of preserving and protecting a record.
Mr. Scofield was first contacted concerning this case by Jenkins's landlord, John
Anguine. Subsequently, he was put in touch with Jenkins's grandmother, Doris Wagoner.
Mr. Scofield informed Mrs. Wagoner of what fees he would need to accept Jenkins as a client.
Mrs. Wagoner informed him that she would cover his costs and pay him for work rendered
until she decided if she wanted to retain his services. Mr. Scofield attended a line-up and
conducted the preliminary hearing prior to being retained or appointed in the case. At some
later time, Mrs. Wagoner informed Mr. Scofield that he would not be retained.
On

14, 1989, the trial court appointed Mr. Scofield to represent

Jenkins. Also appointed was Luther Gartre11, a local attorney. Mr. Gartrell subsequently
withdrew due to a conflict of interest. On October 2, 1989, Mr.

was appointed

to represent Jenkins. Mr. Scofield testified at the hearing that, by agreement, Mr. Downey was
primarily responsible for the penalty phase of Jenkins's trial. Due to the fact that Mr. Downey
did not testify, the Court wa,s

privy to his background and experience at the

of

Jenkins's trial, nor to any actions taken and decisions made before, during, and after the trial.
,_

--::

:...:::.... . .

__

-::""'.-:':"';' ..:

'"._ - .. - . . . . _ .-r. -

However, the trial transcript reflects that he was a local attorney with more than five years
experience in the practice of criminal law.
\

Mr. Scofield and Mr. Downey were also Jenkins's attorneys of record on appeal.

!

However, Mr. Scofield testified that he was assisted tremendously by Hillary Hoffinan, an
attorney with the Capital Resource Center. In fact, the evidence indicated that Ms. Hoffman

UtG

S1

21

I

527a

did the majority of the work at the appellate level. Mr. Scofield's involvement was limited to
reviewing Ms. Hoffman's preparation for "signatures and things of that nature". The Court
notes that the Capital Resource Center represented death row inmates almost exclusively, and
the majority of that representation took place at the appellate level. The quality of
representation an inmate received from the organization is difficult to question.
The Court will separate and address Jenkins's claims of ineffective assistance of
counsel below in the following manner: ineffective assistance of counsel at the guilt phase;
ineffective assistance of counsel at the penalty phase; and ineffective assistance of counsel on
appeal.
B. Ineffective Assistance or Counsel
At The Guilt Phase

The specific claim$ of ineffective assistance of counsel at the guilt phase will be
addressed in accordance with the lettering used by Jenkins in the amended petition. Some of
these claims, as worded in the petition, contain both guilt and penalty phase ineffective
assistance of counsel claims. As previously noted, the Court will address the penalty phase
ineffective assistance claims separately below.
(a) The claim that trial counsel did not properlyprepare or investigate in order to pl'esent an
appropriate defense and a proper case-againstthe imposition of the death penalty·
-

The only contention
phase, is that "[c]ounsel's

.

.

-

by

.- -

.

-

..

:: ...;

under this claim, related to the guilt
-

':Vas

-

.

limited to, conducting

interviews with guilt-phase witnesses to support the defense.... " (Jenkins's amended petition at
p. 9) The claim is clearly subject to dismissal because it violates the "clear and specific

J:H

II

28

528a

statement of the grounds" requirement of Rule 32.6(b) of the Alabama Rules of Criminal
Procedure. However, based upon evidence presented at the evidentiary hearing and
representations made by counsel for Jenkins, this Court will address a specific contention
even though it was not properly pleaded.
During the evidentiary hearing on his petition, Jenkins called Frieda Vines as a
witness. (EH 362) The State objected because the amended petition contained no claim
related to Ms. Vmes. (EH.362-365) Counsel for Jenkins responded that her testimony was
relevant to his claim that trial counsel was ineffective "for failure to investigate." (EH 364)
Such a claim does not constitute "a clear and specific statement of the grounds upon which
relief is sought" and certainly does not include "full disclosure of the factual basis of those
grounds." Rule 32. 6(b) AR. Crlm.P. Despite Jenkins's failure to adhere to the law, this Court
will attempt to address the claim. However, due to the paucity of the contention, the Court
does so at the risk of misinterpreting the claim and the relevance of the evidence offered to
support it.
Frieda Vines was a waitress employed by the Omelet Shop at the time of Tammy
Hogeland's murder. (EH. 366) Ms. Vmes knew the victim in her capacity as a co-worker and
was also familiar

Jenkins as a

of the Omelet Shop. (EH.

evidence at trial showed that, on the njght of the murder,
.,.

_.

The

Vines was working at the
-- -- - -.-

.

'.

Riverchase Omelet Shop. (R. 959i Tammy Hogeland had also come to work at the
Riverchase Omelet Shop that night. (R. 963-64) However, Ms. Hogeland was
sent to the 10th Avenue location by Manager Doug Thrash. (R. 963-64) Mr. Thrash testified
at trial concerning what he observed at the Riverchase Omelet Shop on the

,:,.i

U iole,I-_'"
..... -.".r1Ji!l!!J

3"R." denotes references to the record on appeal..

crime.

529a

(R.958-976) Specifically, Mr. Thrash testified that Jenkins came into the Omelet Shop and
appeared to be intoxicated. (R. 959-961) He observed Jenkins talking with both Frieda Vines
and another waitress named Shirley Harrison. (R. 962) Mr. Thrash further testified that he
overheard someone mention the 10th Avenue Omelet Shop. (R.962) However, Mr. Thrash
could not recall which waitress was involved in that particular conversation. (R. 962) Frieda
Vines did not testify at Jenkins's trial.
Because there is no relevant claim in the petition, the Court will address the
testimony of Frieda Vines based on the following assertions of counsel for Jenkins at the
evidentiary hearing:
MR. FLOOD: [counsel for petitioner]
Subject to connection, it is my
position that Doug Thrash was not
in reality
only an important
to this trial, but was an important
defense witness. He had
information for the defense in this
case. Going into the trial, Mr.
Scofield was under a certain
impression as to what Mr. Thrash was
going to testify to. I'm trying to
elicit what his impression was of
Durwood Thrash as a witness·prioitb ,
trial and then what happened at
trial that changed.
MS. DANIEL: [counsel for state]
Well, Your Honor, that is in the trial
transcript. I'm sure he impeached
him on whatever he testified to
differently. That is all in the
record.

30

530a

. rvIR. FLOOD: This issue is ineffective
assistance of counsel. It is our
position Mr. Scofield should have
called witnesses to rebut certain
State evidence.

MS. DANIEL: That claim is nowhere in the
petition. Durwood Thrash's name
appears nowhere in the petition.
THE COURT: I don't recall it either.
Does it?

rvIR. FLOOD: Durwood Thrash's name does

not. We have pled this. They
failed to investigate and prepare
witnesses to rebut the State's
case. That is clearly in there.

THE COURT: Durwood Thrash testified at
the trial?

rvIR. FLOOD: Yes. Frieda Vines, who would

have contradicted Durwood Thrash's
testimony, did not testify. She was
interviewed by the police in this
case. She gave a statement that was
exculpatory to Mr. Jenkins, but was
not produced as a
..
(EH. 331-32) Counsel for Jenkins
subsequently
. . ..
.
........
.

.

Vines
-Frieda
. -. - ..
--

evidentiary hearing. (EH. 365)

..

-.

.

atthe.
__ . .
.. .

-

she did _not recall

a conversation between herself and Jenkins regarding the
365-69) The claim that trial

'

for.not

.Omelet

(Ea.
/

at trial

is meritless.

5 'I 1997

31

:J

531a

,

.,

r;j
I

Trial counsel for Jenkins impeached Mr. Thrash by pointing out on crossexamination that he did not mention the "10th Avenue" comment in his statement to the
police. (R. 973) On cross-examination at the evidentiary hearing, Ms. Vines additionally
stated that although she did not recall mentioning the lOth Avenue location to Jenkins, she
had no idea whether someone else might have. (EH. 369-70) Contrary to Jenkins's assertion
at the evidentiary hearing, nothing in Frieda Vines statement to police was exculpatory.
Trial counsel's failure to call Ms. Vines was not outside "the wide range of
reasonable professional assistance." Strickland, 466 U.S. at 689. There is also no reasonable
probability that, had Ms. Vines testified, the resulting conviction would have been different.
Id. at 694.

(b) The claim that trial counsel failed
to utilize funds provided by the
trial court to retain a private
investigator

The trial record reveals that prior to trial, counsel for Jenkins requested and was
granted funds to obtain a private investigator. (R. 3, 56) At the Rule 32 evidentiary hearing,
trial counsel testified that he never made use of the granted funds. (EH. 311) However,
Jenkins failed to prove that this inaction constituted deficient performance. or resulted in
prejUdice as required by Strickland.
During the evidentiary hearing, counsel for Jenkins merely asked Mr. 'Scofield

/

whether a private investigator would "have been helpful" and whether he had a "need" for
one. (EH 311) Mr. Scofield's responses were, respectively, "[c]ould have been" and "I could

32

S '/ 1997
tT. Ll.iuli UMHY
/)
t

.,

C!E:t CRc:J!T

532a

have used one probably." (EH. 311) As Strickland made clear, "[a] fair assessment of
attorney performance requires that every effort be made to eliminate the distorting effects of
hindsight, to reconstruct the circumstances of counsel's challenged conduct, and to evaluate
the conduct from counsel's perspective at the time." Strickland, 466 U.S. at 689.
On cross-examination, the State brought out more detail as to why the allotted
funds were never put to use. Specifically, Mr. Scofield related the following:
I originally requested funds because I was contacted by a
private investigator who indicated to me that he might have
some contacts with the family and could do some work for me
with regard to getting specific information. After I talked to
him, I filed my motion. After the Judge granted the motion and
gave me the funds, the Judge basically said "You can use
anybody you want to. I don't believe this particular guy is a
credible investigator." He had testified maybe in the Ricky
Holladay didn't think he
Dale Adkins case or sometPing.
was credible. One of the main reasons I went to even request
funds was because I wanted to hire this'guy. The Judge did not
know this was who I was considering. Once he made that
representation, I thought, "Oh, well, there goes my investigator.
He was the one going to help me. Judge was giving me money,
and now he is saying he is not going to let him testify in this
case."
(EH. 378-79) Mr. Scofield then

that

conducted
his. own
investigation in
..
- ..
•.. j' '-

-'-

preparation for the trial. (EH.379) He stated that, as a result of his efforts, he came to
.-- . '.-

.--

--.

believe that the case lent itself to a "very strong" reasonable

---'

--Amotl"g other

theories, he related the reasonable doubt defense to the issues of identity, insufficient
, time to
commit the charged offense in the manner alleged by the State, and insufficiency of the
evidence as related to the kidnapping and robbery charges. (EH.380-384) The Court finds
that the investigation conducted by trial counsel was more then sufficient

..-.
,"J

c,

533a

strategic choice to pursue a reasonable doubt theory of defense. The action or, under this
claim inaction, of trial counsel was not outside "the wide range of reasonable professional
assistance." Strickland, 466 U.S. at 689. In addition, Jenkins has not shown a reasonable
probability that, but for trial counsel's failure to hire an investigator, the result of the
proceeding would have been different. Id. at 694.
(c) The claim that trial counsel failed
to utilize funds provided by the
trial court for the purpose of
retaining a forensic expert at Mr.
Jenkins's trial

At the evidentiary hearing, Jenkins presented no evidence in support of this claim.
The claim, as set forth in the petition, alleges that the failure to retain a forensic expert
allowed "critical evidence ... to go unrebutted." (Jenkins's amended petition at p. 10)
.

.

due to the sparse nature of the allegation itself, and the fact that no relevant

evidence was presented at the hearing, this Court is unaware of what "critical evidence"
Jenkins is referring to in the claim.
The State presented three witnesses at trial who could fairly be classified as
forensic experts. It is unclear if Jenkins's claim relates to the testimony of one specific expert
or to all three. Rule 32.6(b) of the Alabama Rules

requires that a claim

for relief include "full disclosure of the factual basis" of the grounds upon which relief is
sought. This claim clearly fails to meet that requirement.
Jenkins failed to present any evidence at the hearing to clear up the ambiguity of
the claim as set forth in the petition. Counsel for Jenkins merely asked trial counSel if "a
forensic expert could have been helpful in this case?" (EH. 312) Mr. Scofield responded,
U[0 ]bviously, when I asked for the money, I am thinking it could be." Id. Again, there was no

. ! ".,: )'

W-._ ..

'I, r,<":G7
II :

CT. ('!.ftiK \.u:.mfY

34

534a

indication as to what type of forensic expert was being referenced. Jenkins has the burden to
prove by a preponderance of the evidence the facts necessary to show that he is entitled to
relief. Rule 32.3, A.RCrim.P. Jenkins did not meet the required burden.
Finally, on cross-examination by the State, Mr. Scofield testified concerning his
preparation forthe forensic evidence presented at trial by the State. (EH. 374-78,384-85)
The Court fmds that Mr. Scofield's preparation was both extensive and significant. Mr.
Scofield stated that he was in no way surprised by any of the forensic evidence presented at
trial. He effectively cross-examined all of the State's forensic experts, pointing out
discrepancies and shortcomings which supported the chosen theory of defense. Trial
counsel's actions, in relation to this claim., were not outside "the wide range of reasonable
professional assistance." Strickland, 466 U.S. at 689. In presenting no forensic expert
testimony at the Rule 32 hearing, Jenkins has shown no reasonable probability that, had a
particular forensic expert been retained by the defense, the result of the trial would have been
different. Id. at 694.
(d) The claim that trial counsel failed
to challenge the systematic
underrepresentation of
African-Americans on both the·grand
jury and petit jury venires
..... _.:. '. :

."1

.

-}

Jenkins has failed to
upon which relief was sought. Likewise, he presented

of the factual basis" of the grounds

no evidence in support of this claim at

the evidentiary hearing. He has, therefore, failed to meet the burden placed on him by Rules
32.3 and 32.6(b), ARCrim.P.· Furthermore, the State presented uncontradicted evidence that,
at the time of Jenkins's trial, jury panels were selected at random from a list of licensed

.) 1 1597
"I. "".r\lrt

1Y

QE:{ c.'\CtJrr CCUllT

3S

/

535a

drivers. (EH. 540-41) The appellate courts have repeatedly held that this method of selection
is constitutionally proper. Clemons v. State, [CR-94-0270, December 20, 1996, slip op. at 1617] _

So.2d _

(Ala. Crim. App. 1996); Inabinett v. State, 668 So.2d 170, 173 (Ala. Crim.

App. 1995); Hogan v. State, 663 So.2d 1017 (Ala. Crim. App. 1994); Sistrunk v. State, 630
So.2d 147, 149 (Ala. Crim. App. 1993); Stewart v. State, 623 So.2d 413,415 (Ala. Crim.
App. 1993); Joyce v. State, 605 So.2d 1243, 1245 (Ala. Crim. App. 1992); Rayburn v. State,
495 So.2d 733, 735 (Ala. Crim. App. 1986); Vaughn v. State, 485 So.2d 388,388-89 (Ala.
Crim. App. 1986). "A failure to include the name of every qualified person on the jury roll is
not a ground to quash an indictment or a venire, absent fraud or purposeful discrimination."
Joyce, 605 So.2d at 1245. Counsel can not be deemed ineffective for failing to object to an
unobjectionable matter. Palmer v. Wainwright 725 F.2d 1511, 1523 (11th Cir. 1984)
. Therefore, Jenkins has proven neither deficient performance nor prejudice.
(e) The claim that trial counsel failed
to adequately voir dire and strike
for cause jurors who expressed
strong beliefs in favor of the death
penalty

Jenkins presented no evidence relevant to this claim at the evidentiary hearing.
(EH. 286-89) It was established at the Rule 32 hearing that Stan Downey-was prunarilyresponsible for the selection of the jury due to his status

as a IJlocal"-attomey;--(EH287) The

Court notes that Jenkins did not call Mr. Downey as a witness at the hearing.

is true

despite the fact that there was nothing to indicate that Mr. Downey was unavailable to testify.
Jenkins has the burden to prove by a preponderance of the evidence the facts
necessary to show he is entitled to relief. Rule 32.3, A.RCrim.P. In

J

:;-'. \..l...fiJi1.

tvUiJN fY

CI1c:::r C:::URT

,I

536a

he has failed to prove deficient perfonnance and certainly has not shown a reasonable
probability that, had the voir dire been conducted differently, regarding the jurors in question,
the result of the proceedings would have been different. Strickland, 466 U.S. at 694.
(1) The claim that trial counsel
failed to adequately voir dire
and strike for cause jurors who
stated that they believed a man
should testify if he is
innocent

Excluding general questions of trial counsel about the jury selection, Jenkins
presented no evidence relevant to this claim at the evidentiary hearing. (EH. 286-89) At the
hearing, it was established that Stan Downey was primarily responsible for the selection of the
jury due to his status as a "local" attorney. (EH. 287) The Court again notes that Jenkins did
. not call Mr. Dowp.ey

a witness at the hearing, and there was nothing to indicate that Mr.

Downey was unavailable to testify; The record reveals that the trial court instructed the jury
as follows:
THE COURT: Ladies and gentlemen, the defendant in this case
has elected not to testify. That is his right. The State has the
burden of proving the defendant's guilt beyond a reasonable
doubt. The defendant not required to proye
.. _
Therefore, I instruci you that you are not permitted to draw any .
inference or conclusion from the defendant's failure to testify in, .
this cas·e.·
. .....
-- .- - - - . ' . -(R. 1687-:88) Jurors are presumed to follow there instructions. Taylor v. State, 666 So.2d 36,
,-':"

\

70 (Ala. Crim. App. 1994), afrd, 666 So.2d 73 (Ala. 1995), cert. denieg, 116 S.Ct. 928

/

(1996).

37

537a

Jenkins has the burden to prove by a preponderance of the evidence the facts
necessary to show he is entitled to relief. Rule 32.3, A.R.Crim.P. In presenting no evidence,
he has failed to prove deficient performance and certainly has not shown a reasonable
probability that, had the voir dire, of the potential jurors in question, been conducted
differently, the result of the proceeding would have been different. Strickland, 466 U.S. at
694.
(g) The claim that trial counsel failed
to adequately voir dire jurors who
expressed some opposition to the
death penalty
In his petition for relief: Jenkins specifically relates this claim to two particular

veniremembers, C.E. and M.E.. (Jenkins's amended petition at.p. 11) At the evidentiary
hearing, Jenkins failed to present any evidence in support of this claim and did not question
trial counsel concerning the matter. Jenkins who, under Strickland and the Alabama Rules of
Criminal Procedure, has the burden of proof: failed to meet that burden.
Additionally, the trial record directly refutes this claim. Both C.E. and M.E.
expressed strong, if not unequivocal, opposition to the death penalty. (R. 216, 221-225)
Specifically, the two veniremembers stated that they were "irrevocably committed to vote
against the death penalty regardless of the evidence." (R. 382-83) Despite these responses,
,

trial counsel requested, and was granted permission, to question the potential jurors further on
an individual basis. (R. 402-414) Defense counsel's attempts to "rehabilitate" the two

I

('F'"J •.
p
j

,6M-

IJ'.•..,. i:-. ikI

SL lL"\iii

CtE.q:< .CHCJff

1

38

/

538a

veniremembers were unsuccessful. They were properly removed for cause over the objection
of defense counsel.
The appellate courts rejected Jenkins's claim that C.E. was improperly removed
for cause. Jenkins v. State, 627 So.2d 1034, 1042-43 (Ala. Crim. App. 1992) atrd, 627 So.2d
1054 (Ala. 1993). The Court finds M.E.'s responses even more unequivocal than those of
C.E. (R. 409-411) Jenkins has offered nothing to indicate what would constitute an
"adequate" voir dire, and trial counsel can not be deemed ineffective for failing to change the
opinion of an individual expressly opposed to capital punishment. The efforts which were
undertaken to rehabilitate the two veniremembers can not be labeled "outside the wide range
of reasonable professional assistance." Strickland, 466 U.S. at 689. Additionally, in
presenting no evidence regarding the claim, Jenkins has failed to prove prejudice.
(h) The claim that trial counsel
failed to conduct a thorough and
probing voir dire

In setting forth this claim in his petition, Jenkins failed to include a "full

disclosure of the factual basis" of the grounds upon which he contends he is entitled to relief.
.

.

Rule 32. 6(b), AR Crim.P. Likewise, other than general questions of trial counsel about the
. --

-

'.

.- - ..

.

jury selection, Jenkins presented no evidence relevant to this claim at the evidentiary hearing.
(EH. 286-89) In fact, it was established at the hearing that Stan Downey was primarily
i

responsible for the selection of the jury due to his status as a "local" attorney. (EH. 287).

j

1

.'

,

539a

However, Jenkins failed to call Mr. Downey as a witness. There was no indication that Mr.
Downey was unavailable to testify.
Jenkins has offered nothing concerning how the voir dire of the jury panel should
have been conducted. He has not shown that the voir dire, as handled by trial counsel, fell
outside "the wide range of reasonable professional assistance." Strickland v. Washington, 466

u.s. at 668.

Furthermore, Jenkins has not shown a reasonable probability that, had a different

method of voir dire been employed, the result of the trial would have been different. Id. at
694-95. Jenkins has the burden to prove by a preponderance of the evidence the facts
necessary to show that he was entitled to relief. Rule 32.3, ARCrim.P. He has failed to meet
his burden.
. (i) The claim that trial counsel failed
to take action to
the record
reflect the race of the veniremembers struck from Jenkins's jury

This claim is meritless for the reasons set forth in 0), infra.

0) The claim that trial counsel failed

to object to the prosecution's use
of peremptory -challenges against
African-American veniremembers in a '
. - -:: ..
-; -racially discriminatory fashion in .:
violation of Batson v. Kentucky, 476
U.S. 79 (1986) and Ex parte Branch,
526 So.2d 609 (Ala. 1987)
\
On Apri130, 1986, the United States Supreme Court decided Batson v. Kentucky,
-'

476 U.S. 79 (1986), which held that a State denies a black defendant equal protection when it

tpan

puts him on trial before a jury from which members of his race have been purposefully
.
a

:11

40

/

540a

excluded. The jury which convicted Jenkins was struck and empanelled on March 13, 1991.
(R.443-51) On February 7, 1991, trial counsel for Jenkins filed a IImotion to enjoin the
prosecution from utilizing his peremptory challenges to systematically exclude minorities
from the jury panel. II (C.

R38) In support of the motion, counsel asserted that Jenkins

lI[was] part Mexican-blood, and [was] charged with killing a white person. II Id. Trial counsel
argued that the motion addressed lIall minorities ll , including blacks, despite the fact that the
law did not support that contention. (R.39) At the relevant time, a defendant could establish a
prima facie case of "purposeful discrimination in selection of the petit jury solely on evidence
concerning the prosecutor's exercise of peremptory challenges at the defendant's trial. "
Batson, 476 U.S. at 96. However, to establish such a case, lithe defendant first must show that
.he

.

"

a member of a cognizable racial group and that the prosecutor ha[ d] exercised

peremptory challenges to remove from the venire members of the defendant's race. II, Id. The
claim in the amended petition relates to IIAfrican-American veniremembers. 1I (Jenkins's
amended petition at p. 37) Because Jenkins is not an African American, an objection to the
striking of members of that race would have'been meritless a(the relevant tiIiie: .
Subsequent

conviction,

-decIded'

Powers v. Ohio, 499 U.S.-'4oo,'4bi·17 (19511),
clause, a criminal defendant may object to

.
-

exclusions of jurors through peremptory
.

\

challenges whether or not the defendant and the excluded jurors share the' same race. Powers
was a change in the law. Farrwell v. Davis, 3 F.3d 370, 371-72 (I Ith Cir. 1993). Alabama

541a

courts on many occasions have refused to hold trial counsel's performance ineffective for
failing to forecast changes in the law. State v. Tarver, 629 So.2d 14, 17-18 (Ala. Crim. App.
1990), affg, 590 So.2d 369 (Ala. 1991), cert. denied, 112 S.Ct. 1594 (1992); Morrison v.
State, 551 So.2d 435 (Ala. Crim. App. 1989), cert. denied, 495 U.S. 911 (1990). It appears,
however, that trial counsel did forecast Powers. The trial court simply did not share trial
counsel's foresight. Trial counsel's performance was certainly not outside "the wide range of
reasonable professional assistance." Strickland v. Washington, 466 U.S. at 689. Finally,
there is no reasonable probability that had a BatsonIPowers motion been made and entertained
by the trial court, the result of the trial would have been different.
(k) The claim that trial counsel failed to
supplement the record before the Alabama
Court of
Appeals and the Alabama
Supreme Court with facts to show that the
prosecution removed all of the
African-Americans from the venire to
support his Batson argument

Trial counsel Doug Scofield testified at the

hearing that he continued

to represent Jenkins on appeal. (EH.403) Although he was the attorney of record, Mr.
"

"

-

Scofield stated that he was assisted a great deal by an attorney, with the Capital Resource
Center, Hillary Hoffman. (Eli: "40SY the-Couri notes that the Capital Resource Center
represented death row inmates almoSt excluSively and the majority: oftruirrepresentation was
at the appellate level. Regarding the extent of Ms. Hoffinants involvement in the case, Mr.
Scofield stated the following: I continued to be involved in the sense of Hillary would prepare
things. I would review them for signatures and things like that.

J I 19ii

542a

She did the majority of the work after that point. I reviewed
court opinions. I reviewed her drafts and this, that and the
other. Primarily, at that point, she became more involved in the
actual appellate aspect of the case. I argued the case before the
Courts. In terms of the actual preparation, she would make
drafts, send them to me and I would review them.
(EH. 404) The Court does not find it to be insignificant that the Capital Resource Center was,
in essence, raising the issues on appeal and preparing the supporting argument. The past
experience of an attorney is an important consideration in evaluating ineffective assistance of
counsel claims. See State v. Whitley, 665 So.2d 998, 999 (Ala. Crim. App. 1995)(denying
ineffective assistance of counsel claim while pointing out that "[d]efendant's attorney had
extensive experience in the trial of criminal cases and specifically homicide cases. ")
Regarding the specific claim of "failure to supplement the record, II Mr. Scofield
testified that he attempted to do so but was unsuccesstul. (EH 421) The relevant testimony
reads as follows:
A. [Mr. Scofield] I attempted
to get Van Davis to stipulate to the
number of blacks that were on the
general jury panel, and the number
- -, that were removed.

Q."[counselfor.Jenkins] Didyou
know you needed to somehow provide
that information in the record in
order to support a Batson claim?
A. Based on the Court's opinion that it
was not in there, we felt it was
necessary to supplement. Again,
pursuant to the Rules, we proceeded
' ',-j'
U
_J

oJ

1•

'"

cr. ClAiH UiLJNlY
C:RC!.![f CCURT

43

3 )/)

543a

,

to try to get a stipulation of
counsel to provide that information
for the Appellate Court.

Q. Did Van Davis agree to stipulate to
that?

A No, he did not.
(EH.421) This Court will not find appellate counsel ineffective because, for whatever reason,
the D.A would not agree to the requested stipulation.
Finally, Jenkins has failed to prove that, if the record had been supplemented, the
result of the appeal would have been different. Strickland, 466 U.S. at 694. Jenkins has the
burden to prove by a preponderance of the evidence the facts necessary to show that he is
entitled to relief. Rule 32.3, ARCrim.P. Viewing the evidence in a light most favorable to
he has merely shown that the prosecutor removed three African-Americans from the
venire through the use of peremptory strikes. A party making a Batson challenge bears the
burden of proving a prima facie case and, in the absence of such proof: the prosecution is not
required to state its reasons for its peremptory challenges. Ex parte Birg, 594 S_0.2d 676,679
(Ala. 1991); Harrell v. State 571 So. 2d 1270, 1271-1272(Ala.1990)., In_otherwprds,the
1

burden shifts to the

only after a prima facie c:ase

bas

established. Batson v. Kentucky, 476 U.S. 79, 97-98; Ex parte Branch, 526 So.2d 609, 623
(Ala. 1987). In determining

there is a prima facie case, a court is to

all

relevant circumstances which could lead to an inference of discrimination. Id. at 622. In
Branch. the Alabama Supreme court set forth a nonexhaustive list of nine types of evidence

1::0

:'

544a

that could be used to raise such an inference. Id. at 622-623. The only evidence Jenkins has
asserted is that the State removed three African-Americans from the venire. A defendant
must offer some evidence in addition to the striking of blacks that would raise an inference of
discrimination. Jenkins, who has the burden ofproot: has not presented sufficient evidence to
establish a finding of prima facie discrimination. Therefore, the claim is dismissed.
(1) The claim that trial counsel failed

to secure transcription of critical
portions of the proceedings
including numerous bench conferences
and thereby failed to adequately
preserve the record for review

Jenkins claims that trial counsel failed to secure "critical" portions of the
proceedings and thereby failed to preserve the record for review. This claim is merely
. followed by :various cites to the record. However, no evidence was presented by Jenkins at
the Rule 32 hearing concerning this claim. Nothing was offered concerning the substance of
untranscribed exchanges, much less why they were "critical." An indication that they
may not have been "critical," was trial counsel's testimony on cross-examination that he had
.

.

_..

extensive appellate experience and, therefore, knew the importance of preserving and
I

..

.

..-

-

protecting a record. (EH. 34142) JeDkins has the burden to prove by a preponderance of the
evidence the facts necessary to show that he is entitled to relief. Rule 32.3,ARCrim.P. In
-- ..
presenting no testimony or evidence, Jenkins failed to meet the burden of proof required by
\

/

the Rules of Criminal Procedure. Additionally, he has shoWn no reasonable probability that,

,DeL')"""'."/

'I"'""j

ST. ClAlR WUN/Y

'O.ERK CRC:JIT cm::rr

45

'1,) I /

545a

.. . /

if the proceedings in question existed and they had been transcribed, the result of the trial or
subsequent appeal would have been different. Strickland, 466 U.S. at 694.
(m) The claim that trial counsel failed
to object to the improper arguments,
misleading statements of facts and
law, and other misconduct of the
prosecuting attorneys throughout
trial

Jenkins did not question trial counsel in any manner related to this claim at the
evidentiary hearing. Based on that fact and the lack of an underlying factual basis for the
claim, Jenkins has failed to meet the requirements placed upon him by Rules 32.3 and 32.6(b),
ARCrim.P.
. Trial counsel testified that during the course of the trial, he objected to matters he
feit'were improper. (EH: 391) He additionally testified concerning his extensive appellate
experience and stated that he knew the importance of preserving and protecting a record.
(EH. 341-42, 391) Trial counsel's performance can not be said to have been "outside the wide
range of professionally

..

'

?ssistance" simply because he failed to raise every

available objection to argument. The Constitution does not

a perfect trial but rather

a "fair trial and a competent attorney." Engle v. issac, 456 U.S. at i34; Stanley:V: Zant, 697
F.2d 955, 964 n. 7 (11th Cir. 1983),cert. denied, 467 U.S. 1219 (1984) ("[A] defendant is not
,

.

\

entitled to perfection but to basic fairness."). A lawyer's "heat-of-trial decisions," concerning
when to object, should not be second-guessed by those having the benefit of hindsight.
Fleming v. Kemp, 748 F.2d 1435, 1450 (11th Cir. 1984), cert. denied, 475 U.S. 1058 (1986).

;:n

tJJ""".:.-i!J

0I -',...
::'J .)

'/

ST. ctA1R (.:DUriN

Cf,·1

1!T

j 46

546a

'l

Finally, Jenkins has failed to show that a different outcome of the trial probably would have
resulted but for counsel's allegedly ineffective performance. He has failed to meet the
required showing of both deficient performance and prejudice pursuant to Strickland.
(n) The claim that trial counsel failed
to object to the limitations which
the trial court imposed upon Mr.
Jenkins's right to confrontation and
cross-examination

Jenkins has set forth no relevant facts, supporting argument, or even record cites to
assist the Court in evaluating this claim. Likewise, Jenkins presented no evidence relevant to
the claim at the evidentiary hearing. Rule 32.6(b) requires that the petition "contain a clear
and specific statement of the grounds upon which relief is sought, including full disclosure of
the factual basis of those grounds." A "bare allegation that a constitutional right has been
.violated" does not meet the requirements of the Rule. Therefore, this claim is disniissed.
(0) The claim that trial counsel failed

to object to improper "victim
impact" testimony by, and improper
references to, members of the
victim's family throughout trial,
including comments made during
opening and. closing arguments

This claim is followed by record cites, but is not accompanied by a supporting..
factual basis or legal argument. Likewise, Jenkins presented no evidence relevant to this
,I

claim at the evidentiary hearing. Jenkins has not met his burden of proof Rule 32.3,:
ARCrim.P.

5 1 1?97
Si.

.

.,

Uu,,//ifil<-i<JM
-

47

? /

Jr

547a

Alternatively, there was no improper IIvictim impact" testimony presented at
Jenkins's trial. Based on the records cites included in the petition, this Court presumes that
the claim relates to the testimony of the victim's mother and sister. The Court of Criminal
Appeals addressed this issue, finding that "[t]he testimony was relevant to the state's case and
was correctly received into evidence." Jenkins v. State, 627 So.2d 1034, 1050 (Ala. Crim.
App. 1992), aff'd, 627 So.2d 1054 (Ala. 1993).
Regarding the portion of the claim related to prosecutorial argument, Jenkins has
presented no evidence and has pleaded no facts to show that he is entitled- to relief. Rules
32.3 and 32.6(b), ARCrim.P. Jenkins has proven neither deficient performance nor
prejudice.
(p) The claim that trial counsel failed
to adequately develop and
a
coherent and consistent defense
strategy
As part of this claim, Jenkins asserts that "[t]rial counsel's ineffectiveness

included, but is not limited to, failing to adequately investigate and cross examine critical
witnesses for the prosecution, failing to object to improper questioning of state witnesses, and
.

failing to

and

a

I

..

•.•

-

theory ofthe..case."

petition at p. 14) To the extent that any of the general claims abo'(e relate to specifically pled
claims found elsewhere. in Jenkins's petition, this Court incorporates by reference
applicable portions of this order. However, in so far as the above quoted contentions are set
forth as independent claims, they are dismissed for failure to meet the "clear and specific

48

548a

statement of the grounds" requirement of Rule 32.6(b), which requires that a claim for relief
include "full disclosure of the factual basis" of the grounds upon which reliefis sought.
Jenkins has failed to meet this requirement.
(q) The claim that trial counsel failed
to seek appropriate expert
assistance for the pretrial, trial,
and sentencing proceedings
Jenkins has specifically related this claim to "the assistance of a defense
pathologist and mental health experts." (Jenkins's amended petition at p. 14) In so far as this
claim relates to the sentencing phase of the trial, this court has addressed that portion of the
trial elsewhere in this order. Regarding the guilt phase of Jenkins's trial, this claim has no
merit.
At the evidentiary hearing, Jenkins presented no evidence related to an expert in
pathology. Counsel for Jenkins merely asked Mr. Scofield if he thought "a forensic expert
could have been helpful in the case." (EH. 312) The response was "[o]bviousiy, when I asked
for the money, I was thinking it could be." (EH. 312) The question did not even specify a
particular type of "forensic expert. II There was no evidence
how a "defense pathologist"
.,.'

to the Court related to

have been helpful. A Rule 32 petitioner has the burden to

prove by a preponderance of the evidence the facts necessary to entitle him to relief. Rule
32.3, A.RCrlm.P. Jenkins has failed to meet his burden. Additionally, based on the

!

testimony of Mr. Scofield, the Court finds that trial counsel spent extensive and significant
time in preparation for the testimony of the forensic pathologist. (EH. 377-78) The
iI

:"1.

QERK

,1:1

J!1."" 1.,.

D

Wl.IN/)'

549a

preparation undertaken was not outside "the wide range of reasonable professional
assistance." Strickland, 466 U.S. at 689. Based upon that finding, and Jenkins's failure to
prove prejudice, this claim is dismissed.
This claim is likewise meritless as it relates to "mental health experts." At the
evidentiary hearing, Jenkins presented the testimony of Dr. David Lisak, a clinical
psychologist from Boston, Massachusetts. (EH.428) Dr. Lisak testified that, as part of his
evaluation, he assumed that the facts introduced at trial, which led to the conviction of
Jenkins, were true. (EH.438) Dr. Lisak also stated that he did not ask Jenkins about the facts
surrounding the crime nor did he consider Jenkins's mental state at the time of the murder.
(EH.600-01) His testimony was replete

hearsay. The Court finds that Dr. Lisak's

testimony would have been both irrelevant and inadmissible at the guilt stage of Jenkins's
trial. Therefore, Jenkins has failed to meet the prejudice prong of Strickland.
Finally, trial counsel testified that he filed a pretrial motion to determine Jenkins's
competency to stand trial. (EH. 352) Regarding the motion Mr. Scofield stated, "I think it
would not be an unfair assessment to say that was more a routine motion than there being a
••

I

specific event that triggered that need." (EH.353) Mr. Scofield further stated that the lunacy
commission issued a report finding Jenkins competent. (Eli 353) The Court finds that trial
counsels' failure to request funds for a mental health expert was not outside "the wide range of
reasonable professional assistance." Strickland, 466 U.S. at 689-690. For all of the
foregoing reasons, this claim is dismissed.

8". l'!J.iR \..0;;,11 Y
Q.£:\

C'J!';QT

so

550a

(r) The claim that trial counsel failed
to object to the trial court's
one-sided flight instruction which
was misleading to the jury

Jenkins has failed to offer any supporting factual basis or legal argument for this
claim. Likewise, no relevant evidence or testimony was presented at the evidentiary hearing.
The relevant instruction reads as follows:

(R 1672-73)

Now ladies and gentlemen, there is one other proposition oflaw
that I think has been some evidence presented to this jury
concerning the possible flight after the alleged murder was
committed and the flight on the part of the defendant. There has
been evidence offered tending to show that after the alleged
homicide, the defendant fled from the State of Alabama. Of
course, it is always permissible for such evidence of flight to be
offered. But it is for the jury to decide whether or not the
defendant did flee after the alleged offense was committed.
And if so, whether his flight was from the consciousness of
guilt or from some other reason. If a jury finds the defendant's
. flight after the alleged offense was from a consciousness of
guilt then that is a circumstances which may be weighed against
such a defendant. But if the jury finds his flight was for some
other reason and not from the consciousness of guilt, then the
fact that he did leave the State of Alabama as the evidence
would be the alleged, or fled therefrom would not be weighed
or taken against him.
!

The Alabama Rules of Criminal Procedure place the burden on Jenkins to show
that he is entitled to relief. By merely asserting error, Jenkins
and 32.6(b), ARCrim.P. Finally, the Court has reviewed .the
that it was improper.

Rules
•

__

•

4

does not fi.nd
-

__

551a

(s) The claim that trial counsel failed
to object to the trial court's
failure to prohibit the jury from
reading or watching news about the
case during the trial

Jenkins presented no evidence in support of the above claim at the evidentiary
hearing. He has, therefore, failed to show deficient performance and prejudice as required by
Strickland. Additionally, the jury was instructed extensively about the importance of
remaining free from extraneous influences. (R. 452-460, 1347-50) This claim is meritless.
(t) The claim that trial counsel failed
to properly object to the admission
of physical evidence including but
not limited to evidence lacking a
proper chain of custody, and
evidence introduced based on
hearsay

This claim is set forth above precisely as it appears in Jenkins's petition. Jenkins
has set forth no relevant facts, supporting argument, or even record cites to assist the Court in
evaluating the claim. Rule 32. 6(b) of the Alabama Rules of Criminal Procedure requires that
the petition "contain a clear and specific statement of the grounds upon which relief is sought,
including full disclosure of the factual basis of those

Jenkins has the burden of

proving that he is entitled to relief. Rule32.3, ARCrim.P. jenkins has not identified what
evidence he claims was improperly admitted at his trial and the Court is unaware 9f any
relevant evidence offered in support of this claim at the evidentiary hearing. The claim is,
therefore, meritless and due to be dismissed.

52
cr.
CEO.X

CtiU,\rrf
jIT

552a

(u) The claim that trial counsel allowed
improper and prejudicial evidence to
be admitted by falling to stipulate
to the identity of the victim

The claim above is set forth precisely as it appears in Jenkins's petition for relief
Jenkins failed to include a "full disclosure of the factual basis" of the grounds upon which
relief is sought. Likewise, no evidence relevant to the claim was presented at the evidentiary
hearing. The Court will not speculate as to what evidence Jenkins is referring to as "improper
and prejudicial." Jenkins has failed to meet the burden placed upon him by Rules 32.3 and
32.6(b), A.RCrim.P. Therefore, the claim is meritless.
(v) The claim that trial counsel failed
to object to the trial court's
erroneous instructions which
misstated the law, mislead the jury
or otherwise denied Mr. Jenkins a
fair trial
In support of the above claim, Jenkins listed in his petition several portions of the

trial court's instructions alleged to be erroneous. Specifically, he set forth "the trial court's
instructions on lesser included offenses, reasonable doubt, robbery as an afterthought,
voluntariness, circumstantial evidence, and the jury's role in capital cases." (Jenkins's
amended petition at p. 15) However, he has set forth nothing to"'enlighten this Court

as to

what portions of the instructions were erroneous, much less why they should De labeled as
such. No factual basis nor legal argument is set forth in Support of this claim. Likewise,
Jenkins presented no evidence relevant to the claim at the evidentiary hearing. Jenkins has

tDd': J 1 1997
sr. ClAiR \A)ljNfY
t:'tEBK C:RC'Jrr CDl1!rT

S3

!

553a

failed to meet the requirements placed upon him by the Alabama Rules of Criminal
Procedure. See Rules 32.3 and 32.6(b). Additionally, the Appellate Courts reviewed the
contested instructions and found no error. Ex parte Jenkins, 627 So.2d 1054, 1054 (Ala.
1993). This claim is meritless.
(w) The claim that trial counsel failed to make
other necessary objections to preserve Mr.
Jenkins's right to a fair trial

Following the claim as set forth above, Jenkins states that n[s]uch failure include,
but are not limited to, trial counsel's failure to object to the improper and illegal introduction
of inflammatory photographs, emotional outbursts from the victim's family, to prosecutorial
misstatements of the law, prosecutorial references to inadmissible evidence and failing to
object to the grand and petitjt'lry compositions.n. (Jenkins's amended petition atpp. 15-16)
To the extent that any of the above listed contentions relate to claims found elsewhere in
Jenkins's petition, the Court incorporates by reference any applicable portions of this order.
However, the claims as listed under Claim D, paragraph 28(w) of Jenkins's amended petition,
are entirely devoid of any factual basis as required by Rule 32.6(b) of the Alabama Rules of
Criminal Procedure. Because Jen,kins
has
'"

meet the burden
of proof
.
- -

.

-

upon him,

the claims are due to be dismissed. Rules 32.3 and 32.6(b), ARCrim.P.

!

o. C''-i'\lR \X;!.;;"-Y
...,rI,

1

,

54

554a

(II) The claim that trial counsel failed
to properly object to the use of
electrocution as cruel and unusual
punishment

Jenkins claims that trial counsel was constitutionally ineffective for not "properly"
objecting to the use of electrocution as cruel and unusual punishment. Initially, Jenkins has
set forth nothing to assist the Court in evaluating the difference between a "properll and an
"improper" objection to electrocution. Nevertheless, trial counsel was not ineffective for
failing to make such an objection because death by electrocution does not constitute cruel and
unusual punishment. Lindsey v. Smith. 820 F.2d 1137, 1155 (11th Cir. 1987), cert. denied,
489 U.S. 1059 (1989); Scott v. State, CR-94-763 (Ala. Crim. App. January 17, 1997). A
lawyer is not required to raise meritless objections. Palmer v. Wainwright, 725 F.26 1511,
1523 -'11th Cir. 1984).
(nn) The claim that trial counsel failed
to object to an actual conflict of
interest in co-counsel's
representation of a material
witness for the state

This

is set forth above precisely as it appears in Jenkins's amended'petition

for relief (Jenkins's amended

p. 20) This claim is dismissed because it violates'
,

'

the "clear and specific statement of the grounds" requirement of Rule 32.6(b) of the Alabama
Rules of Criminal Procedure.

.-: j 1 ''' . . . 7
0-··...
_...J

cr.
O.E."!:<

•

,,, '"

CLAiR IA)Ui'lT!

55

555a

(00) The claim that trial counsel failed

to challenge the trial court's
refusal to allow individually
sequestered voir dire

The trial record reveals that trial counsel filed a motion for individually
sequestered voir dire. (C. 90; R 44) The trial court denied the motion. (R. 45) The law is
well settled that such a determination is within the discretion of the trial court. Ex parte
Anderson, 602 So.2d 898,899 (Ala. 1992). Jenkins offered no evidence relevant to this
claim and has provided the Court with no indication as to what is meant by II challenge. II He
has failed to convince the Court that had an appropriate "challenge" been made, the result of
the proceeding would have been different. This claim is dismissed.
(pp) The claim that trial counsel failed to
object to the case being venued in St. Clair
County when the state failed to prove that
the crime occurred there

The evidence at trial showed that the victim's body was discovered near mile
marker 151 on I-59 in St. Clair County. (R 670-74) The appellate courts have "repeatedly
held that finding the body of a murder victim in a certain county is sufficient evidence that
venue in that county is prop.er." Cox v. State,

So.2d 233; 235 (Ala. Crim. App. 1994),

citing, Meyer v. State, 575 So. 2d -1212 (Ala. Cri.m .. App.

A

is not required to

raise meritless objections. Palmer v. Wainwright. 725-F.2d 1511, 1523 (Hth

\

1984}

Therefore, this claim is dismissed.

56

ST. ctAlR l..'CuNIY

556a

B. Ineffective Assistance Of Counsel
At The Penalty Phase
In numerous subsections of paragraph 28 in Claim D of the amended petition,

Jenkins claims that trial counsel was ineffective because they did not investigate and
interview family members to elicit allegedly mitigating evidence for the penalty phase of the
trial. More specifically, Jenkins claims counsel was ineffective for failing to investigate and
obtain records, interview family members, and seek expert assistance to show the following
allegedly mitigating evidence: that Jenkins was developmentally impaired since birth; that he
suffered a long history of physical and emotional abuse by his stepfather; that he suffered
severe neglect and deprivation throughout his life; that he possessed learning disabilities, low
intelligence, poor comprehension and retarded socialization skills which prevented him from
achieving academically and from forming normal relationships; that he had a long history of
. alcohol and chemical dependency; long history of mental health problems; that he had
encounters. with the juvenile authorities; that he was severely intoxicated on the night of the
crime; that he had no significant history of prior criminal activity; and that he was 21 years
old at the time of the crime.
In support of this claim, Jenkins presented the testimony of several family

members and friends which included his half brother, Michael Jenkins; two Cousins, Tammy
Pitts and Betty DeLavega; his grandmother, Doris Wagoner; and Sherry Seal, a friend.
Jenkins also presented the testimony of a-clinical

DavicfLisaK. -To reout the

testimony and claims made by these witnesses, the State relied upon

and

the testimony of Dr. Karl Kirkland, a clinical psychologist. As to these- claims of ineffective
assistance of counsel for failing to introduce mitigating evidence, the Court finds as follows:
i'

U

<'ffa

'"

?,"'"

1"'\

57

557a

The Court inltially finds that because Jenkins did not present any testimony from
Stan Downey at the evidentiary hearing, he has not meet his burden of proof under Rule 32.3.
The record shows that Mr. Downey was responsible for the penalty phase of the trial. Yet,
Mr. Downey, who was not shown to be unavailable to testify, was not called by Jenkins as a
witness to support his claim of ineffectiveness at the penalty phase. Instead, Jenkins
attempted to elicit testimony from Mr. Scofield concerning Mr. Downey's actions. The Court
is puzzled as to why Jenkins did not call the one lawyer asserted to be responsible for that
portion of the trial against which most of his criticism is levied. While this was Jenkins's
choice, the Court finds that this choice resulted in Jenkins failure to meet his burden of proof.
The record is virtually silent as to what actions were or were not taken or what was or was not
done by Mr. Downey at trial and why. It is possible that his actions could have been
reasonable and strategic under the circumstances and, in large part, undertaken based upon
what Jenkins told him. The Court, therefore, finds that Jenkins did not prove 'that Mi.
Downey's representation was deficient or that he was prejUdiced. as a result of that
representation.
The Court will, however, based upon the evidence presented at the hearing,
attempt to address Jenkins's claim of ineffectiveness of counsel at the penalty phase. As
previously stated in this order, Jenkins. must show that counsel's representation was both
deficient and that the deficient performance prejudiced the defense... The-Court finds that
Jenkins has not proven that, assuming counsel's deficiency, there was a reasonable probability
\

that the sentencer, including the appellate court, to the extent it reweighs the evidence, would
have concluded that a weighing of the aggravating and mitigating circumstances did not
warrant death.

D:S 3 1997
a.

C':.Jiiii Ui:Jrm

cceRT

58

558a

The Court notes that for the reasons that will follow, the evidence presented at the
hearing would not have affected the sentence this Court would have imposed on Jenkins. The
aggravating circumstances clearly outweighed any mitigation caused by Jenkins's "abusive
childhood", below average intelligence, lack of a criminal history, and his age. Jenkins
kidnapped, robbed, and brutally murdered Tammy Hogeland. He then disposed of her nude
body on the side of the interstate, leaving her to decompose beyond recognition. Death was
the appropriate punishment in this case.
After listening to the evidence presented at the hearing and observing the
demeanor of the witnesses, the Court finds that the witnesses were biased, that they grossly
exaggerated their testimony, and that they were not credible for the following reasons:
The record reflects that, at the time of the trial, friends and family of Jenkins were
contacted by a probation officer regarding the prepanition ora pre-sentence report. Nothing
in the report indicated that Jenkins was abused to the' extent alleged at the evidentiary hearing.
Additionally, although numerous records were introduced at the hearing, there were no
medical records which would corroborate the level of abuse alleged by several of Jenkins's
witnesses.
Jenkins's cousin,-TammyLynn Pitts, was not a credible witness: Ms. Pitts
I

testified that she lived with Jenkins and, his family onor daily basis rorthe niajority ofher
early life. (EH. 203) She claimed lliat jenkins was beaten "dailyft--fro"trrtlie -time he was an
infant, to the time he left home around the age of thirteen. (Elf 186-189) Ms.

stated

that Jenkins was "pounded on" and that his stepfather would taktiwhatever was in his hand,
put all of his weight behind it, and hit Jenkins with "full force." (EH. 187) She related one
alleged incident where Jenkins's stepfather, a man over six feet tall, hit Jenkins more than

-

En

Ii '-"3,.

.) -:/

S9

559a

once with a full size shovel on the back. (EH. 209-210) Ms. Pitts described the incident as
"normal." (EH.212) According to the witness, Jenkins would be laid up in bed for weeks at
a time due to the severity of the beatings. (EH. 210) Ms. Pitts even testified that Jenkins
would receive additional beatings during the time he was laid up recovering from previous
abuse. (EH. 210) However, Jenkins was apparently never taken to the hospital and there were
no medical records reflecting injuries consistent with the alleged severity of the abuse alleged
by Mrs. Pitts.
The Court also finds significant school records which noted that Jenkins suffered
from a rash and gingivitis, but contained absolutely no indication that he was beaten on a
regular basis. Ms. Pitts additionally testified concerning Jenkins's difficulty in controlling his
'bowels. (EH. 191,213) She stated that, as a result of this problem, Jenkins would be forced
by his parents teoiled" clothing to school "all the time." (EH. 191) Again, the Court
finds it difficult to believe that school records would reflect the notice of a rash, but would be
completely devoid of any indication that a child was regularly attending school in clothes
soiled with feces. Ms. Pitts also testified that Jenkins was locked in his room 24 hours a day 7
days a week. (EH. 193) According to her, he was not even allowed to come out to eat dinner
with the rest of the family. (EH. 194) This contradicted the testimony of Jenkins's brother
who stated that Jenkins was sent to bed without dinner, "on occasions",

\le was bad

(EH. 113) If Ms. Pitts is to be believed, Jenkins eked a meager existence of scraps thrown to
him after dinner by other members of the family. (EH. 194)
Ms. Pitts also testified that she called Child Protection Services on two occasions
during her twenty plus years in the Jenkins household. (EH. 220, 224) She stated that the
first time, CPS responded to the home but took no action. The

1i

,nte:
jfiere was no
""i,....,AJ

U ..

D,-i:
_......

J""

ST. (!.J\IK

1 )UQI 7
'f

,1..tj,W,",o/

c.RC'Jrr CCl;R]'

60

,I

560a

response of any kind. (ER 220, 224) The Court finds it to be unbelievable that Ms. Pitts
would feel it necessary to call CPS on only two occasions when she claimed the abuse and
maltreatment was a "daily" occurrence. It is also unbelievable that child protective services
would take no action.
Finally, Ms. Pitts testified that she loved her cousin and felt it would be a tragedy
if he were executed. (ER 222) She stated that she felt guilty about Jenkins's childhood and
that she believed she was helping him by testifying at the hearing. (EH. 222) Ms. Pitts
displayed a strong bias in favor of Jenkins. During direct examination, Ms. Pitts appeared to
be very emotional, often crying during her testimony. However, on cross-examination by the
State, her demeanor changed dramatically. She became guarded and far less emotional. After
hearing the testimony of Ms. Pitts, weighing the interests of the witness and observing the
witnesses' demeanor, the Court finds the testimony to be incredible.
. . Not unlike the testimony of Tammy Lynn Pitts, the Court finds the testimony of
Jenkins's half-brother, Michael, biased and not credible. Not only did his testimony conflict
.with that of other witnesses, it was also self-contradictory. The Court will not discuss the
testimony in its entity, however, a few examples will make this point.
Michael Jenkins testified that the family moved ten or fifteen times during his
,

youth because his father did not work very much. (EH. 107-108) This conflicted with Ms.
Pitt's claim that the family moved maybe four times and that the stepfather was gainfully
employed. (EH. 205, 218) Michael Jenkins stated that

would occasionally
, miss

meals because he was sent to his room for-"being bad. II (EH. 113) Ms. Pitts stated that
Jenkins was not allowed to eat with the family and would leap up at food thrown at him after
dinner while locked in his room. (EH. 194) Additionally, contrary to Ms. Pitts testimony that

61

561a

Jenkins was locked in his room "twenty-four hours a day seven days a week," (EH. 193),
Michael stated that Jenkins was locked in his room for "a couple of hours or so ... everytime
he done something. II (EH 112)
As noted above, the testimony of Michael Jenkins was also self-contradictory.
Describing the frequency of the alleged beatings, Michael initially stated II if it wasn't once a
day, it would be every other day or every three days. II (EH 87) He then stated that Jenkins
would get a whipping whenever he had a bowel movement in his pants and that this occurred
"once a day." (EH.90) Subsequent to that, Michael described the discipline imposed stating
that Jenkins "would be sent to his room and a number of things happened, II including an
occasional beating. (EH.93) The witnesses' testimony was in fact, filled with apparent
confusion and contradictions. He originally testified that Jenkins was three or four years old
. at

time his stepfather went to prison for robbery. (EH 128-132) However, he

subsequently.testified that Jenkins was conceived while his stepfather was in prison. (EH
181) He also contradicted himself a number of times concerning whether Jenkins ever wrote
to him requesting that he come to Alabama and testify during his capital murder trial. (EH.
125, 161-63) He finally stated conclusively that he receive4 a letter mentioning that Jenkins
might need him to testify at the trial. (EH. 161) Michael stated that he had no llcuriosity or
concern about what was going on.1I (EH 163)

Finally, Michael testified that he believed that Jenkins was innocent and that he
...

could not. have committed the crime.(EH.. 164). Michael himself had never committed
an act
,
of violence despite the fact that he was raised in an environment similar to that of Jenkins.
(EH. 163-164) He also testified concerning the problems his other two siblings were
experiencing in their adult lives. (EH. 169) The Court notes that all of the testimony

FiL:E.D

62

562a

indicated that these two individuals were never abused as children and were, in fact, babied
and spoiled. They received this treatment despite the fact that Stephen Jenkins was not the
biological father of either one of them. Any contention that a causal connection exists
between the abuse allegedly suffered by Jenkins and the murder of Tammy Hogeland, is
undercut by evidence within Jenkins's own family. After hearing the testimony of Michael
Jenkins, weighing the interests of the witness and observing the witnesses demeanor, the court
finds the testimony incredible and assigns it little weight.
Jenkins also presented the testimony of a friend, Sharon Seal. (ER 46) Mrs. Seal
stated that she came to know Jenkins through her husband, Lonnie Seal. (EH.49) The trial
record reveals that Lonnie Seal testified for Jenkins at the penalty phase of his trial as a
character witness. (R. 1718) After reviewing the testimony of Mr. Seal, the Court finds that
her testimony would. have been cumulative to that of her husband. Furthermore, Mrs. Seal
testified at the evidentiary hearing that her husband knew Jenkins better than'she did: (ER
64)
The Court also noted contradictions in Mrs. Seal's testimony. For example, she
testified that Jenkins's trial lawyers never talked to her or contacted her about being a witness
at the trial. .(EH. 61).

on cross-examination, Mrs. Seal stated that she did not attend

the trial because "I was told by Mark's lawyers that we were not

in the courthouse

because we might be potential witnesses. II. (EH. 64) She

she was told

this by Mr. Downey. (EH. 65) ,Because Mr. Downey did not testify

he¢ng, the Court

can only speculate as to why Mrs. Seal was not called to tl:'lstify. ,;
The witness in question also displayed a strong bias in favor of Jenkins. She
stated that she believed that he was innocent, that he did not get a fair trial, and that it would
tJ

",-aU
63

563a

be a tragedy if he were executed. (EH. 69-70) The Court would also point out that Mrs.
Seal's testimony directly contradicted other theories of mitigation presented by counsel for
Jenkins at the hearing. Her testimony related to the good character of Jenkins, his non-violent
nature, his generous and caring attitude, his love for her children, and other qualities of a
similar nature. Other evidence presented at the hearing, instead, dealt with Jenkins's abusive
childhood, and culminated in Dr. David Lisak's testimony that abused children are at risk to
commit violence. The evidence suggested on one hand that Jenkins was a wonderful person
who would never hurt anyone. However, on the other hand, evidence was presented to
support a theory that Jenkins's violent and chaotic background led him to murder Tammy
Hogeland. Regarding the later theory, the Court finds it significant that the only documented
act of violence committed by Jenkins was the murder of Tammy Hogeland. Based on all of
the foregoing, the Court finds that Jenkins has proven-neither deficient performance nor
prejudice related to the failure to call Sharon Seal as a witness.
The inconsistencies in the different theories of mitigation presented through
Sharon Seal's testimony is also true concerning the testimony of the two St. Clair County
jailers who testified. (EH. 12-46) Both jailers testified that Jenkins was an absolute model
prisoner who was always courteous and respectful. Again, the Court finds this to be
inconsistent with the theory that the abuse Jenkins allegedly suffered as a child caused him to
commit violence as an adult. Additionally, the Court notes that-the behavior observed by the
jailers occurred after the crime. The observation also-took place during...a time when. Jenkins
\

was confined alone to a prison cell, directly across from the guard desk. The..Court finds
nothing in the testimony of the jailers which mitigates Jenkins's crime.

64

5
Si-. lUlifl I.;Ol1NTY
.:1

,

"

!=t'I'( r'el""-'; lrT" iV\111"\'?"

564a

The Court also finds that Betty DeLavega, Jenkins's second cousin, was not a
credible witness and was biased. Ms. DeLavega had only seen Jenkins on two occasions in
her life. Once when Jenkins and his family visited her in Indiana and once when she went to
California to visit. Jenkins was very young when he came to Ms. DeLavega's home, and he
was 11 or 12 when she visited in California. Ms. DeLavega testified that she stayed in the
Jenkins home for five months with her husband and her four children.
Ms. DeLavega informed the Court that when Jenkins and his family visited her in

Indiana, Jenkins was not beaten by his stepfather because she "wouldn't have stood for that."
(EH. 239) However, Ms. DeLavega testified that Jenkins's stepfather was cruel to both

Jenkins and his brother

and specifically recounted an incident where she claimed

that Jenkins's stepfather forced Jenkins to eat his own feces, in front of her and her family, out
of his underwear with a spoon. Although claiming to be horrified at seeing this, Ms.
DeLavega did nothing. She did not call the authorities and she and her four children
continued to live in the Jenkins's home. Ms. DeLavega and Jenkins's brother, Michael, were
the only two persons to recount that Jenkins was forced to eat his own feces with a spoon.
Ms. DeLavega also testified, demonstrating her bias, that she did not believe that
Jenkins could hw:t anybody and that he was innocent of the crime for which he was convicted.
Ms. DeLavega testified that it would be a terrible thing for Jenkins to be executed.;· She also
stated that she was asked to come-and testify at the evidentiary hearing by-Jenlrins'lJ
grandmother, Doris Wagoner, "to get him off death row. II (EH. 242} .... The Court finds that Ms. DeLavega basically had no kriowledge of any long term
abuse Jenkins suffered because out she had only seen Jenkins on two very brief occasions in
her life. At the time of her testimony, she had not seen Jenkins since he was 11 or 12 years

65

DcC 3 1 1997
til. ('>.AiR t.;QUtHi'

Vkl/J,I&U¥'

c,RQ;rr COURT

565a

old. The Court finds it to be beyond belief that Ms. DeLavega could witness Jenkins being
forced to eat his own feces with a spoon and do nothing. It is also beyond belief that she
would remain in the home with her four children after witnessing such a horrifying event.
After observing Ms. DeLavega and listening to her testimony, the Court finds her to be a
biased and incredible witness, giving her testimony no weight.
The petitioner's grandmother, Doris Wagoner, was also a biased and incredible
witness. (EH 243) She testified that Jenkins was "slow" as an infant and could not sit up at
the age of four months. (EH. 246) Mrs. Wagoner was not offered as an expert in early
childhood development and this Court does not accept her as such. She testified that she
never witnessed any physical abuse and offered nothing which would establish "that the
balance of aggravating and mitigating circumstances did not warrant death. II Strickland, 466
U.S. at 695.·

. ·Most importantly, Mrs. Wagoner testified that she was not available to testify at
the penalty phase of Jenkins's trial. The relevant portion of that testimony reads as follows:
Q. [Counsel for the State]

Did you contact Mrs. Delavega
in reference to testifying
heJ;'e toc,tay? .

A. Yes.
Q. At the time Mark was on trial for ..

his life, you didn't take that
step and contact people who might
be here and testify on his behalf?

A. No.
Q. Why is that?

FILED
DcC 3 ./

66

566a

A. I don't know why. I'm a very

busy person--and still today
even at my age. I don't know
why. When the attorney
started asking me for money,
I didn't feel I could come
down here and hire attorneys and
this sort of thing.

"'**
Q. Correct me, then. Why did you

not make an effort to come
testify?

A. I may have been ill. There may
have been a number of things. I
don't remember why I didn't
come down here. I would have to
go and stay, which I could not do

at-that time.

Q. Why is that?

A. Like I said, I'm very busy. I
had tenants and I have property.
If I had left for a period of
three weeks, I wouldn't have had
much of a building when I got -

back.

Q. Thatis the difference in
-- your being here today?

.

-

. -.....

A. What is the difference?
Q. Yes, ma'am.

67

567a

A . I have a good manager. I'm not
needed. I'm here today with the
intention of going straight
back.
(EH. 259-269) Trial counsel can not be labeled ineffective for failure to present the testimony
of a witness who, by her own admission, was unavailable and uninterested. Nothing in the
testimony of Doris Wagoner mitigated Jenkins's crime.
The Court further finds that Jenkins's proffered expert, Dr. David Lisak, did not at
all serve as an expert at the evidentiary hearing. His testimony did not assist the trier of fact

in this proceeding. Despite Dr. Lisak's professional qualifications, his function at the Rule 32
hearing was simply to parrot what he said had been told to him by Jenkins's family and
friends. He did so without applying any expert knowledge or opinions. His testimony, for the
most part, was rank hearsay and

It consisted primarily of third party sources who
.
.

by the nature of their relationship to Jenkins were inherently biased, most

witnesses

were not in court for the state to cross-examine and question their bias and credibility.
Dr. Lisak testified that he was told to accept as true the facts presented by the
.

-

State at Jenkins's trial. Dr. Lisak also stated that his third party hearsay sources created the
most objective source of assessing an individual. While the Court may agree tluitihis is true'
concerning, for example, records froin schools or mental health facilities, it does not agree ---with Dr. Lisak that this is the case concerning the familyand-friends-ofa-deatlnow:inmate.
Dr. Lisak also incredibly testified that third party sources do not tend to exaggerate, but
\

instead tend to minimize any abuse. This was
not the case with the family. aIld friends of
.
, " ;

Jenkins.

UtL
01.

Cl.i\lk

'JI

1'1'7/

",-,VO, I

t

a..EP.K ClROJrr COUHT

68

568a

Dr. Lisak also testified that Jenkins had been sexually abused by his grandfather
while on a camping trip when Jenkins was four years old. Dr. Lisak stated that this was when
Jenkins's bedwetting began. However, this story of abuse was reported to Dr. Lisak by
Jenkins himself, and was corroborated by no one else. Dr. Lisak stated that he had no reason
to doubt Jenkins's account of the abuse. This was so, he claimed, because when informed
about this alleged incident, Jenkins's stepfather and aunt were not surprised. They claimed no
surprise because Jenkins's grandfather had allegedly abused his two eldest daughters and
because he was a violent alcoholic. The Court does not find that this was sufficient evidence
to support the claim of sexual abuse. Moreover, Dr. Lisak discounted any possibility that
Jenkins's bedwetting was the result of a medical problem on the sole fact that he was sexually
abused on this one occasion..
The Court is also -of the opinion that. Dr. Lisak was a biased witness. His
curriculum vitae revealed that he had presented numerous workshops to various groups that
were opposed to the death penalty. He had not presented any similar workshops to any state
agencies. Likewise, the five instances wherein Dr. Lisak had testified at trial, involved
testifying for the defense in death penalty cases. In those cases, Dr. Lisak prepared social
histories and presented similar testimony to that presented in this case. The Court finds it
'

.

I

somewhat interesting that those defendants were either sentenced or resentenced to death or
executed. Dr. Lisak was also very reluCtant to answer questions' posed by tlie State
-

concerning his views on the death penalty. He stated that he had mixed feelings about the
i

subject and had misgivings about the "equitability
and the ways in
which capital punishment
.
.
can actually be applied." Dr. Lisak would not affirmatively answer whether Jenkins's crime
was one which he believed was appropriate for capital punishment.

I DEC J

1 1997 69

569a

Dr. Lisak also testified that Jenkins's parents used drugs on a daily basis, yet he
did not question them about their drug abuse. He claimed that confrontin.g them with
accusations might cause them to "shut down." Likewise, he never questioned the alleged
sources of most of the abuse about any specific instances claimed to have been perpetrated on
Jenkins. Yet, at one point, Dr. Lisak referred to the most credible sources as Jenkins's
parents. Because this testimony was hearsay and was not subject to cross-examination, the
Court does not have the benefit of evaluating Jenkins's parents' credibility or the credibility of
the other family members and friends that did not testify. Thus, because Dr. Lisak is
reporting what these persons said and because he has accepted as true what he was told, Dr.
Lisak is subject to the same credibility attacks as those witnesses would have been. He is
subject to attack for believing and reporting to the Court that what he was told was the truth.
Although Dr. Lisak testified that he included in Jenkins's "social history"
everything that was relevant, both positive and negative, nothing of a positive nature appeared
in his version of Jenkins's social history. The Court finds this rather unbelievable in that if it
is true, that family and friends minimize abuse, it would logically follow that someone would
have had something positive to relate about Jenkins's life. That is not to say that this is further
proof that everything in Jenkins's childhood was horrible, but !ather that someone would have
denied some of the unbelievable abuse alleged to have been perpetrated on Jenkins. The
Court is apparently to believe that these accounts of abuse were minimized and that what,
actually happened to Jenkins was worse. The Court does not believe that to be the case.
Dr. Lisak was also not in possession of his notes from the interviews and,
therefore, neither the Court nor the State had the benefit of examining the notes and crossexamining Dr. Lisak on information that he may have not included in his "social history." It

70
ST.

wv ••• I

QE.t;;< C!Rwrr C.cURT

570a

was Dr. Lisak's determination of what was relevant and useful instead of the trier of fact's
determination. This reinforces the Court's finding that Dr. Lisak and his accounts of what
family and friends told him were not credible.
Dr. Lisak also testified that he did not find family members accounts that Jenkins
had whelps, bruises, and cuts all over his body almost continuously because of the beatings, to
be an exaggeration. He also did not find it inconceivable that, if such were true, school
officials would not have noticed the effects of the beatings, but would notice rashes and
gingivitis. His explanation for this was that, according to Jenkins's stepfather, the beatings
were inflicted on parts of Jenkins's body that were not visible. However, according to the
other witnesses accounts, the beatings were clearly on all parts of his body.
One of the most incredible aspects of Dr. Lisak's testimony was his answer to a
question posed by the State on re-cross examination. Dr. Lisak was asked whether he could
rule out.the possibility that Jenkins might have committed his crime for a reason unrelated to
any abuse he might have suffered as a child and adolescent. Dr. Lisak ruled out such a
. possibility. He did so even though he had not considered Jenkins's mental state at the time of
the crime or even inquired into the circumstances surrounding the crime itself. The Court
finds that this response further supports the witness's lack of
The Court willlastIy comment on Dr. Lisak's testimony concerning tne cycle of
violence. The cycle of violence generally refers to. the connection between:childhood abuse
and the later perpetration of violence by persons who
Dr. Kirkland, the psychological expert for the State, who's

discussed further

in this order, correctly pointed out that under Dr. Lisak's theory of the cycle of violence, it
would be hard to ever hold anyone responsible for doing anything if they had been abused.

. 0,-,)
cr.

j

71

1

o..i\jk

J

IY

(,2,4ii¥/"'Y

a..ERX ClRCt!lT

!

\
1

,.

v.,,-"

571a

Dr. Kirkland stated, and the Court agrees, that it was more than a possibility that Jenkins
committed the crime for some reason unrelated to any abuse he suffered.
In summary, Dr. Lisak was nothing more than a conduit through which to admit

hearsay who was paid $5000. He did not evaluate Jenkins, he administered no psychological
tests to him, and offered no expertise to assist the trier of fact. Dr. Lisak had no first hand
knowledge of any of the facts to which he testified and most of those facts were already
before the Court through the testimony of the lay witnesses. The Court finds that this
evidence, in the form that it was presented, was not credible and discounts altogether the
testimony of Dr. Lisak as an expert. While Jenkins may well have been abused as a child, Dr.
Lisak's testimony does not show, that but for the failure to present his testimony to the jury,
the result of the proceedings would have been different.
, Testifying in rebuttal for the State was Dr. Karl Kirkland, a clinical psychologist
who had participated in.over 500 forensic evaluations, 322 of which were in criminal cases.
Dr. Kirkland had testified 146 times as a forensic psychologist, 29 of those cases being capital
murder cases. Of those 29 cases, Dr. Kirkland was retained by the defendant at least a dozen
times. Dr. Kirkland evaluated Jenkins and administered a number of psychological tests. Dr.
Kirkland found that' Jenkins showed signs of severe depressiop;. which in the Court's .. -:
experience, is not unusual for a death row inmate. Dr. Kirkland also found that some of the
test results produced an invalid profile in that Jenkins answered the questions:in a way that
.

\

tended to over-emphasize and exaggerate. his symptoms. Jenkins scored in ,the range of

/

borderline intellectual functioning, with an l.Q. of76. Dr. Kirkland described Jenkins as a
slow learner though not technically learning disabled. In his expert opinion, this had no effect

Dcl;
ST.

j

1 1997
\NUN I)'

<J.E?:< CRClJIT CC!:::rr

72

572a

on Jenkins's ability to appreciate the criminality of his conduct. In fact, Dr. Kirkland stated
that, in his opinion, Jenkins did appreciate the criminality of his conduct.
Dr. Kirkland, in contrast to Dr. Lisak, testified that ,while not denying that
Jenkins was abused, his observation of the witnesses was that they inflated and exaggerated
the degree of abuse. In his opinion, this was done possibly out of feelings of shame and guilt
and in an attempt to help a loved one. The Court agrees. Dr. Kirkland found that Jenkins did
not suffer from any mental disorder that would detract from his ability to appreciate the
criminality of his conduct and he also did not think that Jenkins suffered from any mental
disorder at the time of the murder.
The Court finds, as did Dr. Kirkland, that there was no causal connection between
the abuse allegedly suffered by Jeruqns and the brutal murder he committed. Absent some
causal connection either making Jenkins less culpable or mitigating some circumstance of the
crime, the allegedly mitigating evidence does not mitigate the cnme at all: It is not the case
here that Jenkins suffered abuse which resulted in a mental disorder that caused him to
commit the murder. There was ten years between the end of the alleged abuse and the murder
.

.

of Tammy Hogeland.:rhl..s fact severely undercuts the weight
hearing. On this

the

finds the

evidence

at the

of a Federal District Court to be both

sound and persuasive.
Motley's argument is simple and wrong, [He argues that] [h]is
circumstances were pitiful as a child; therefore, he is not
responsible for his acts. Freedom necessarily implies
responsibility; Motley abused his freedom. He must bear the

.

/

.

573a

consequences the state of Texas has prescribed for this
particular abuse, after he has been afforded every protection the
procedure of a humane, reasonable people can offer.
Child abuse is tragic for anyone, but its ability to break the
causal connection between the free will of the defendant and the
fate of his victim has never been suggested. If a defendant
could argue that this experience as a youthful victim of abuse
led him to react excessively to his perception of a threat, he
could lend some support to an otherwise implausible assertion
of self defense. These sorts of considerations were not present
in this case.
Motley argues that his experience as a victim of abuse in part
justified his murdering an innocent passer-by... ; this is not a
constitutional issue. Motley's position is an insult to people
everywhere who have overcome their injuries and deprivations
to become successful contributing members of our community.
Also,
are committed by people who were not abused,
contradicting the causal inference Motley wants the court to
make.
Motley v. Collins, 18 F.3d 1223, 1228 (5th Cir.), cerl. denied, 523 U.S. 960 (1994) (quoting
from the findings of the District Court decision under review).
Regarding the statutory mitigating circumstances·the record reveals that the jury
was instructed on them at least three times. (R. 1716-17, 1747-48, 1759-60) At one point, the
jury was specifically instructed as follows:
The law in this State provides a list of some of the mitigating
circumstances which you may consider. The list is not a
complete list of mitigating circumstances you may consider.
Now, I have already read to you, I have in here that I did, but I
will read it to you again, but I have already read to you the
mitigating circumstances that you might consider. There are
seven of them. And if there are other mitigating circumstances
that are not enumerated in the Code section, you have a right to
consider that also in reaching your decision as to punishment. I

574a

have read you all of the seven mitigating circumstances set out
in the Code. And I have instructed you that you may consider
all seven of these whether they exist or not. A mitigating
circumstances considered by you should be based on the
evidence you have heard. When the factual existence of an
offered mitigating circumstances is in dispute, the State shall
have the burden of disproving the facts that exist of that
circumstance by a preponderance of the evidence. The burden
of disproving it by a preponderance of the evidence means that
you are to consider that the mitigating circumstance does exist
unless the evidence as a whole it is more likely than not the
mitigating circumstances does not exist. Therefore. if there is a
factual dispute over the existence of a mitigating circumstances,
then you should find and consider the mitigating circumstances
does exist unless you find the evidence from the evidence that it
is more likely than not that the mitigating circumstance did not
exist.
. (R. 1747-48) (emphasis added).

The Court additionally notes that the jury was instructed to consider the evidence
offered during the guilt phase in making a sentencing recommendation. (R. 1717, 1742) The
age of Jenkins was introduced into evidence at the guilt stage, as was testimony which
indicated that Jenkins was intoxicated on the night of the murder. (R 1148,958-970, 1156,
1217) The State presented no evidence nor argument disputing the existence of Jenkins's age
as a mitigating circumstance. Likewise, the State presented no evidence nor argument to
indicate that Jenkins had any criminal history, much less a significant one. Therefore, the
Court finds that Jenkins was not prejudiced by trial counsels failure to expressly argue the
\

statutory mitigating circumstances in question. Also, the record reveals that Stan Downey
examined the penalty phase witness who was presented, and argued on behalf of the defense

DEC 3 ,

75

},

"'I

575a

for a recommendation oflife without parole. As noted previously, Jenkins did not call Mr.
Downey as a witness at the evidentiary hearing. The Court is left to speculate as to why Mr.
Downey took the actions he did. A decision not to argue voluntary intoxication as mitigation
has been held to be the product of reasonable strategy. Because the petitioner bears the burden
of proof, this Court will not speculate and presume deficient performance.
Finally, a great deal of information concerning Jenkins's background was
contained in the pre-sentence report received by the trial court prior to sentencing. The
information was supplied to the investigating officer by friends and family of Jenkins who
resided in California. The information is similar to that which was presented at the
evidentiary hearing although not nearly as extreme. The Court does not find it to be
insignificant that family and friends, at the time of trial, did not relate the extreme levels of
abuse which the Court was privy to at the Rule 32 hearing.
Upon receiving the information contained in the pre-sentence report, Doug
'Scofield prepared a "pre-sentence memorandum" for consideration by the trial court. (C. 119131) Mr. Scofield testified

he felt he made the best arguments possible based on the

information contained in the .report. The Court finds the

written and an

excellent use of the information. The trial court, based upon allofthe
presentence report, and the arguments of

found the existence of the following
\

:'

statutory mitigating circumstances: (1) lack of a significant criminal history and; (2) the age
of the defendant at the time of the crime. The trial court, additionally considered Jenkins's

FILED
DEC J
ST. Q.AlR
a..ERK

'JI,)'} I
\.\JUI'I I

COURT

76

576a

abusive background and troubled youth to the extent it was contained in the pre-sentence
report. Nevertheless, the aggravating circumstances were found to outweigh the mitigating
circumstances and Jenkins was properly sentenced to death.
C. Ineffective Assistance Of Counsel
On Appeal

Jenkins raised in claim (rom) of the amended petition that his counsel was
ineffective on appeal. This claim is addressed and rejected below.
(mm) The claim that appellate counsel failed
to provide effective assistance
of counsel on appeal to the Alabama Court
of Criminal Appeals and the Alabama
Supreme Court

Mr. Scofield testified at the evidentiary hearing that he continued to represent
Jenkins on appeal. (EH! 403) Although he was the attorney of record, Mr. Scofield stated that
he was assisted a great deal by an attorney with the Capital Resource Center, Hillary
Hoffman. (EH. 403) The Court notes that the Capital Resource Center represents death row
inmates exclusively and the majority of that representation occurs at the appellate level.
Regarding the extent of Ms. Hoffman's involvement in the

Mr. Scofield stated the

following:
I continued to be involved in the sense of Hillary would prepare
things. I would review them for signatures and things like that.
She did the majority of the work after that point. I reviewed
court opinions. I reviewed her drafts and this, that and the
other. Primarily, at that point, she became more involved in the
actual appellate aspect of the case. I argued the case before the

77

577a

Courts. In terms of the actual preparation, she would make
drafts, send them to me and I would review them.
(EH. 404) The Court does not find it to be insignificant that the Capital Resource Center was,
in essence, raising the issues on appeal and preparing the supporting argument. The past
experience of an attorney is an important consideration in evaluating ineffective assistance of
counsel claims. See State v. Whitley, 665 So.2d 998, 999 (Ala. Crim. App. 1995)(denying
ineffective assistance of counsel claim while pointing out that "[d]efendant's attorney had
extensive experience in the trial of criminal cases and specifically homicide cases. ")
Finally, Jenkins offered no relevant evidence in support of this claim at the
evidentiary hearing. Jenkins has the burden to prove by a preponderance of the evidence the
facts necessary to show that he is entitled to relief. Rule 32.3, A.R.Crim.p'. In order to do so
successfully, in relation to an ineffective assistance of counsel claim, he must show both
deficient performance and prejudice. In presenting no evidence, he has shown neither. This
claim is dismissed.
CONCLUSION

As specifically stated in the beginning of this

precluded and do nat entitle him
"

•

_ .••...l

,

allY relief. As to the remaining claims before the Court,

• ..;;....

-.

•

":

•• _

• ,..:••

.'

.

')

Jenkins has failed to prove to the satisfaction of the Court that he is entitled to relief. Rule
...... - .
32.3. ARCrim.P. Based upon the evidence and exhibits presented at the Rule 32 hearing,
\

and the Court's observations and evaluations of the credibility and demeanor of the witnesses,
the Court finds that Jenkins is not entitled to any relief an his past-conviction petition.
Jenkins is nat entitled to a perfect trial, only a fair trial under constitutional principles. The

FILED
lOEG j 1
ST. (lAIR WUrHY

ClERK

al1curr COURT

78

:'

578a
Court is convinced that Jenkins's conviction and sentence of death are the result of a fair trial
wherein he received all constitutional privileges to which he was entitled, including effective
representation of counsel. It is therefore
ORDERED, ADJUDGED, AND DECREED that Jenkins's Rule 32 petition is due to
be and is hereby denied.

3rsJ

This the" day of December 1997 .
..'

FILED
Sf. nAIR UJUN I Y

?L"i-wtto/

CtERK ORCUtT COURT

Case: 17-12524

Date Filed: 08/26/2020
579a

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 17-12524-P
________________________
MARK ALLEN JENKINS,
Petitioner - Appellant,
versus
COMMISSIONER, ALABAMA DEPARTMENT OF CORRECTIONS,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Northern District of Alabama
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE:WILSON, BRANCH, and TJOFLAT, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

